<html>
<title> - HOMELAND SECURITY FAILURES: TWIC EXAMINED</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      HOMELAND SECURITY FAILURES:
                             TWIC EXAMINED

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 31, 2007

                               __________

                           Serial No. 110-81

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-976                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     3
The Honorable Paul Broun, Jr., a Representative in Congress from 
  the State of Georgia...........................................    50
The Honorable Michael N. Castle, a Representative in Congress 
  From the State of Delaware.....................................    41
The Honorable Donna M. Christensen, a Representative in Congress 
  From the U.S. Virgin Islands...................................    45
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    40
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania......................................    39
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    37
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    51
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    43
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    54
  Prepared Statement.............................................    55
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    57
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    53
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    36

                               Witnesses
                                Panel I

Ms. Cathy Berrick, Director, Homeland Security and Justice, 
  Government Accountability Office:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
The Honorable Edmond S. ``Kip'' Hawley, Assistant Secretary, 
  Transportation security Administration, Department of Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
Admiral Brian Salerno, Director, Inspection and Compliance, U.S. 
  Coast Guard, Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9

                             For the Record
                                Panel II

Prepared Statements:
  Mr. Maurice Emsellem, Public Policy Director, The National 
    Employment Law Project, (NELP)...............................    61
  Ms. Lisa B. Himber, vice President, Maritime Exchange for the 
    Delaware River and Bay.......................................    69
  Ms. Judith Marks, President, Transportation and Security 
    Solutions, Lockheed Martin Corporation.......................    74
  Mr. George A. Quick, Vice President, International Organization 
    of Masters, Mates and Pilots.................................    80
  Ms. Bethann Rooney, Manager, Port Security, Port Commerce 
    Department, Port Authority of New York and New Jersey........    84

                                Appendix

Additional Questions and Responses:
  Responses from Ms. Cathy Berrick...............................    91
  Responses from the Honorable Edmond S. ``Kip'' Hawley..........    94
  Responses from Admiral Brian Salerno...........................   103


               HOMELAND SECURITY FAILURES: TWIC EXAMINED

                              ----------                              


                      Wednesday, October 31, 2007

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Dicks, Harman, 
DeFazio, Lofgren, Jackson Lee, Christensen, Carney, Perlmutter, 
King, Dent, Lowey, Etheridge and Broun.
    Also present: Representative Castle.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    We would like to welcome the Congressperson from Delaware, 
and I would like to ask unanimous consent that Representative 
Castle be allowed to sit and participate in the hearing before 
the committee today.
    So ordered.
    The committee is meeting today to do oversight on the 
Department of Homeland Security's rollout of the Transportation 
Worker Identification Credential.
    I would like to also indicate that the ranking member 
indicated he is en route and that we could begin. He should 
arrive before I finish my remarks.
    Good morning and thank you for being here today for the 
oversight hearing of the Transportation Worker Identification 
credential, commonly referred to as TWIC.
    This hearing dovetails nicely with the hearing that was 
held by Ms. Sanchez's subcommittee yesterday.
    TWIC was mandated in law 5 years ago. It was supposed to 
provide an extra layer of security at our nation's ports and 
other critical transportation hubs.
    However, it seems that even before this program gets off 
the ground, it may have some fatal flaws that undermine its 
ultimate effectiveness.
    I look forward to hearing testimony on how the rollout has 
been going in Wilmington over the past 2 weeks. It should be 
very instructive for what other ports should expect.
    Already we are hearing that organized crime is working to 
develop a fake TWIC card to operate in our ports. It is time to 
say enough is enough.
    It is time for the Department of Homeland Security to step 
up. The department needs to be straight with us and give us 
specifics on when TWIC will be rolled out in all of our 
nation's ports.
    We also need to know how many people will need a TWIC card 
and what resources will be necessary to process them. If the 
estimates that I am hearing are correct, you have a real 
problem on your hands with the estimates.
    In the past, the department has projected that 750,000 
workers would need cards in the entire nation. The port of 
Houston alone expects 350,000 applicants, unless we are wrong 
somehow, and Houston is not one of the largest ports, as you 
know.
    We also need to know how many transportation workers are 
going to be disqualified from attaining a TWIC. We understand 
that some estimates go as high as 40 percent of all truck 
drivers could be disqualified.
    The department's inability to correctly forecast these 
numbers undermines this committee's confidence in you getting 
the program right.
    Ports are a vital part of ports commerce in this country 
and if TWIC is not done right, ports could come to a virtual 
standstill. This would have a real and direct impact on 
commerce.
    Similarly, I am concerned about the department's waiver and 
appeal process. DHS is going to depend on the FBI records to 
check names. FBI records, according to the Justice Department, 
are flawed and incomplete. In fact, about half of all records 
do not even have information on final disposition.
    Finally, I am concerned about the possibility that the TWIC 
credential is not going to be the one and only card that our 
nation's transportation workers will have to obtain. The 
department has decided not to preempt states' access card, 
therein creating yet another layer of bureaucracy and 
additional costs to our workers.
    The department is already charging $132.50 for the TWIC. 
How much more should we expect folks to pay?
    We also see that Florida, for instance, has already created 
its own access card. Our nation's transportation workers do not 
deserve more bureaucracy and confusion. We owe them security. 
We owe them accountability and, most importantly, we owe them 
freedom from fear. Our workers deserve no less.

    Prepared Remarks of the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

    Twic was mandated in law five years ago. It was supposed to provide 
an extra layer of security at our nation's ports and other critical 
transportation hubs.
    However, it seems that even before this program gets off the 
ground, it may have some fatal flaws that undermine its ultimate 
effectiveness. I look forward to hearing testimony on how the roll-out 
has been going in Wilmington, over the past two weeks. It could be very 
instructive for what other ports should expect.
    Already, we are hearing that organized crime is working to develop 
a fake TwIC to operate in our ports. If time to say enough is enough. 
It is time for the Department of Homeland Security to step up. The 
Department needs to be straight with us and give us specifics on when 
TWIC will be rolled out at all our nation's ports.
    We also need to know how many people will need and TWIC and what 
resources are necessary too process them. If the estimates that I am 
hearing correct, you could have a real problem on your hands. In past, 
the Department has projected that just 750,000 workers would need cards 
in the entire nation. The port of Houston alone expects 350,000 
applicants.
    We also need to know how many transportation workers are going to 
be disqualified from attaining a TWIC. We understand that some 
estimates are that 10 to 40 percent of all truck drivers could be 
disqualified.
    The Department's inability to correctly forecast these numbers 
undermines this Committee's confidence in you getting this program 
right. Ports could come to a virtual standstill.
    This would have a real and direct impact on commerce. Similarly, I 
am also concerned about the Department's waiver and appeals process.
    DHS is going to depend on the FBI records to check names. FBI 
records, according to the Justice Department are flawed and incomplete. 
In fact, about half of all records do not even have information on 
final dispositions.
    Finally, I am concerned about the possibility that the TWIC 
credential is not going to be the ``one and only'' card that our 
nation's transportation workers will have to obtain. The Department has 
decided not to pre-empt State access cards--therein creating yet 
another layer of bureaucracy and additional costs to our workers.
    The Department is already charging $132.50 for the TWIC. How much 
more should we expect folks to have to pay? Our nation's transportation 
workers do not deserve more bureaucracy and confusion. We owe them 
security. We owe them accountability. And most importantly, we owe them 
freedom from fear. Our workers deserve no less.


    Mr. Thompson. The chair now recognizes the ranking member 
of the full committee, the gentleman from New York, Mr. King, 
for an opening statement.
    Mr. King. Thank you, Mr. Chairman. Again, I appreciate the 
hearing being held and thank you for holding it, scheduling it.
    I also want to welcome Mr. Castle from Delaware. Obviously, 
the port in Delaware is the first up and it is very thoughtful 
of him to be here to give us the benefit of his insights, and 
thank him for his service.
    Obviously, the TWIC program is vital. We have been waiting 
for it for years. It is a priority of the Congress that it be 
done. It is also a priority that it be done the right way.
    It would serve no purpose to rush it through and create 
more problems. At the same time, DHS has to make sure that this 
is implemented. While the scheduled dates are not being met, 
the fact is every effort is being made to move it along as 
quickly as possible.
    The chairman recited a list of things that could go wrong 
and potential problems, and that is true. Nobody said this 
would be easy. And I think it is important for us to listen to 
the testimony today, see what has been done, what is planned to 
be done, what is happening with the pilot programs, when full 
implementation is going to be inspected, what is going to 
happen as far as the card reader pilot, what is going to happen 
as far as the employees, as far as their backgrounds, how that 
will impact, how many it is going to affect, whether or not DHS 
is on target, close to being on target as far as the number of 
cards that will have to be issued.
    All of these are significant issues. I think it is 
important, though, for us to realize that it serves no real 
purpose just reciting what is wrong or what could be wrong. Let 
us also see what can be done to address the deficiencies that 
are there, to make sure that when the program is fully up and 
running, that it is running at maximum effectiveness and that 
we not just, again, try to harp on what could be possibly done 
better at some time in the future.
    Let us make a cooperative effort to work together. Where 
the department needs help, let us give it to them. Where we 
think the department is deficient, let us make it known to them 
and deal with them in a very honest and straightforward way, as 
I know they will deal with us in their testimony today.
    I especially want to welcome Bethann Rooney from the port 
of New York and New Jersey, who has been coming to these 
hearings for a number of years now. I don't know how she 
survives either the job or the hearings, but she does it and I 
want to thank her for her constant work and dedication, and all 
the witnesses, especially Kip Hawley, who I believe does an 
outstanding job and against terrible odds and under dire 
circumstances.
    And with that, I yield back the balance of my time.
    Chairman Thompson. Thank you very much.
    Other members of the committee are reminded that under 
committee rules, opening statements may be submitted for the 
record.
    I welcome the first panel of witnesses to the hearing. Our 
first witness is the honorable Kip Hawley, administrator of the 
Transportation Security Administration.
    Our second witness is Rear Admiral Brian Salerno, director, 
Inspection and Compliance, U.S. Coast Guard. Welcome.
    Our third witness is Ms. Cathy Berrick, who is a senior 
executive for the Government Accountability Office's homeland 
security and justice team. We are happy to have you.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Administrator Hawley. Welcome.

     STATEMENT OF EDMOND S. ``KIP'' HAWLEY, ADMINISTRATOR, 
TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Hawley. Thank you, Mr. Chairman, Ranking Member King 
and members of the subcommittee.
    I have submitted the testimony for the record, and in the 
spirit of plain talking, which is honored in this committee, I 
would like to just address the issues.
    I took six issues from the opening statement from both Mr. 
Thompson and Mr. King that I think are the primary issues that 
we need to address and I will just quickly hit them.
    On the issue of the number of people who will need TWIC 
cards, the business model, that is, a pay-as-you-go system, 
allows for that to be scalable up to whatever number that is. 
So whether it is a million, a million-two, a million-five is 
not a constraint on the viability of the program, because the 
contract is written that our provider gets paid by the card. So 
there will be resources to flex to whatever that number is.
    So the fact that we can't identify an exact number of 
people who will want a card and who will get one, even though 
it may not be specifically required of them, is not a 
constraint on the program.
    On the issue of the disqualifications, the data point that 
we have is the HAZMAT endorsement on the commercial driver's 
license and it has very similar requirements as the TWIC card, 
and that has proven not to be a major problem.
    Our interest is in finding terrorists and keeping them out 
of our ports, not denying a card to somebody who had an issue 
earlier in their career.
    So we found essentially that of the 730,000 people that 
have been vetted, less than 100 who have been willing to work 
with us to resolve the issues have had an issue, which is about 
one in 10,000.
    So our sense is we are not going to have the problem that 
is projected. We are going to make sure that this program does 
not become a barrier for good people who are working to be 
disqualified. Our interest is to get as many people as quickly 
on board.
    On the issue of the card readers, the Safe Port Act 
requires us to do a pilot and then, within 2 years, issue the 
final rule on what the card reader requirements are. So in 
terms of us not having card readers out there when we are 
issuing TWIC cards, that is directly responsive to the law that 
was just passed by the Congress and I think that the 
enforcement by the Coast Guard is, in fact, a good security 
measure that we can elaborate as we go forward.
    As to the when, we announced, for the 147 ports, we 
announced a quarterly roll for when that should be expected. I 
think the key point is the one that Mr. King made about that we 
do it right, that this is the most advanced biometric system 
that is flexible, with all employers, all ports.
    And if we roll it out too quickly and, therefore, as Mr. 
Thompson said, tie up commerce in these ports, that would 
defeat the purpose. So our goal is to roll it out as 
expeditiously as possible, but with a caveat that we are going 
to make sure it observes all the privacy requirements, the 
proper due process, the security requirements. We are going to 
make sure it is a success as we go.
    As to the issue of the organized crime thing, I think that 
is a very good signal that they ought to be worried that the 
TWIC card is coming, because they are not able to counterfeit 
it.
    When the Coast Guard shows up with their handheld biometric 
readers, they will be caught. I think they should be worried 
about it.
    And the program has gone through an extensive period of 
preparation and vetting and we have had a lot of criticism 
that, frankly, has helped the program, both from the inspector 
general's office, the Congress, and the GAO, that has 
highlighted the issues with TWIC and we have addressed those 
issues and now the program is, in fact, up and running and I do 
not see a barrier why this program should not continue to be a 
success, and I look forward to discussing those issues with the 
committee.
    Thank you, sir.
    [The statement of Mr. Hawley follows:]

      Prepared Statement of the Honorable Edmond ``Kip'' Hawley, 
 Administrator, Transportation Security Administration, Department of 
                           Homeland Security

    Good morning Chairman Thompson, Ranking Member King, and 
distinguished members of the Committee. Thank you for this opportunity 
to share with you the significant progress we have made on the 
Transportation Worker Identification Credential (TWIC) program. I would 
like to acknowledge the leadership this committee has provided in 
defining the vision for TWIC.
    The TWIC program is moving towards its objectives while making 
sound decisions focused on enhancing port security and a reasoned, 
phased-in program implementation approach. I am happy to inform the 
Committee that TWIC enrollments began in Wilmington, Delaware, on 
Tuesday, October 16, 2007. After successful start-up in Wilmington, we 
will now proceed to Corpus Christi in early November. By mid-November, 
enrollment will start in Baton Rouge, Beaumont, Honolulu, Oakland, and 
Tacoma. This group will be followed in late November by Chicago/
Calumet, Houston, Port Arthur, Providence, and Savannah.
    In addition to announcing the implementation of the program, we 
have made significant progress in other areas since our last appearance 
before this sub-committee:
        <bullet> Implementation of the pre-enrollment capability;
        <bullet> Completing test milestones on the enrollment system;
        <bullet> Adding TWIC enrollment sites based on stakeholder 
        input;
        <bullet> Reducing the price of a TWIC card;
        <bullet> Establishing reader technical specifications; and
        <bullet> Identifying card reader pilot participants and holding 
        kick-off meetings.

Completing Test Milestones on the Enrollment System
    TWIC will impact hundreds of thousands of American workers 
essential to the smooth flow of global commerce. Once TWIC is up and 
running, TSA will vet as many workers in one day as we did during the 
entire year-long prototype. The importance and enormity of this task 
within the maritime environment, with a dynamic and mobile workforce, 
has demanded a methodical approach with rigorous testing.
    TWIC will be one of the world's most advanced, interoperable 
biometric credentialing programs and is powered by state-of-the-art 
technologies. We have completed our ``flight test'' of the full TWIC 
system, which has five main components:
        <bullet> Pre-Enrollment Web Site: allows workers to schedule 
        appointments and provide information ahead of time to make 
        enrollment easier.
        <bullet> Enrollment Center: captures a worker's biometric and 
        biographic information and submits the information for security 
        processing.
        <bullet> TWIC Core System: routes applicant information for 
        processing, conducts data integrity checks, and manages the 
        status of TWIC cards.
        <bullet> Screening Gateway: aggregates security threat 
        assessment data from the FBI, Citizenship and Immigration 
        Services, and watchlists. It is important to note that the 
        Screening Gateway is used across all of TSA's vetting programs.
        <bullet> Card Production: electronically loads an applicant's 
        information onto a TWIC smart card and then physically produces 
        the card.
    All five of these parts were first tested individually. Next, these 
pieces were integrated to ensure the functionality of the end-to-end 
process of conducting accurate and timely security threat assessments 
and producing high quality credentials. In addition, security and 
privacy requirements were validated throughout the process. After our 
contractor verified system readiness, TSA completed independent 
verification before beginning final test enrollments in the field using 
live vetting on government and trusted contractor personnel.
    Today the switch has been turned on and the doors have opened with 
the commencement of enrollment in Wilmington, Delaware. After we verify 
successful enrollment operations in Wilmington, we will move forward to 
expand TWIC across the nation.

Adding TWIC Enrollment Sites
    The TWIC final rule established a network of 130 enrollment sites 
located across the nation. Understanding the importance of making 
enrollment as convenient and accessible as possible, we have worked 
with maritime stakeholders, the Department, and our partners in the 
United States Coast Guard to add additional locations for TWIC 
enrollment centers. At this time, we will field 146 fixed enrollment 
centers. In addition, we have worked with our contractor to add a 
mobile enrollment capability to take TWIC to the workers.

Reducing the Price of a TWIC Card
    TWIC is a fee-based program paid for by applicants. We fully 
realize that these costs are significant, and we are mindful of the 
need to identify areas for cost reduction. Recently, we announced that 
the fee for a standard TWIC will now be $132.50, a decrease from the 
price anticipated in the Final Rule. Workers with current, comparable 
threat assessments including HAZMAT, Merchant Mariner Document (MMD) or 
Free and Secure Trade (FAST)) will receive a discounted fee of $105.25. 
The cost of a lost, damaged or stolen credential is $60.

Establishing Reader Technical Specifications
    The TWIC technical architecture is compatible with the 
credentialing standards established in Federal Information Processing 
Standard (FIPS) 201-1. This alignment is critical to support card and 
reader interoperability within the maritime mode. In response to 
comments received on the initial TWIC Notice of Proposed Rulemaking 
(NPRM), TSA and the Coast Guard decided to remove the requirement for 
biometric readers from the TWIC final rule to allow time to establish 
technology specifications to support maritime operations.
    TSA and the Coast Guard sought the advice of the National Maritime 
Security Advisory Committee (NMSAC), which established a working group 
to collaboratively develop new technical specifications that complement 
FIPS 201-1 and add features that will support high-volume physical 
access in the harsh maritime environment. The working group included 
representatives from both the maritime and technology industries.
    TSA recently published the TWIC reader hardware and card 
application working technical specification. The working specification 
establishes the requirements for biometric card readers for the pilot 
projects required by the SAFE Port Act. These readers will be tested 
during the pilot program. As the card and readers are envisioned to 
operate when TWIC is fully implemented, use of a PIN will not be 
necessary to release the biometric, unless the owner/operator chooses 
to use contact readers and the contact side of the credential.

Identifying Card Reader Pilot Participants and Holding Kick-Off 
Meetings
    As required by the SAFE Port Act, we have initiated pilot programs 
with five partners across the country to test card readers. The pilots 
will test access control technologies in real world marine 
environments. Our current list of participants includes the Port 
Authorities of Los Angeles, Long Beach, Brownsville, and New York/New 
Jersey, in addition to Watermark Cruises in Annapolis, Maryland. As 
part of the outreach efforts for the TWIC program and the Department's 
Port Security Grant Program, we continue to seek additional 
participants. Our objective is to include pilot test participants that 
are representative of a variety of facility vessels which operate in a 
variety of geographic locations and environmental conditions. There 
appears to be sufficient interest from the maritime community to 
achieve this objective.
    We are in the process of finalizing the test approach for the 
pilots. We are working with the Department of Homeland Security's 
Science and Technology component and the National Institute of 
Standards and Technology (NIST) to establish a test plan that will 
evaluate the card-reader interface under a variety of conditions and 
assess its impact on operations. Through the pilot tests, we will 
investigate the impacts of requiring biometric identity verification on 
business processes, technology, and operational impacts on facilities 
and vessels of various size, type, and location. As the program 
proceeds, the pilots will inform the TWIC reader rulemaking process and 
ultimately result in final regulations that require the deployment of 
transportation security card readers consistent with the findings of 
the pilot program.

Lessons Learned and Future Efforts
    We are proud of the significant progress we have made in the past 
six months and are mindful of the challenges ahead. As we move forward 
in the TWIC program, we are committed to incorporating our lessons 
learned to drive sound management decisions geared at improving all 
aspects of the program, including:
        <bullet> Look for efficiencies by eliminating duplicative 
        regulatory processes. TSA and Coast Guard are developing 
        procedures for the sharing of fingerprints, identity 
        verification, criminal history, and photographs for TWIC which 
        is expected to save not only money but time. In addition, 
        merchant mariners will no longer be required to visit a 
        Regional Exam Center to obtain and renew their credentials, 
        resulting in substantial time and travel savings.
        <bullet> Place the highest value in stakeholder input; it is 
        time well spent. The public hearings, comments to the NPRM, 
        meeting with operators and associations, and contributions of 
        advisory councils all added great value. We came away from each 
        and every one of these efforts better informed about the 
        challenges, the unacceptable impacts, and the practicable 
        options for protecting our ports.
        <bullet> Address the impact on small businesses. TSA and the 
        Coast Guard worked closely with the Small Business 
        Administration to minimize the financial and operational impact 
        on small businesses wherever possible. The rule includes 
        provisions that allow MTSA-regulated passenger vessels 
        (excluding cruise ships) to establish employee access areas for 
        crewmembers that do not require unescorted access to secure 
        areas such as the pilot house and engine room. This provision 
        reduces the impact on those employees who rarely need to use 
        spaces beyond those designated for support of passengers while 
        maintaining the integrity of vessels' secure areas. We are also 
        producing and distributing a Small Business Compliance Guide to 
        assist small businesses in their implementation of the program.
        <bullet> When practical, preserve State regulatory flexibility. 
        Mariner regulations and port security plans preempt state 
        regulations. However, the TWIC regulations do not preempt 
        States from requiring background checks and badging systems for 
        non-security purposes in addition to TWIC. States may need to 
        set standards for important purposes other than terrorism 
        threats, such as theft or organized crime.
        <bullet> Plan for privacy. All data collected at an enrollment 
        center will be completely deleted from the enrollment center 
        work stations after transmission to TSA. The entire enrollment 
        record (including all fingerprints collected) is stored in the 
        TSA system, which is protected through role-based entry, 
        encryption, and segmentation to prevent unauthorized use. No 
        paper records with personal identification information are 
        created in the enrollment process.
        <bullet> Technical innovation requires adaptive contract 
        management. TWIC is attempting to develop a 21st century 
        technology that accommodates evolving IT standards suited to 
        emerging needs that span local, international, public, and 
        private interests. This requires continual reevaluation of the 
        scope and methods of contracting. The recent Lockheed Martin 
        performance-based contract award is a culmination of our 
        efforts to date. We will continue to look for and implement 
        adaptive program planning, contractor oversight, and metrics to 
        ensure the success of the program.
        <bullet> Plan to address what issues may arise during testing. 
        Evolving technology, such as card readers, create a changing 
        environment and program control constraints. This is especially 
        the case when the technology must be deployed to a vast 
        multitude of entities with remote connectivity challenges 
        (e.g., vessels) and varying degrees of access control system 
        capabilities.

Conclusion
    The steps we are taking will be an extremely important aspect to 
the security of our port facilities and vessels. TSA will continue to 
work with our partners, the U.S. Coast Guard and maritime stakeholders, 
to ensure that for the first time in history thousands of independent 
businesses will have one interoperable security network and workers 
will hold a common credential that can be used across that entire 
network.
    I appreciate the keen interest that the Committee has in an 
effective implementation of TWIC, and I thank you for your support. Mr. 
Chairman, this concludes my testimony, and I would be pleased to answer 
any questions that you may have.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Rear Admiral Salerno to summarize his 
statement for 5 minutes.

 STATEMENT OF ADMIRAL BRIAN SALERNO, DIRECTOR, INSPECTION AND 
 COMPLIANCE, U.S. COAST GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Salerno. Good morning, Mr. Chairman, Ranking Member 
King and distinguished members of the committee.
    Thank you for this opportunity to speak with you this 
morning on the current status and the way forward for the TWIC 
program.
    Since enrollment started in Wilmington, Delaware on October 
16, we have been monitoring all aspects of the process in order 
to identify any areas that need refinement as we move forwards 
with enrollment in larger, higher consequence ports around the 
country.
    The Coast Guard is committed to working in partnership with 
TSA and with our industry stakeholders to get this right. It is 
in this spirit that we have already addressed many of the 
concerns expressed by our stakeholders about TWIC 
implementation.
    For example, based on stakeholder input, we, and I mean TSA 
and the Coast Guard collectively, have increased the number of 
TWIC enrollment locations from 130 to 147. We have enhanced 
mobile enrollment capabilities.
    We have developed detailed guidance documents to assist 
owners, operators and TWIC applicants. We have instituted new 
special hire provisions. We have proposed regulations to 
streamline merchant mariner applications and reduce the number 
of credentials they are required to carry. And we have 
developed and published a state-of-the-art contactless reader 
specification, which lays the foundation for readers that will 
maximize personnel throughput and meet the harsh environmental 
conditions common to maritime operations.
    This latter point also signals our way forward. Even as we 
are working to implement the enrollment plan, we have 
concurrently begun work on a rulemaking that will address card 
readers, which will be used to verify a TWIC holder's identify.
    We have sought the collaboration of our stakeholders in 
this effort and have received recommendations on specific 
potential reader provisions from the National Maritime Security 
Advisory Committee, the Merchant Marine Personnel Advisory 
Committee, and the Towing Safety Advisory Committee.
    In the meantime, it is important to note that the 
implementation of TWIC, even in the absence of reader 
requirements, will have an immediate positive security benefit.
    For the first time, we will have a universally recognized 
tamper-resistant credential, backed by a robust threat 
assessment, that will be checked before individuals are granted 
unescorted access to facilities and vessels.
    The Coast Guard also intends to procure handheld readers 
for use during routine and unscheduled vessel and facility 
security examinations, and we use these to randomly check the 
validity of an individual's TWIC.
    TSA and the Coast Guard continue to reach out to our 
private sector stakeholders in the interest of fashioning a 
regulation that strengthens American's maritime security, while 
advancing commerce.
    While the TWIC program is multifaceted and includes 
numerous players, we are committed to developing an 
operationally sound framework that maximizes the security 
benefit that TWIC provides.
    Thank you for the opportunity to speak to you today, and I 
will be happy to take your questions.
    [The statement of Admiral Salerno follows:]

            Prepared Statement of Rear Admiral Brian Salerno

    Good Morning Mr. Chairman and distinguished Members of the 
Committee, thank you for the opportunity to speak with you about how 
the Coast Guard, in partnership with the Transportation Security 
Administration (TSA), is implementing the Transportation Worker 
Identification Credential (TWIC) program.
    At the outset, I would like to note that with the commencement of 
TWIC enrollment in Wilmington, Delaware on October 16th, this program 
reached a major milestone where the plans and capabilities developed in 
the past will start to yield the security benefits envisioned for the 
future. In the 15 months since DHS proposed TWIC requirements in a 
Notice of Proposed Rulemaking (NPRM), the Coast Guard and TSA have been 
laying a solid foundation in the form of regulation, policy, systems, 
and capabilities which sets the stage to succeed with enrollment and 
compliance. The deliberate process and careful steps taken to lay this 
foundation have been absolutely crucial to ensure that we gain the full 
security benefit from TWIC and minimize the negative impact of the 
program on trade and the many hundreds-of-thousands of people who will 
be enrolling.

Background
    In understanding where we are today, I would like to review the 
efforts of the past. The TWIC program builds on the security framework 
established by Congress in the Maritime Transportation Security Act of 
2002 (MTSA). Coast Guard regulations stemming from the Act established 
security requirements for maritime vessels and facilities posing a high 
risk of being involved in a transportation security incident. The MTSA 
also required the Department of Homeland Security (DHS) to issue a 
biometric transportation security card to licensed and documented U.S. 
mariners and those individuals granted unescorted access to secure 
areas of MTSA regulated vessels and facilities. TSA was assigned this 
requirement, and because of our overlapping responsibilities, the Coast 
Guard and TSA formally joined efforts to carry out the TWIC program in 
November 2004. In this partnership, TSA is responsible for TWIC 
enrollment, security threat assessment and adjudication, card 
production, TWIC issuance, conduct of the TWIC appeal and waiver 
process, and management of government support systems. The Coast Guard 
is responsible for establishing and enforcing TWIC access control 
requirements at regulated vessels and facilities. Both agencies partner 
daily to make sure that our collective efforts achieve the increased 
security objectives which MTSA intended.
    The TSA and Coast Guard published a joint TWIC Notice of Proposed 
Rulemaking on May 22, 2006. Following the publication of the NPRM and 
the subsequent comment period, Congress enacted the Security and 
Accountability for Every Port Act of 2006 (the SAFE Port Act). The SAFE 
Port Act created new statutory requirements for the TWIC Program, 
including: the commencement of a pilot program to test the viability of 
TWIC cards and readers in the maritime environment; deployment of the 
program in priority ports by set deadlines; inclusion of a provision to 
allow newly hired employees to work while the TWIC application is being 
processed; and concurrent processing of the TWIC and merchant mariner 
applications.
    TSA and the Coast Guard published the TWIC final rule on January 
25, 2007 in which the Coast Guard's MTSA regulations and TSA's 
Hazardous Material Endorsement regulations were amended to incorporate 
the TWIC requirements. Despite the original proposal in the NPRM, this 
final rule did not require the installation of card readers at vessels 
and facilities. This requirement is currently being addressed in a 
second notice and comment rulemaking which I will discuss below.

Policy
    The Coast Guard and TSA developed several supplementary documents 
to help those who are required to comply with the regulation. To 
explain in detail how the Coast Guard and TSA intend to apply TWIC 
regulations, we established policy guidance in the form of a Navigation 
and Vessel Inspection Circular (NVIC), which was made available to the 
industry and general public on July 6, 2007. This cornerstone guidance 
document will assist the maritime industry and general public with TWIC 
compliance and is designed to ensure consistent application across all 
of our MTSA regulated facilities and vessels. Two Small Business 
Administration Compliance Guides, one for owners and operators and 
another for TWIC applicants, were written to explain the program in 
basic language intended for the general public. These guides are 
available on our web sites. Internal guidance documents for training, 
implementation, and enforcement for Coast Guard and TSA personnel 
continue to be developed.

Stakeholder Engagement
    From the outset, engagement with our affected stakeholders has been 
crucial to the program's success. The comments during the NRPM comment 
period provided valuable insight into the unique operational issues 
facing labor, the maritime facilities and vessels which would have to 
implement the program and comply with its requirements. Comments 
questioning the technological and economic feasibility of employing the 
TWIC cards and card readers in the maritime environment led to the 
splitting of the rule and card reader requirements being addressed in a 
separate rulemaking. Throughout February and March of this year, the 
Coast Guard solicited comments from Coast Guard field units and 
industry stakeholders while drafting the TWIC NVIC. We received over 
400 comments voicing general support for the policy and highlighting 
issues which needed more clarification. The stakeholder dialogue we 
developed allowed us to include most of the recommended policy changes 
into the NVIC. Since publication of the Final Rule, the Coast Guard, 
TSA and TSA's contractor Lockheed Martin have conducted numerous 
outreach events at national venues such as the Passenger Vessel 
Association Conference, smart card and biometric industry conferences, 
maritime union meetings, American Waterways Operators meetings and 
American Association of Port Authorities conferences.

Reader Requirements
    The Coast Guard, with the support of TSA, has commenced work on the 
second TWIC rule which will address the requirement for TWIC readers in 
the maritime environment. The Coast Guard and TSA solicited and 
received valuable input and recommendations from the Towing Safety 
Advisory Committee (TSAC), Merchant Marine Personnel Advisory Committee 
(MERPAC) and the National Maritime Security Advisory Committee (NMSAC) 
on specific aspects of potential applications of readers for vessels 
and facilities. As in all aspects of the TWIC program, our goal in this 
is to enhance maritime security while balancing the impact upon the 
stakeholders who are at the forefront of providing that security. As 
this second rule will have a significant economic and operational 
impact on the maritime industry, which is also a critical component of 
our national maritime security efforts, we will continue to seek their 
input and recommendations as we develop regulations for which they must 
comply.
    To move forward establishing these requirements, TSA and the Coast 
Guard had to address a principal stakeholder concern that open slot, or 
``contact'' readers are not appropriate for application in all maritime 
environments or operations. To address this, the Coast Guard and TSA 
chartered the NMSAC to recommend a specification which would enable the 
TWIC and readers to function in a ``contactless'' fashion, without 
having to insert a card into a reader. Combining the operational 
experience of maritime stakeholders with the technical expertise of 
members of the security and biometrics industry, the NMSAC produced 
recommendations which resulted in a working specification published by 
TSA and the Coast Guard on September 19th. This specification will 
enable biometrics manufacturers to produce readers which can be applied 
to the TWIC pilot and eventually towards future reader requirements 
promulgated by the Coast Guard.

Redefinition of Secure Areas
    An aspect of the TWIC program which provides flexibility in 
implementation enables owners or operators of facilities containing 
both a maritime transportation portion and a non-maritime 
transportation portion, such as areas devoted to manufacturing or 
refining operations, to request a redefinition of their secure area 
where TWICs will be required for unescorted access. This process 
includes an amendment to a facility's security plan. This process is 
currently underway across the United States with owners and operators 
engaging directly with their local Coast Guard Captains of the Port 
(COTP) to determine how TWIC will be applied at their facilities.

Enrollment Sites by Port
    Over the last several months, we have reviewed and reevaluated the 
list of original TWIC fixed enrollment locations, which included 
enrollment in 130 ports. With a goal of maximizing convenience and 
service to the maritime community, we solicited input from Coast Guard 
COTP and stakeholders, resulting in the addition of a number of fixed 
enrollment sites and the shifting of others. Today, the list contains 
147 port enrollment locations including key inland ports such as 
Paducah, Kentucky as well as remote locations such as Saipan, where 
MTSA regulated facilities and vessels routinely operate.

Reader Pilot Testing
    In accordance with the SAFE Port Act of 2006, TSA and the Coast 
Guard have identified geographically and operationally diverse port and 
vessel locations willing to participate in the reader pilot testing. We 
have been engaged in planning these pilot tests with the ports of Los 
Angeles, Long Beach, New York, New Jersey, Brownsville and Annapolis, 
Maryland, all of whom have volunteered to participate and have received 
grants to purchase and install readers with associated equipment. The 
initial planning and testing protocols have been developed and we look 
forward to deploying and testing readers in real world environments in 
the coming months. The data and lessons learned from the pilot tests 
will be invaluable to inform the second proposed rulemaking in 
accordance with Congressional intent.

The Way Ahead
    As enrollment rolls out across the country, the Coast Guard is also 
focusing on implementation and enforcement of TWIC provisions. 
Compliance for regulated facilities will be staged for each COTP Zone 
to gain the security benefits of the program at the earliest moment. 
TSA and the Coast Guard will monitor enrollment progress and will 
announce compliance in each zone at least 90 days in advance. Vessels 
and mariners will have to have TWICs by the national compliance date of 
September 25, 2008.
    To leverage TWIC's biometric capability, the Coast Guard is in the 
process of procuring handheld biometric card readers which will enable 
us to verify the identity of an individual and the validity of their 
credential during our vessel and facility inspections and spot checks. 
We are also on track with developing the systems necessary to implement 
the provision for newly hired employees to work while they await 
issuance of a TWIC. Internally, we are crafting policy for enforcement 
of the TWIC program in our ports and will seek enforcement 
collaboration with other law enforcement agencies.

Conclusion
    The TWIC program is a complex endeavor. However, we are working 
with TSA to set a solid foundation upon which to execute enrollment and 
implementation. We have accomplished important milestones, strengthened 
working relationships with public and industry stakeholders, and held a 
steadfast commitment to protecting the maritime transportation system 
while facilitating commerce. While we acknowledge much has been 
accomplished to set the stage for this program, we cannot guarantee a 
trouble free process. Inevitably, we will continue to encounter 
additional challenges, as happens in any major endeavor of this 
complexity. As we have in the past, we will address each of these in 
turn, to the best of our ability, in keeping with the best public 
interest, and we will keep you informed on our progress. I would be 
happy to take any questions you have at this time.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Ms. Berrick to summarize her statement for 
5 minutes.

  STATEMENT OF CATHY BERRICK, DIRECTOR, HOMELAND SECURITY AND 
           JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Berrick. Thank you, Mr. Chairman, Ranking Member King 
and members of the committee, for inviting me here to discuss 
GAO's work assessing TSA's efforts in implementing the TWIC 
program.
    My testimony will focus on the progress TSA has made in 
implementing TWIC and in responding to GAO's prior 
recommendations and key remaining efforts that TSA and the 
maritime industry will need to address to help ensure the 
program's successful implementation.
    In September 2006, we reported that TSA and industry 
stakeholders faced several challenges in implementing TWIC. 
These challenges related to the enrollment and issuance of TWIC 
cards to a significantly larger population of workers than had 
been previously tested, ensuring that the access control 
technology required to operate TWIC works effectively in the 
maritime sector and ensuring that background checks, appeals 
and waivers for applicants of TWIC cards are processed in a 
timely manner.
    We also reported on problems TSA experienced in planning 
for and overseeing the contract to test TWIC. Based on our 
work, we recommended that TSA develop and test solutions to 
problems identified during initial testing, strengthening 
contract planning and oversight practices, and improved 
stakeholder coordination and outreach.
    Since our review, TSA has made much progress in addressing 
our prior recommendations and in meeting legislative 
requirements to test and implement the program.
    For example, TSA reported conducting performance testing of 
the technologies that will be used to enroll workers and has 
begun planning a pilot program to test TWIC access control 
technologies, as required by legislation.
    TSA also hired additional staff with program and contract 
management expertise to help oversee the TWIC enrollment 
contract and developed additional controls to help ensure that 
contract requirements are met.
    TSA has also taken actions, along with the Coast Guard, to 
improve communication and coordination with maritime 
stakeholders.
    However, given the complexities of the program in its early 
stage of implementation, it will be important that TSA and the 
Coast Guard continue to work with industry stakeholders to test 
and monitor the program and to effectively address any 
challenges that arise.
    This focus is especially important given that key aspects 
of the program have not yet been fully tested or implemented. 
For example, TSA and its contractor will need to transition to 
full-scale enrollment, covering at least 700,000 workers at 
about 3,500 maritime facilities and 5,300 vessels.
    While TSA and the contractor have begun initial 
enrollments, it remains to be seen how the TWIC enrollment and 
card issuance systems will perform during full-scale 
implementation.
    TSA and its enrollment contractor will also need to educate 
workers on new TWIC requirements and effectively and 
efficiently process numerous background checks, appeals and 
waivers.
    Finally, TSA and industry stakeholders will need to ensure 
that TWIC access control technologies will work effectively in 
the maritime environment, be compatible with TWIC cards that 
will be issued, and ensure that the facilities and vessels can 
effectively and economically obtain information on workers that 
may pose a threat.
    In closing, TSA has taken many steps to strengthen the 
development, implementation and the oversight of the TWIC 
program and we commend their efforts.
    While additional testing and other actions TSA have taken 
should address the problems we have previously identified, key 
aspects of the program have not yet been fully tested or 
implemented and the effectiveness of these efforts will not be 
known until the program further matures.
    Mr. Chairman, this concludes my opening statement. I would 
be happy to respond to any questions.
    [The statement of Ms. Berrick follows:]

[GRAPHIC] [TIFF OMITTED] T1081.1.eps

[GRAPHIC] [TIFF OMITTED] T1081.3.eps

[GRAPHIC] [TIFF OMITTED] T1081.4.eps
[GRAPHIC] [TIFF OMITTED] T1081.5.eps
[GRAPHIC] [TIFF OMITTED] T1081.6.eps
[GRAPHIC] [TIFF OMITTED] T1081.7.eps
[GRAPHIC] [TIFF OMITTED] T1081.8.eps
[GRAPHIC] [TIFF OMITTED] T1081.9.eps
[GRAPHIC] [TIFF OMITTED] T1081.10.eps
[GRAPHIC] [TIFF OMITTED] T1081.11.eps
[GRAPHIC] [TIFF OMITTED] T1081.12.eps
[GRAPHIC] [TIFF OMITTED] T1081.13.eps
[GRAPHIC] [TIFF OMITTED] T1081.14.eps
[GRAPHIC] [TIFF OMITTED] T1081.15.eps
[GRAPHIC] [TIFF OMITTED] T1081.16.eps
[GRAPHIC] [TIFF OMITTED] T1081.17.eps
[GRAPHIC] [TIFF OMITTED] T1081.18.eps
[GRAPHIC] [TIFF OMITTED] T1081.19.eps
[GRAPHIC] [TIFF OMITTED] T1081.20.eps

    Chairman Thompson. Thank you very much. I would like to 
thank all the witnesses for their testimony.
    I will remind each member that he or she will have 5 
minutes to question the panel.
    I now recognize myself for questions.
    Mr. Hawley, we have two members from Florida on this 
committee who have raised, at different points, the issue of 
access cards and whether or not a policy by the department 
preempting access cards by states will, in effect, happen.
    Are you looking at it? Do you have a position? Can you 
share the department's position at this point?
    Mr. Hawley. Yes, sir. On the issue of federal security 
requirements, that is what the TWIC card is. It says this 
individual is--we establish who the individual is by the 
biometric. We establish that individual is not a security risk 
for operating in sensitive areas of ports.
    That is the federal security requirement and that is 
sufficient for those purposes.
    Other entities, including states, may have other purposes 
for issuing credentials and the TWIC card does not get into 
that. So I actually don't think it is a preemption issue. It 
just is that our TWIC card is a limited purpose card for the 
purpose of security.
    Chairman Thompson. But you do understand that, in most 
instances, that card would also give you access to the 
facility.
    Mr. Hawley. Clearly, there are cases, particularly in 
Florida, where there are other cards that they use for access. 
One of the opportunities in TWIC is that when the access 
control portion comes in after the next rulemaking, that that 
will then unify them together and then they will also be able 
to be granted access for that purpose.
    And specifically with Florida, we are working very closely 
with them. They took a leadership position a couple of years 
ago, stepping out on security in their ports and issued 
identification for that and we want to honor that work and work 
as closely as we can with them to make the two programs work in 
concert.
    Chairman Thompson. But you do understand that a trucker, 
for instance, might have to have five or six different access 
cards under this more or less open access rule.
    Mr. Hawley. Well, not from a security point of view. The 
point is that for security purposes of granting access, the 
Coast Guard designates where the secure access part is. We do 
the background check, issue the card, and then that is it for 
that trucker or anybody anywhere in the country.
    Since they are private entities, the private entities can 
require perhaps differing things that we don't get into, but 
for a security purpose, this card does all for all employees at 
all facilities in the U.S.
    Chairman Thompson. I will come back to it.
    Are you aware that a laptop was stolen from TSA on or about 
October 18?
    Mr. Hawley. There was a laptop or laptops(I am not sure 
whether it was a laptop or a desktop, but that was stolen from 
a contractor and I believe that that is in the process of 
notifications being made.
    Chairman Thompson. I guess my point is that that 
contractor's job was to credential HAZMAT individuals. Am I 
correct?
    Mr. Hawley. Yes, sir.
    Chairman Thompson. And I guess I am going toward 
vulnerability. How have you set up a system under TWIC so that 
these kinds of situations won't happen where laptops or other 
devices will be stolen and those credentials compromised?
    Mr. Hawley. Yes, sir. I think that is a critical question 
and the example you cited, the hard drive on the stolen 
computer was encrypted, as required by TSA.
    From the learnings of previous incidents, we have required 
all contractors with access to personal data, that those drives 
be encrypted.
    So while there was a criminal act of breaking and entering, 
stealing the computer, the computer hard drive, the information 
on it will be useless to them because of the encryption.
    And the TWIC program has the most advanced security. It is 
NSA standard security of encryption across the system. So I 
think that is one of the things that took so long with TWIC was 
to get the security requirements very tight so that even in the 
event of criminal activity, it can't be compromised.
    Chairman Thompson. You also testified that if, in fact, the 
number of individuals needing credentials would double or 
triple, that would not slow down the credentialing process.
    Mr. Hawley. Well, I can't say that it won't slow it down, 
but we will meter the rolling out to meet the demand. So we 
will have the capacity in place.
    When we say we are going to show up at your port, we will 
show up with the required resources to do that. If it is vastly 
more people than anybody predicted, it could have the effect of 
lengthening the enrollment period.
    But New York-New Jersey, for instance, that enrollment 
period we are keeping open for 9 months. So I expect that it is 
just an issue of putting in more enrollment centers and the 
contractor adding additional enrollment stations to meet the 
demand.
    So the short answer is I don't think it is a capacity 
problem at all.
    Chairman Thompson. Just for the record, we asked Ms. Fanguy 
yesterday to provide us information on who the contractor that 
the department used to provide these projections that have come 
in significantly below expectation, and I will have to renew 
that of you, too.
    Mr. Hawley. Yes, sir. I can provide you the answer to that 
and should you wish to do it during the hearing or afterwards, 
we have that information.
    Chairman Thompson. Thank you.
    I now recognize the ranking member of the full committee, 
the gentleman from New York, Mr. King, for questions.
    Mr. King. Thank you, Mr. Chairman.
    Admiral Salerno, Chairman Thompson, in his opening 
statement, made reference to the fact that organized crime is 
now attempting to compromise the TWIC program.
    On the one hand, to me, it is a tribute, in a way, that 
organized crime is that concerned that they want to compromise 
the system. They realize this is a threat to them.
    On the other hand, it would be fatal if they were able to 
compromise the system, if they were able to produce 
counterfeits or duplicates.
    So is let me ask you a two-part question. One, is there any 
evidence yet or any instance yet where the program has been 
compromised and, secondly, how confident are you that this 
program will be able to resist any attempts by organized crime 
or other criminal elements to compromise the program?
    Admiral Salerno. Sir, there is no evidence that organized 
crime has compromised the TWIC program. As far as our ability 
to prevent that, we would and have anticipated that there would 
be attempts by criminal elements of society to counterfeit this 
credential and for that reason, the card is equipped with 
state-of-the-art tamper-resistant features, holograms, special 
inks that change color when the card is silted and so forth.
    I believe you are referring to a notice sent out by one of 
our units on the west coast, reporting some information that 
organized crime may seek to tamper with or counterfeit these 
cards.
    The idea was to give a heads-up to our facilities, our port 
partners, to be on alert for that and make sure that they check 
those tamper-resistant features of the cards when they are 
presented for entry into a facility.
    We are very confident that these cards are highly resistant 
to any type of tampering or counterfeiting and all it will take 
in the interim is alert security guards to make sure that they 
do due diligence when they grant access to people who are 
holding these cards.
    Mr. King. Mr. Hawley, how confident are you?
    Mr. Hawley. Highly confident. This is the best that we have 
access to in the U.S. government and I am very confident it 
will resist attempts by organized crime or anyone else to 
successfully counterfeit the documents.
    Mr. King. Thank you.
    Ms. Berrick, anytime the GAO is here, we have always tried 
to make parts of their testimony to use to prove a particular 
point. But I want to thank you for(I think putting this issue 
in some perspective, even, I guess, the title of your remarks, 
that TSA has made progress, but challenges remain.
    And in your concluding observations of the prepared 
testimony, you say that since you reported in September of 
2006, TSA has made progress toward implementing the program and 
you list a whole series, including a TWIC rule, implementing 
requirements of the SAFE Port Act, awarding a contractor to 
enroll workers in the program, beginning to enroll workers in 
the program, and also taking actions to implement and test the 
program, and several other points.
    Let me ask you, how do you rate that type of progress? How 
cooperative do you see the department being and what is your 
best estimate as to how successful this is going to be and what 
the timeframe is going to be?
    Ms. Berrick. Sure, sir. In terms of the department's 
responsiveness to our work, I am pleased with that. We made 
about five recommendations in our prior work and TSA has taken 
action to implement those and we are following-up and working 
with them to assess those actions. So we are pleased with that.
    In terms of our forecast on the success of the program, I 
guess I would characterize it as cautiously optimistic. Again, 
TSA has taken some good steps in terms of contractor oversight, 
doing more system testing, reaching out to stakeholders, as 
well as the Coast Guard.
    However, key aspects of the program still haven't yet been 
fully tested or implemented, the big one being the biometric 
access card reader, which will not be implemented probably for 
another 2 years or longer.
    Also, just the need to process background checks quickly, 
process the waivers, process the appeals can be a challenge 
given the number of workers.
    So I would say cautiously optimistic, good steps so far. We 
are pleased with their responsiveness to our recommendations, 
but just that key challenges are still out there, given the 
stage of this program and until the program further matures, it 
will be hard to determine whether or not it will be successful.
    Mr. King. One final question. What is your impression of 
the outreach conducted by TSA and Lockheed Martin to the 
trucking industry as to what the requirements are and what the 
trucking industry has to do to comply with those requirements?
    Ms. Berrick. We have actually done some follow-up work 
where we have contacted some of the ports. We didn't contact 
the trucking industry specifically recently on that follow-up 
work.
    But during the follow-up work, the ports have been 
favorable about TSA's and the Coast Guard's outreach with them. 
We talked to about five additional ports since our work was 
completed.
    When we had done our initial work, we visited 15 port 
facilities, talked to trucking operators and a lot of other 
stakeholders, and, universally, they were not pleased with the 
outreach at that time. This was about a year ago.
    But since that time, we have talked about some of the steps 
TSA and the Coast Guard have taken to strengthen outreach. We 
have gone back to some of these ports and they have seen an 
improvement.
    But in terms of the trucking industry, we haven't talked to 
them recently to find out their level of satisfaction.
    Mr. King. Thank you very much.
    Chairman Thompson. Thank you very much.
    The chair now recognizes other members for questions they 
may wish to ask the witnesses.
    In accordance with our committee rules, I will recognize 
members who were present at the start of the hearing based on 
seniority on the committee, alternating between majority and 
minority. Those members arriving later will be recognized in 
the order of their arrival.
    The chair now recognizes for 5 minutes the gentlewoman from 
California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And I want to thank 
all of you for being before us and, in particular, to the 
administrator, who I think has listened to our recommendations, 
has been talking to us, and we are all trying to get this done.
    Mr. Hawley, do you think that waiting for 2 years to have 
the readers is going to compromise the card in the sense of--I 
mean, I had people yesterday come and testify that said when a 
trucker comes through, the guard at the gate sits there and the 
guy flashes the card and he doesn't really even look at it and 
moves on.
    Quite frankly, I have seen this at TSA to me, you know. 
Sometimes the guys really look at what the card is and 
sometimes the guys never look at the card. They just flash it 
by them.
    So if we don't have the reader, couldn't someone 
counterfeit a card and we would be compromised?
    Mr. Hawley. Well, as to the airports, I can't resist and 
just say that there is a program that the Congress has 
supported for TSA to take over the document checking at the 
airports. Those are now TSA----
    Ms. Sanchez. Yes, I had that done this week.
    Mr. Hawley. So that is all happening. So on the issue you 
raise, I think it is an interesting issue and, frankly, when we 
came out with the proposed rulemaking, we had paired the card 
reader with the card issuance and it was a result from the 
stakeholder feedback, which was loud and clear, that we 
separated the two and then the Congress, in the Safe Port Act, 
came back and made that part of the law.
    So I think it is an interesting issue. I had been 
personally on the other side of it a year or so ago, but I 
think when you consider the total risk to the program and 
rolling out the cards that are now ready to go out and the 
advanced technology that is required to do the interoperable 
card reading, that it is, in fact, prudent to not take the 
technology risk--I mean, not wait to issue the cards for 2 
years until the technology risk is done.
    So I think that, as Admiral Salerno said, that the Coast 
Guard enforcement of the NHTSA standards in these ports is an 
excellent security measure. These are Coast Guard officers 
going around the ports with biometric readers and that is for 
people who--there may be people who get in on a flash pass, but 
they are subject to being arrested by Coast Guard officers if 
their card----
    Mr. Dicks. Would you yield just for 30 seconds?
    Ms. Sanchez. I will.
    Mr. Dicks. You know what? What bothers me is all of our 
defense bases have gotten into ID checkers. We have it at 
Andrews Air Force Base, and they work.
    Why aren't we using those in the interim so we have some 
capability?
    Mr. Hawley. Because this is a vastly different card than 
that kind of access reader. The TWIC card has more processing 
power on it than--actually, twice as much processing power as 
that which the Apollo program used to put a person on the moon 
and it fits in your shirt pocket.
    So that the technology on this thing is extremely advanced, 
because it has to allow any truck driver anywhere in the United 
States at any port, any NHTSA facility, to get in.
    So that is massive in terms of the flexibility required and 
the scalability. It is very different from a federal government 
Trident submarine base card and that is the complexity of the 
program.
    Ms. Sanchez. I have two questions I am going to try to get 
in. The first one is this whole issue of my longshoremen 
working up and down the state of California, in different 
ports, coming on at different times, and maybe one of them--you 
know, they move around quite a bit depending on where the work 
is.
    So the first question I will have is what are you going to 
do about that. And the second issue has to do directly with the 
L.A. and Long Beach port, where they have decided to fund--the 
department has decided to find the reader pilot program for 
them through the port security grant.
    And the port recently sent a letter to the secretary, to 
Chertoff, asking him to waive the 25 percent cost-share 
requirement for the pilot, since all the TWIC pilots were fully 
funded by the government.
    So my question, the second question is, do you know where 
the secretary is on waiving the 25 percent cost-share for the 
TWIC reader pilot?
    Mr. Hawley. The short version on the second part of the 
question, then Admiral Salerno can do the first part.
    We have about $22 million in the port security grants. We 
are putting that out there to try to provide support to the 
ports that are doing the implementation. That is enough for 
about 25 percent.
    I should also note that we don't have separate money within 
TSA to do the port pilots either and we are working within our 
resources to try to make it happen.
    So it is a typical debate about money. They are right, we 
want to support them as much as we can, but how do you spread 
the $22 million and it basically is a 25 percent match. That is 
our view of what the security piece is.
    They have got to do access control anyway. So that is the 
issue and it has not yet been resolved.
    Ms. Sanchez. Admiral, back to what do you do about my 
longshoremen? Let us say Long Beach is already credentialed and 
has everything but--he is coming from, I don't know, Sea-Pac 
and it hasn't been done yet. Therefore, he comes to the port 
for 7 days and he doesn't have a card.
    Admiral Salerno. Ma'am, the outreach to that community is 
to suggest that they obtain the TWIC card earlier than would be 
required in their home base. Because they are mobile and they 
will be going to facilities that will have these access 
controls in place, if they know that that is----
    Ms. Sanchez. But if you are not going to have something at 
Sea-Pac for them to be able to do it.
    Admiral Salerno. They would need to enroll and I believe 
there would be a facility up there for them to do that. I can 
verify on the locations for you on the west coast.
    Ms. Sanchez. You really haven't given us an--we haven't 
gotten a real good indication really of when the start dates 
are at the different ports, but I can just envision, I mean, 
that I will have workers who will be--and it is on a weekly 
basis.
    I mean, sometimes they show up and there is no work on 
Monday and there is work down in Long Beach. So they drive down 
from Oakland down to Long Beach. So they end up at Long Beach 
and they don't have the TWIC card.
    Mr. Hawley. The way the process works is the captain of the 
port issues a statement saying you have 90 days to comply and 
they won't do that in a port until they have had significant 
time to enroll anybody who reasonably is likely to have been 
there.
    So there is the deployment of the enrollment of the cards, 
which, in Seattle, I just looked up, is also starting this 
year. But the real teeth to it won't come until a captain of 
the port issues the requirement and says 90 days from now, you 
have got to have a card to get in here.
    So that is exactly what they will be taking into account is 
the operational feasibility and how many people at a given port 
have had a chance to get their TWIC card and if they are not 
able to, either through pre-enrollment or showing up earlier, 
they will be able to at these large ports, particularly L.A. 
and Long Beach, for months and months and months going into 
2008.
    Ms. Sanchez. I see that my time has run out. I am sorry, 
Mr. Chairman, but I want to follow up at some point with that.
    Chairman Thompson. Okay, thank you very much.
    We will now recognize the gentleman from Pennsylvania, Mr. 
Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Hawley, one of the requirements of the SAFE Port Act 
that we passed last year was to conduct a threat assessment of 
all truck drivers entering the port.
    We understand that TSA plans on meeting this requirement by 
doing a check against a terror watchlist and the immigration 
status database of all commercial driver's license holders.
    What is the status of that requirement?
    Mr. Hawley. We are working out MOUs with the individual 
states who are the holders of the CDLs and there are different 
formatting issues and different legal and privacy issues for 
each of those states.
    So we are working that on a parallel track with TWIC and 
the TWIC card has already got the operational issues worked 
out, the privacy issues worked out. So that when we go port by 
port, it will, by definition, pick up the truckers who service 
those ports.
    When we get the MOUs done with a substantial number of 
states and are able to run the CDLs independently, then we will 
have a much broader check. So to meet the requirements in the 
Safe Port Act, I suspect the way this is going to roll out is 
in accordance with the TWIC rollout.
    However, we are cognizant of the larger population of CDLs 
and wanting to run that as soon as we practically can, given 
the data.
    Mr. Dent. As a follow up, I know my friend, Governor 
Castle, is here, but what issues have there been in the first 2 
weeks of enrollment at the Port of Wilmington and how have you 
at TSA responded to those challenges?
    Mr. Hawley. Well, I think the cooperation of the port and 
local community has been outstanding. All the parties, 
including the unions, it has so far been successful.
    I think there are a lot of miniature issues that show up in 
terms of the card issuance and technical things that we are 
working through, but as far as I know, there are not 
significant issues that have come up to this point.
    Mr. Dent. We have been hearing that there have been some 
difficulties with fingerprints, activating the TWIC card in 
Wilmington. Is that a minor thing that can be resolved?
    Mr. Hawley. Yes. A lot of times, it has to do with 
educating the individuals as to what is required in terms of 
getting the prints down. My understanding, in some particular 
cases, that a quick refresher in how to do it have resolved the 
questions.
    There is no technological problem with it. It is the 
standard user issue.
    Mr. Dent. And, finally, as you know, the TWIC card provides 
an individual with unescorted access to secure areas of the 
facility. However, an individual adjudicated by TSA to be a 
threat at the point where a TWIC card is denied, but that 
person could be escorted by a TWIC'd individual into a secure 
area.
    To what extent would an escort be liable for the non-TWIC'd 
individual who is entering that secured area?
    Mr. Hawley. The short is I don't know on the legal 
liability. So we will check on the answer to that.
    I should point out, though, that the FBI has a fairly 
robust investigatory process. So anybody who is an active 
terrorist that is known to the U.S. government is already well 
in the FBI process.
    So as soon as one is identified, it would be resolved 
principally by the FBI.
    Mr. Dent. Thank you. I yield back the balance of my time.
    Chairman Thompson. Thank you very much.
    We will now recognize the gentleman from Oregon for 5 
minutes, Mr. DeFazio.
    Mr. Defazio. Thank you, Mr. Chairman. And thank Ms. Harman 
for letting me precede her. I have to go to a markup.
    A very quick question regarding the cost, Mr. Hawley. I 
don't quite understand and they aren't exactly congruent, so it 
is hard for me to tell, but generally the cost of issuing a 
background--doing background checks and a card are background 
checks $27 and a card can be zero to $50 for airport workers, 
and here we are up to $132.50.
    And I guess I am just curious what accounts for the 
discrepancy, because we have the $43.25 for information 
collection and credential issuance at Lockheed Martin and then 
we have the $72 for a complete security threat assessment and 
card production.
    What is different here?
    Mr. Hawley. It is the biometric and the security measures 
that are on top of it. The TWIC card is state-of-the-art with--
--
    Mr. Defazio. Right. So we are basically recouping the cost 
of the physical card and-or taking the photograph and getting 
the other biometrics into the card and all those sorts of 
things.
    Mr. Hawley. Yes, and the contractor cost for doing it.
    Mr. Defazio. Right. So the difference might--again, I just 
would point to the fact that it seems a bit high and I am not 
quite certain, since the $72.50 then would account for that, 
but the credential--information collection and credentialing 
issuance is about 16 bucks more by Lockheed Martin than it is 
for the airports.
    I don't know. I guess that is profit.
    Mr. Hawley. Well, it is the technology. It is all the 
sophisticated protection that Admiral Salerno mentioned, plus 
the technology embedded on the chip.
    Mr. Defazio. Okay. I am still not quite certain. But with 
that, I would yield the balance of my time to Ms. Harman.
    But I do think you have managed yourself well and answered 
a number of questions here today. Thank you.
    Ms. Harman. Mr. Chairman, what I would prefer is just to 
ask questions next when you come back to our side.
    Chairman Thompson. Thank you very much.
    We will now recognize the gentleman from Delaware, Mr. 
Castle.
    Mr. Castle. Thank you very much, Mr. Chairman. Thank you 
for the opportunity of being here. I appreciate that and I 
appreciate the testimony of the witnesses.
    We are very concerned at how this is working out at 
Wilmington. We are the largest banana importer and obviously 
have a lot of people there with a lot of concerns.
    But one of the questions I would like to raise is the card 
readers, which--did you testify it will not start until next 
summer? Is that correct?
    [Mr. Castle statement follows:]

Prepared Statement of the Honorable Michael N. Castle, a Representative 
                 in Congress from the State of Delaware

    Thank you chairman Thompson and Ranking Member King for allowing me 
to join your committee today for this very important hearing on a 
critical security issue. I would also like to thank Administrator 
Hawley and the rest of today's panel of distinguished witnesses for 
appearing before us.
    As all of you know, in July of 2004, the 9/11 Commission issued an 
extensive report detailing the challenges facing our government in the 
wake of the attacks in New York and Washington, D.C. The 9/11 report 
contains critical recommendations, and port security has emerged as a 
significant part of this debate. While the report underscores the 
importance of securing our nation's airports, the Commission also noted 
that the increased security efforts around air travel have led to 
concerns that terrorists may turn their attention to ``softer'' 
targets, such as maritime and surface transportation. In fact, the 9/11 
Commission identified several chilling scenarios, in which terrorists 
could exploit holes in our commercial shipping system to smuggle 
nuclear, chemical, or biological weapons into the country.
    On the Delaware River, the Port of Wilmington is among the busiest 
terminals, handling hundreds of vessels and millions of tons of cargo 
annually. Wilmington is the world's largest fruit port and with 
overnight access to one third of all U.S. and Canadian consumers, it is 
well established a critical source of commerce in the northeast.
    Once these ships reach our ports, it is critical that we have 
effective procedures in place for screening personnel and ensuring the 
integrity of critical infrastructure. The Transportation Worker 
Identification Credential program is one such initiative, which will 
use cutting edge biometric technology to ensure security officials can 
protect against unauthorized use of our nation's seaports. As a former 
member of the House Select Committee on Intelligence, I am a firm 
believer in the potential of TWIC and other biometric technologies to 
improve security and protect Americans.
    In 2002, the Port of Wilmington was one of the locations selected 
to participate in the TWIC pilot program and this month we became the 
first port to officially begin TWIC enrollment. This has been a long 
process and I am extremely thankful to all of the men and women who 
have taken part in this important testing phase. Over the last several 
months, my staff has been in close contact with port representatives, 
industry stakeholders, and local officials to facilitate communication 
with the Transportation Security Administration (TSA) and to help make 
certain that employees are provided every opportunity to comply with 
these new requirements.
    As this program moves forward at the Port of Wilmington, it is 
imperative that TSA work closely with port workers and local leadership 
to address all possible concerns and questions that may arise during 
the enrollment process. This is an enormous undertaking and it will 
take a real team effort to see it through to the finish.
    In the end, a truly successful international maritime security 
strategy will effectively increase security, while minimizing the 
impact on trade. One key lesson learned from the mass confusion of 
September 11th and Hurricane Katrina is that our government has a 
significant information-sharing problem. From the TSA down to state and 
local security personnel, timely information-sharing and communication 
with private industry is crucial to improving our ability to accurately 
identify and respond to threats.
    Today's hearing is an important part of this process, and I look 
forward to hearing from each of our distinguished witnesses. Thank you 
Mr. Chairman, I yield back my time.

    Mr. Hawley. The reader pilot is going on in the early part 
of 2008. There will not be requirements to implement them until 
probably 2 years after the----
    Mr. Castle. Could the individual ports do this on their own 
or does it have to be coordinated through homeland security and 
if so, could they use homeland grant funds to do so?
    Mr. Hawley. Access control systems today can be used with 
TWIC cards, depending on the port and the kind of technology 
being used.
    The key thing that has to wait is the interoperability--we 
just issued the technical standards in September that will go 
for interoperability and that won't be available until that 
final rule is done.
    Mr. Castle. The chairman mentioned, I think, in his opening 
statement, the concept of organized crime getting involved with 
this.
    When you have the card readers, would that(it would seem to 
me that that would reduce the possibility of crime. Just having 
a card, it could be replicated in some way or another, but it 
seems to me the card reader would offset that and that you 
would have to be entered in that.
    Am I correct in that assumption?
    Mr. Hawley. The card reader would definitely be effective, 
but we also are using, as Admiral Salerno said, handheld card 
readers by the Coast Guard. So that is effective security and 
that will be----
    Admiral Salerno. And if I could add to that, sir. The 
situation today is that a facility can grant access to an 
individual with a variety of IDs. It could be a driver's 
license, which, of course, does not have a background check or 
any biometrics, and any type of photo ID can be used in most 
cases.
    So we are compressing this down from a plethora of cards to 
one that is standard with features on it that make it tamper-
proof. So it is a quantum leap in security just by having this 
one card, even without the readers.
    Mr. Castle. In my state of Delaware, at the port of 
Wilmington, I went down there the first day and learned that 
enrollment has been fairly high. I thought they were going to 
try and enroll me at one moment there.
    But my concern then, and it was stated by a couple people 
there, is individuals who might have a background issue and, 
therefore, may choose to wait or be a little leery about 
registering or whatever it may be.
    What are we doing with respect to those individuals? The 
statement was made that we are looking for terrorists, not 
people that may have had a background problem sometime in the 
distant past.
    And what are we doing to accommodate and to give assurance 
to make sure they are stepping forward so those problems can be 
resolved and they don't all come upon us at the end of any 
enrollment period at a particular port?
    Mr. Hawley. I think hearings like this are excellent at 
getting the word out. This is not something to be concerned 
about for all but a very small handful of people.
    And the thing I would say is if you get something that 
indicates there might be a problem, call back and come in and, 
as the chairman mentioned at the beginning, if the data that is 
in the government system does not include that you have a 
favorable disposition, just come back and document that and the 
issue goes away.
    So this is really the principal point of trust we have to 
earn as we go through here that people's experience matches 
what I just said.
    Mr. Castle. We have, at our port, and it is probably true 
of a lot of other ports, too, we have rushes on things. I 
mentioned food already and during fruit season, we will have 
casual seasonal labor, which is basically picked up and comes 
to the port to work.
    Will these people need to be escorted or could there be 
temporary seasonal passes or will they have to go through the 
full TWIC process? How will that be handled?
    Admiral Salerno. Sir, if they are operating in the secured 
area of the facility, handing cargo on a regular basis, we 
would expect them to obtain TWICs. If there are people that are 
operating maybe on a one time only case, maybe doing repair 
work at the facility, we can cordon off a portion of that 
facility and make it non-secure, in effect.
    Mr. Castle. So they might be able to work. It is just there 
is certain access they would not have, because they don't 
have----
    Admiral Salerno. That is correct.
    Mr. Castle. --the full TWIC clearance and all of that.
    Just very quickly, in just working with the officials at 
the Port of Wilmington and working with the unions and people 
there, it seemed to me they had a lot of valuable input in 
terms of what we are doing.
    Do you have a full communications system with them to make 
sure you are picking up their ideas and concepts and reviewing 
them?
    Mr. Hawley. Yes, sir, and that is part of the learning that 
we use to base the rest of the program on. And, again, they 
have been really spectacular in terms of working with us and 
openly engaging.
    Admiral Salerno. And I will add to that, sir, obviously, 
there is outreach through national level organizations that 
have constituencies throughout all the states, but, also, at 
the port level, there are entities we call area maritime 
security committees, where the people who operate in that 
particular port get together and they work through security 
issues, and that is a conduit of information back to our 
headquarters level.
    Mr. Castle. I thank the panel and I yield back, Mr. 
Chairman. Thank you very much.
    Chairman Thompson. Thank you very much.
    We will now recognize the gentlelady from California for 5 
minutes, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman, and thank you for this 
series of hearings, including the one that Ms. Sanchez held 
yesterday which, unfortunately, I could not attend because I 
had a markup in another committee.
    I want to thank the witnesses, as well, especially Mr. 
Hawley for his great effort to be responsive to requests, at 
least from this member, for help and aid and for his risk-based 
approach to transportation safety, which has made him a target 
from time to time, but I think he is on the right path.
    My district, as I think most people on this committee know 
and the panel knows, surrounds the port of L.A. and is adjacent 
to the port of Long Beach. That port complex is the largest 
port complex in the country. Almost 50 percent of our container 
traffic goes through it and we absolutely have to get TWIC 
right.
    I am also a coauthor of the Safe Ports Act with Mr. 
Lungren. This committee was enormously helpful in moving that 
legislation, which passed the House 421-2 and the Senate 98-0, 
which I would call a near miracle in these times.
    So the Safe Ports Act connects to TWIC by insisting that it 
be part of a layered approach to port safety.
    Having said all that and having listened to you and 
listening to the questions by members, my question is, have we 
made this too complicated? Have we made it too complicated in 
our legislation or are you making it too complicated in your 
rollout?
    Obviously, all of us agree that we need these cards. I 
think all of us would agree we need the biometric feature in 
these cards. All of us agree we need portability.
    But is there something now we or you or we and you together 
could do to make this easier and maybe even less costly?
    Mr. Hawley. I think that is an excellent question and I 
think the answer is it is complex and we have paid the price 
for it in terms of how long it has taken to get it right.
    So I think the point is a very strong one and we had this 
conversation with Secretary Chertoff as we were going through 
this plan a year ago and that is why we did the watch list 
checking on all the port workers at that time.
    So he asked exactly the question you asked, which is what 
can we do right now that is simpler and can increase security, 
and it was the watch list checks. We have also, with the Coast 
Guard, cooperated with what we call these viper teams, where we 
have different parts of DHS come in in support of the Coast 
Guard as they do their NHTSA enforcement.
    So these are programs that are ongoing that provide 
additional security and, frankly, now, we have got the 
legislative requirements of what the TWIC card has to be. We 
have gone down the path.
    We are not out of the woods yet in terms of particularly on 
the card reader, what the complexity of that is going to end up 
being, and we are going to have the same issue again on do we 
move forward fast or do we take the time and the heat to get 
the technical issues resolved.
    Ms. Harman. Well, let me just--we have seen a program done 
wrong, SBInet. We had a hearing on that a week or so ago, where 
the contractor took it to the field before it was ready.
    But this member is very worried that tomorrow morning we 
could easily have a major terrorist attack by someone who 
should not be at one of our ports and if a major port complex 
like L.A.-Long Beach has an attack and closes, that is a 
devastating impact on our national economy, not just our local 
southern California economy.
    So we have to be smart about this. Perfection is not an 
option, but trying to take the right steps quickly is the 
requirement.
    I would like to ask the other witnesses to comment on my 
question. Are we making this too complicated? Are we making 
this too complicated or are you making this too complicated?
    Ms. Berrick. Sure, I could start here. I would make two 
points. One, there are a lot of complexities with this program. 
Each port is unique, as you very well know, and this is a 
sophisticated program that involves complexity.
    The second point I wanted to make is equally important is 
the management of the program and our past work has identified 
that there have been problems in that area.
    The contract requirements, at the beginning of this 
program, weren't fully defined. The contract costs doubled. 
There was very limited oversight over the contract itself. The 
prototype testing for TWIC, when this program started, was very 
limited.
    Very little testing had been done. There was virtually on 
testing of access control technology. So that, I think, is also 
a problem that needs to be----
    Mr. Dicks. If the gentlelady would yield.
    Why was that? Why didn't they test access control? It is 
out there.
    Ms. Berrick. During the prototype testing, the reason that 
we heard during our site visits was that there weren't a lot of 
volunteer ports that were signing up to do that during the 
initial testing.
    They didn't want to invest a lot of money not knowing what 
the final requirements would be. So the testing was really 
limited on the access controls.
    But if I could just add one more point. We made 
recommendations, based on our work, that TSA go back, do the 
testing, work with the stakeholders, which was another issue we 
had identified, and they have taken lots of actions in those 
areas.
    We haven't gone back to assess the effectiveness of those 
efforts. We have gotten some positive feedback on the 
coordination side.
    Ms. Berrick. Reclaiming my time, which has expired. I would 
just like to say to Ms. Berrick, in particular, I know you are 
a Virginia Tech graduate, therefore, you are very talented.
    I think it is important not to point fingers about what 
went wrong. I think it is very important to take a deep breath, 
be sensible and get this right as soon as possible.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We will now yield 5 minutes to the gentlelady from the 
Virgin Islands, Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. Good morning.
    Before I ask a question, I would like to just say to the 
Coast Guard representative, Admiral Salerno, that I noticed 
that Saipan, in the Northern Marianas, is one of the enrollment 
sites scheduled to come online mid next year.
    And as chair of the Subcommittee on Insular Affairs and 
Natural Resources, which is in the process of bringing federal 
immigration laws to Saipan, I would be very interested in 
hearing how that process unfolds in Saipan and any issues that 
may arise or problems that may arise as you do so.
    I have a question on this Florida issue, because I am 
afraid I am not understanding something. It is my understanding 
that the Department of Homeland Security does not intend to 
preempt the Florida FUPAC. Yet, there are a number of crimes 
that disqualify an applicant under TWIC, but do not disqualify 
under FUPAC, such as sedition, espionage, improper 
transportation of a hazardous material. Those are not 
disqualifying in the Florida program, but they are 
disqualifying in TWIC.
    Could you, Mr. Hawley, and maybe, Admiral Salerno, explain 
why you are not preempting it?
    Mr. Hawley. The list of crimes is statutorily fixed. So we 
are set with that. We have the requirement of what we enforce.
    So the security requirement for the federal security 
clearance is set. The issue of preemption is complicated in 
that there is nothing that prevents Florida or any state from 
having its own requirements and that is what we are working 
with the state of Florida on now, and there are some privacy 
issues and data exchange issues to try to harmonize that.
    But we do have the(the federal law is what it is on that 
and that is what will prevail on the actual convictions. But 
the card itself, they have the authority to issue cards for a 
variety of purposes.
    Mrs. Christensen. But for qualifying to work at the ports, 
which is going to be required?
    Mr. Hawley. If you are disqualified----
    Mrs. Christensen. In Florida.
    Mr. Hawley. Yes. So if you are disqualified and go through 
the appeals process and don't make it, then you would not have 
access to those secure areas.
    Mrs. Christensen. So having a FUPAC card will not qualify 
you if you don't qualify under TWIC.
    Mr. Hawley. The FUPAC card won't replace TWIC. In other 
words, the TWIC requirements have to go in, but we are very 
cognizant of the work Florida has already done and, in fact, 
leading area in many respects and don't want to disincent them 
or otherwise cause difficulty for them based on their getting 
out in front.
    So we are trying to work with them to get the solution that 
meets our legislative need or statutory need and their 
operating need.
    Mrs. Christensen. Well, we would like to hear when you 
reach that point how that has happened.
    Also, Administrator Hawley, it is my understanding that the 
homeland security department is considering how to fit TWIC 
standards into requirements it is developing for the western 
hemisphere initiative, for people's access security service 
card.
    The commissioner of Customs and Border Protection recently 
said that CBP sees significant benefits for TWIC card holders 
to be able to use the credentials to enter the United States.
    So is the department going to implement a plan whereby the 
TWIC card could be used as a credential to enter the United 
States?
    Mr. Hawley. I think that that is why we have the screening 
coordination office at the department and that is one of the 
things they look at is what--once you have done vetting in one 
scenario to make sure you get the same result in all the 
others, and it deals with the so-called DHS trip, which gets to 
redress issues.
    So the answer is anybody vetted in any one part of DHS, 
according to what those standards are, would get the benefit of 
that approval or that consistent answer anywhere else.
    Now, there are a lot of operating issues. As we mentioned, 
TWIC is complicated in and of itself and the WITI is its own 
issue.
    So I think on the threat resolution area, that is the easy 
part. The hard part would be on aligning the technologies.
    Mrs. Christensen. I would be interested in hearing how that 
works out in its final implementation or what the decision is, 
as well.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We will now recognize the gentleman from Washington for 5 
minutes, Mr. Dicks.
    Mr. Dicks. I want to go back to the reader aspect of this 
thing. I happen to have a company in my district called 
Mobilesa and they are one of a number of companies that does 
this, and I just--we have been just e-mailing them and they do 
it for cards of this complexity. They can do the TWIC card.
    What I am having a hard time understanding is why would we 
not want to get the readers as quickly as possible, when there 
is technology out there that has already been demonstrated at 
all of our defense bases, Andrews, where the president flies in 
and out of, Fort Dix didn't have this, now they have got it, 
West Point.
    I mean, this is not rocket science. And they check these 
things against all of the databases and they can tell whether 
it is a fake card or a real card.
    Why wouldn't we at least go out and get some of this 
technology and test it? I don't get this. It just seems like a 
major flaw in what you are doing.
    Mr. Hawley. That is why the pilot is----
    Mr. Dicks. We don't need a pilot.
    Mr. Hawley. Well, we just had the conversation about the 
need--one of the requirements and the recommendations of the 
whole process is that before we issue the technology, we have 
got to test it to----
    Mr. Dicks. Okay. Why don't you test it? Why haven't you 
done that? You were supposed to have done it by April. April 
was the deadline in the legislation. It hasn't been done.
    Why was it not done? If the technology is out there, this 
isn't like you have to invent something, Mr. Hawley. It is 
already there. Why haven't we gotten started?
    Can you tell me, Admiral Salerno, why we haven't gotten 
started on this?
    Admiral Salerno. Well, sir, we have gotten started. We----
    Mr. Dicks. Do you know about these companies that are out 
there that have handheld technology that could check these 
TWICs right now?
    Admiral Salerno. We do know that there is technology out 
there. What had to happen was the publication of a standard so 
that manufacturers can build to that standard.
    Mr. Dicks. Wait a minute. Why do you have to--this is a 
typical military approach to this. Why don't you tell them what 
you want and let them come back and respond and give you what 
they have got and you can then see if it is up to your 
standards?
    Admiral Salerno. Well, that, in effect, is what the 
publication of the standard does, sir. So it will allow 
commercial companies to build capability to that standard.
    Mr. Dicks. But I am just saying they are already out there. 
Why don't you have--why haven't you brought them in? Why 
haven't you talked to them? Why haven't you let them 
demonstrate their technology already? Why didn't you have a 
fair--the Defense Department has finally figured this out--and 
bring all these companies in and see what they have got and see 
if you can use it right away?
    I am with Ms. Harman. I think you guys are making this too 
complex. Now, I am worried that it is about who pays for it 
that is the real underlying issue here and that you want them 
to pay for it, they don't want to pay for it. Therefore, we are 
not doing it, and that is what is worrisome here to me.
    We should be having these readers. This is a major problem 
with this program, and they are out there.
    Admiral Salerno. Sir, I would just point out that we do 
have constraints based on the law.
    Mr. Dicks. What are the constraints?
    Admiral Salerno. The law requires that we conduct a pilot 
program, specifically for readers.
    Mr. Dicks. Does it tell you exactly how to do it? Why 
wouldn't you bring them in? Have you had these companies come 
in and talk to you? Have you interviewed them to see what 
capabilities currently exist off the shelf that might meet your 
requirement?
    No, you haven't done that, have you?
    Mr. Hawley. The standards just went out for the first time 
and this is the leading technology. There is nobody else on 
earth that has got a program as advanced as this.
    So we are absolutely talking to all comers and there are a 
lot of people who say they have it ready. The answer is show up 
in the port and demonstrate it that it works, and that is all--
--
    Mr. Dicks. When is that going to be, Mr. Hawley?
    Mr. Hawley. It will be in early 2008 and----
    Mr. Dicks. I think that is way too long. If you could do it 
now, why wouldn't you do it now?
    Mr. Hawley. Because it depends on the companies being able 
to come back and say, ``Yes, we can meet these standards.'' 
They look at the standards published in September. They have 
got to do the programming. They have got to do the assembly. 
They have got to do the testing and they have got to show up.
    So it is not the government who is doing this. This is 
actually the model that you were suggesting.
    Mr. Dicks. I think it is the right model, except I think 
the people are there already and this is a lot of complexity to 
get started when we could have gotten started already by 
bringing them and see what they have got and see if they can 
meet your requirements already, without going through all of 
that.
    I mean, Congress--I think we could reconsider this in 
either the appropriations bill or in other bills if that is a 
constraint.
    I would rather see you get the(now, Ms. Berrick, do you 
know anything about this? Are you aware of these companies that 
are out there that say they have got the technology to do this, 
to check these cards, these TWIC cards?
    Ms. Berrick. We didn't look at that aspect during our work. 
We focused on the prototype testing and related to the access 
control card readers, we said that there was very limited 
testing during the prototype and we actually recommended that 
some additional testing be done before implementation.
    So we think testing is important. We didn't look at the 
different ways that TSA and the Coast Guard could approach 
that, though.
    Mr. Dicks. Couldn't they start this right now if they 
wanted to?
    Ms. Berrick. I am sorry. I really don't know based on the 
work that we have done.
    Mr. Dicks. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Just for the record, I think, Mr. Dicks, the TWIC card was 
5 years in the making. At some point, you would expect, along 
that 5-year wait, if the reader was also to be a part of it, 
that you could have had a dual system in place.
    And I think the concern of the committee is that the 5-year 
rollout starts, now we have another 2, 2.5 years before the 
reader is complete, and so we have probably got an 8-year 
process before we get----
    Mr. Dicks. Would you ask them if they would answer that 
one, Mr. Chairman, why they didn't do that?
    Chairman Thompson. Mr. Hawley?
    Mr. Hawley. Well, it has to do with the government-wide 
biometric standard that is interoperable, as described, as 
HIPS-201 and we made the decision that we wanted to abide by 
the government-wide standards on biometric interoperability.
    So that was the first step, that we said that the card has 
got to be FIPS-201 compliant. Then the next issue is on the 
readers, whether the reader has got to be compatible just with 
a contact card or whether you can allow contactless, which is 
much more efficient, sort of a proximity pass, to speak.
    So that we elected to go, based on the comments that we 
got, to get the contactless cards interoperable. That is what 
we just published in September. So these are standards that 
don't exist anywhere in the world. NIST only has come out with 
the contact ones.
    So this is leading edge stuff here, and that is why it is 
not available off the shelf.
    Chairman Thompson. Ms. Harman?
    Ms. Harman. Thank you for yielding to me just for a follow-
up question on this.
    Did you know, Mr. Hawley, when you made these decisions, 
that it would take this long to get this implemented? And I am 
sure you are aware of the threats against us. So I am just 
wondering if you chose to spend 5 to 7 years trying to get this 
right.
    Mr. Hawley. The key point is we are not waiting on TWIC 
card issuance or reader issuance for port security, and Admiral 
Salerno can address that.
    Admiral Salerno. I agree with your concerns and sympathize 
with your concerns, Congresswoman, about port security. That is 
very much a concern of the Coast Guard, and TWIC is a big part 
of the solution to that.
    But there are certainly other measures that have been in 
place since MTSA and even prior to MTSA to improve port 
security. This will be a significant step forward.
    Would we have liked to have had it sooner? Absolutely, but 
getting it right I think is the correct approach.
    Chairman Thompson. Thank you.
    We will yield 5 minutes to the gentleman from Georgia, Mr. 
Broun.
    Mr. Broun. Thank you, Mr. Chairman.
    Just prior to coming over here, I had some folks from 
Louisiana who are involved in offshore boat operations and they 
were real concerned about the Baker amendment to the Coast 
Guard reauthorization bill.
    Are you all familiar, Admiral, with this amendment? It has 
to do with TWIC cards and it has to do with their people, Mr. 
Secretary, being able to do some private 90-day background 
checks that I understand are going to go through the same 
process that the TSA would go through or that our department 
would go through.
    Can you all tell me about that and is there some mechanism 
of allowing not only them, but other private sources at least 
to get temporary authorization to allow port security that is 
going to maintain the port security?
    Admiral Salerno. Yes, sir, I am familiar with the proposal.
    Let me back up a little bit, though. The regulations that 
were published several months ago do contain a new hire 
provision. So that a new employee, if he applies for a TWIC, 
will be allowed to go to work on an interim basis. They need to 
be monitored in the workplace, but can go to work and that was 
in response to requests from industry to include a provision of 
that nature.
    What Mr. Baker is proposing is somewhat different in that 
it would allow people to go to work for up to 90 days without 
having to first apply for a TWIC. So there is no security check 
pending the issuance of the card itself. He could work for 90 
days without any check whatsoever.
    We have significant problems with that. It creates a 
vulnerability that, quite honestly, we have not a good means to 
address.
    Mr. Broun. Well, from what I understand from the folks that 
I was just talking to, they do an internal security check. They 
use the same Internet process of doing it in an internal 
company base check.
    Is there some mechanism of being able to do that for new 
hires so that if they have some kind of mitigation about these 
new employees, so that we are absolutely certain that we are 
not hiring terrorists, we are not hiring thugs, we are hiring 
people who will be secure, but that they will have 90 days or 
60 days or some reasonable period of time that the new hires--
that they can see, but we can see, also, from a homeland 
security perspective, that these people are safe?
    Is there some way of working this out so that when 
industry, whether it is in Louisiana or New York or Los 
Angeles, can hire a truck driver or hire an individual, is 
there some way of having private security background checks 
that is acceptable to the department that will allow these 
people to come on board while they are in the process of 
getting their TWIC card or without having to pay the fee to be 
able to get the TWIC card over a reasonable period of time, 
whatever that might be?
    Admiral Salerno. The regs in place now, sir, do, in fact, 
include a provision where the employer does a background check. 
That is part of the new hire provision.
    But I think the key distinction is that, as currently 
constructed, there is a requirement to apply for TWIC. The name 
goes into the federal system. There is a quick check against 
some databases to make sure that there is no obvious problems, 
against the terrorist watch list and so forth. And once we have 
that, which can be accomplished relatively quickly, then the 
person is allowed to work.
    Under this other provision, that federal check does not 
take place and we do not necessarily have the same visibility 
of who is actually out there in the workplace.
    Mr. Broun. Excuse me, Admiral, for interrupting you, 
because my time is about out.
    How long does it take you to go through the quick check 
process and that you can get the information back to the 
employer about these new hires?
    Mr. Hawley. I think we are estimating a couple of days. The 
business that you are referring to I think is contemplated that 
we can do the terror watch list check that the government has 
to do and not inhibit the guy starting while that process goes. 
So they have got some provision for that.
    But we do need to run the terror watch list check before 
having the person----
    Mr. Broun. I certainly want that, too, and it is just--Mr. 
Chairman, if you don't mind, just a few more seconds here.
    But I certainly want anybody who is working in secure areas 
in ports to make sure--for us to make sure that they are not a 
hazard to this nation, but I think there may be some reasonable 
way of doing this and getting people to work, whether they are 
working offshore boats or whether they are driving a truck or 
something else.
    So I am out of time and I thank you all for coming and I 
thank you, Mr. Chairman, for giving me a few extra moments.
    Chairman Thompson. Thank you very much.
    We will yield 5 minutes to the gentleman from North 
Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. Let me thank you 
for being here this morning and for your answers.
    Mr. Hawley, as you know, there currently is a shortage of 
labor available at ports, the working ports, as well as in 
surface transportation.
    And as it has been described today in your testimony and 
others, there are some burdens that we are trying to overcome, 
this hurdle of TWIC, and let me just go through them very 
quickly among them and then ask my question.
    Number one is the cost, because in the case of some of 
these people, it may be equivalent to a day's wage. For some of 
us, that may not sound like a lot, but for some, it is. You 
touched on that a little bit earlier.
    The shortage of enrollment sites and the staff to process 
those applications. The underestimating of the number of TWIC 
cards required and possibly delays due to incorrect information 
in the criminal database and the watch list.
    So my question is, in developing this, did you consider the 
burden of regulation and the procedure on the industry itself 
at the port and if you did or didn't, what steps have been 
taken to mitigate these efforts? Because sometimes you find out 
you have got a problem and then what have you done to correct 
that problem as you moved along in the process.
    Mr. Hawley. Sir, I think those all raise good points. On 
the issue of the cost, is one of the things clearly that came 
up early and the mitigation for that is we have, in fact, 
reduced the cost from when we first came out with it, and it 
is, I should point out, a 5-year period, which is about 26 
bucks a year.
    So it is--yes, 132 bucks is not something trivial, but over 
a 5-year period, it is at least in the ballpark.
    On the issue of the enrollments, we covered that a little 
bit earlier, but essentially the way the contract is written, 
the cost model incents the provider who is doing the enrollment 
to get as many enrollments as fast as possible and it can be 
scaled up because they get paid for the cards. So that is built 
into the mechanism. And the same thing on the enrollment 
stations.
    As far as the criminal checks, the current process on 
hazardous material endorsement came through a lot of the 
credibility problems when that was rolling out. Hey, is this 
going to slow down the business? And, in fact, it has not and I 
think it probably is the number one issue for us going forward 
to demonstrate to particularly this population that getting a 
TWIC card is not onerous and it is not going to be a problem of 
people fishing around in your background.
    We are basically saying are you a terrorist risk and 
limited criminal history information and we are not trying to 
figure out all possible problems.
    Mr. Etheridge. Well, turnaround is critical, but at the 
same time, you need to make sure you have got the information 
right.
    Ms. Berrick, did you, in looking at this, see any evidence 
that the stakeholder community was involved or had any input in 
the development of the TWIC requirements that were put in 
place?
    Ms. Berrick. Sure. And, again, to reiterate, the focus of 
our review was on the prototype for the TWIC program, which 
ended about a year ago.
    And one of the areas we looked at was stakeholder 
coordination and outreach. We visited 15 ports, talked to all 
the involved stakeholders. The message we were getting at that 
time a year ago was that they wanted more involvement in the 
requirements. They wanted to work more closely with TSA and the 
Coast Guard.
    So that was their position at that time. Since that time, 
TSA and the Coast Guard have put in several measures to improve 
coordination. They established a coordination steering 
committee. They have frequently asked questions posted, a whole 
series of actions----
    Mr. Etheridge. So the answer is yes.
    Ms. Berrick. Well, we went back to follow up. We spoke with 
a few ports and they did indeed say they thought stakeholder 
coordination had improved.
    We haven't done a comprehensive review to see how effective 
all of these procedures were, but the limited input we got was 
that it was favorable.
    Mr. Etheridge. Thank you.
    Ports have invested significant resources in developing 
credential systems over the years and as a result of 
legislation, both in response to the internal threat 
assessments and to comply with state, as well as federal 
regulations.
    Mr. Hawley, how has this been taken into consideration with 
the federal TWIC regulations and requirements and how will that 
be compatible, if at all possible, with what is already in 
place or requirements that some of these ports already have and 
have had for a while?
    Mr. Hawley. I think your comment is consistent with what we 
heard from the community during the rulemaking process and we 
did, in fact, change the whole process to separate out the 
reader part from the card issuance and the reader part is the 
substantial cost to the ports as they implement what is 
required.
    So we originally said, ``You have got do it at the same 
time as we issue the cards.'' Based on the technology issues 
and the feedback, we separated the two.
    Mr. Etheridge. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Chairman Thompson. Thank you very much.
    We will now recognize the gentleman from Colorado for 5 
minutes, Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chair.
    And, Mr. Hawley, I won't talk about baseball, since my team 
didn't fare very well against yours. But I do want to just get 
some basics again and I am not(I haven't been around here for 
all of the TWIC discussion for 5 years.
    You said that the card has double the information as we had 
in the Apollo program in terms of the computerized information. 
What are some of the things that are on that card?
    Mr. Hawley. It has got a computer chip inside and it has 
all the identity information and it is storing the biometric 
information. So it has got the prints, which, as you know, 
is(if you just have the list of information about somebody, it 
takes up a tiny amount of computing process.
    But having the actual fingerprints in there, as well, takes 
up a lot of space. So both in terms of the amount of data 
stored and the quickness with which it can be processed and fed 
back is principally what is in there.
    There is also encryption and security measures that are 
built on, as well. So there is the chip itself, which is the 
most expensive part of the technology. Then there are the 
additional pieces of security on the plastic itself. There are 
also a mag stripe and a visible barcode on the card.
    Mr. Perlmutter. And I would assume that, over time, if 
there are other things that your agency thinks might be 
appropriate, there is room to add that.
    Mr. Hawley. Yes, sir. On the mag stripe, I think a third of 
it is kept empty for use of ports or people who want a dual 
use. It also is what is called backward compatible, meaning 
that if things change in the future, it is capable of 
accommodating that, if that is necessary.
    Mr. Perlmutter. I know one of the things we have been 
talking about is how many people are going to be issued these 
cards. What is the number that the TSA thinks?
    And then, Ms. Berrick, what is the number that GAO thinks 
are going to be using this card and is that just ports or is it 
ports and airports? Who is it?
    Mr. Hawley. We have got a range of, low side, 750,000, high 
side, maybe 1.5 million. But as far as the practical capacity 
of the program, it is scalable to 1.5 million or higher than 
that, should that be necessary.
    Mr. Perlmutter. And is that just seaports?
    Mr. Hawley. No. That includes the truckers, as well as 
mariners and the port workers.
    Mr. Perlmutter. Not airports.
    Mr. Hawley. Not airports.
    Mr. Perlmutter. Is it possible that it would be used at 
airports at some point?
    Mr. Hawley. It is possible. That is something that we are 
working with the airports. The question is whether we can 
accommodate the biometric on the existing CITA badge and 
whether that is the right business process for doing it.
    Mr. Perlmutter. Ms. Berrick?
    Ms. Berrick. In terms of the port population, we didn't do 
an independent assessment of the number. I can say, however, 
talking to the stakeholders, they did raise some concerns that 
the population was higher. But we didn't do an independent 
assessment of how higher that might be or if, in fact, that is 
true, if it was low.
    Mr. Perlmutter. I will just change the subject a little 
bit. This was a question from Mr. Carney and it goes back to 
the laptop that was taken.
    His question was we assume that the encryption software 
protects, but has the hard drive been recovered and have 
forensics been done on the hard drive?
    Mr. Hawley. I don't know, is the short answer. So we will 
have to get back to you on that.
    Mr. Perlmutter. Thank you, Mr. Chair. I yield back.
    Chairman Thompson. Thank you very much.
    We have two members left for questions and the plan is to 
recess for the three votes and reconvene after that.
    Ms. Jackson Lee from Texas for 5 minutes.
    Ms. Jackson Lee. I thank the chairman very much.
    Let me quickly proceed and say that I know that this scheme 
is one that Congress gave you, and we know that you are 
carrying forward a roadmap. So we thank you for your service, 
but at the same time, we are quite perplexed as to why it is in 
the state that it is today, even as you have answered questions 
on some of our concerns.
    My question is whether or not we will, in fact, be ready 
for the rollout, again, and I will, under that umbrella, ask 
these questions very quickly.
    I am delighted that Houston is one of the selectees, but, 
in fact, your witness yesterday, Maurine Fanguy, said that this 
process, with ports like Houston, is to get it right.
    So my question is, why is Houston and why are the other 
ports being used at this stage of the game as a guinea pig?
    We are also concerned that a number of the workers 
mentioned yesterday that they have had no training, 
particularly ILA workers. They are concerned about the FBI rap 
sheet and its accuracy.
    What has been done to make sure that that occurs?
    And we have talked about the state proposals and we have 
sort of accepted it, but it seems like a double standard. Why 
do you have--and this is for both Admiral Salerno and Mr. 
Hawley.
    Why do you have this double standard of allowing states to 
go forward and then allowing TSA or requiring the TSA TWIC 
card, where then the state, as well, can require additional 
procedures? It seems like this is a double standard and it is 
an excessive burden.
    Finally, let me note that you suggested there are 750,000 
potential enrollees. We have been told by one of your providers 
or contractors it may be more and, frankly, we don't feel that 
you are prepared for more, because you haven't acknowledged it.
    I also want to thank the Coast Guard for their work on this 
project, but I ask the question, as TSA rolls this out and the 
Coast Guard is responsible for enforcement, I don't see why we 
don't have a relationship with Customs and Border Protection.
    In fact, who is going to be the arresting officer, if it is 
necessary, if it is a terrorist, if you found a terrorist? I 
don't think you have a coordinated program. I don't know how 
the Coast Guard, with its basic duties, can be involved in the 
law enforcement aspect of it and I think that is a major 
problem.
    So we can begin, Mr. Hawley, with you on the double 
standard question and Admiral Salerno and then the enrollee 
question, as well as the guinea pig issue and what you are 
doing about training the employees and helping them, as well.

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

    ``Examinging the TWIC Program is Crucial to Identifying Potential 
Security Loopholes in Our Nations Airports.''

     Statement in regards to examining the Transportation Security 
  Administration (TSA) implementing the Transportation Worker Program 
                Identification Credential (TWIC Program.

    In wake of the horrific events of September 11, 2001, TSA realized 
that in order to secure the homeland, we must better protect areas of 
the nation's key transportation facilities. In doing so, the TWIC 
program was created to ensure the security of these facilities by 
``issuing identification cards only to workers who are not known to 
pose a terrorist threat, and allow these workers unescorted access to 
secure areas of the transportation system.
    While the TWIC program is designed to enhance security through the 
use of components such as enrollment, background checks, TWIC card 
production, and card issuance, five years and millions of tax-payer 
dollars later, this card has yet to be implemented. Furthermore, the 
Government Accountability Office (GAO) reported on the progress and 
shortcomings of the TWIC program in December 2004k September 2006, and 
April 2007. The GAO report states, `Some maritime organizations are 
concerned many of their workers will be disqualified from receiving a 
TWIC card by the background check.
    As the Chair of the House Homeland Security subcommittee on 
Transportation Security and Infrastructure Protection, I will be 
working to ensure that all concerns surrounding the TWIC Program are 
being properly addressed by TSA. Five years and millions of tax dollars 
later, that time and money must be accounted for.

    Mr. Hawley. On the double standard, on that issue, the 
state of Florida moved out to put in security measures on its 
own, while talking to us. They did so knowing that the TWIC 
program was coming.
    They elected to go forward and implement security measures 
in Florida ports, which is a laudable decision and laudable 
result.
    It did not and does not meet all of the subsequently 
developed requirements under TWIC. So what we are trying to 
do--it is not a double standard. There is one standard. It is 
the TWIC standard.
    What we are trying to do is work with Florida to have a 
common sense solution that recognizes the work they have 
already put in, but doesn't compromise our statutory 
responsibility.
    Ms. Jackson Lee. Can I quickly go to Admiral Salerno or 
either you can continue on about the FBI rap sheet, and if you 
want to continue, because the time is going.
    Mr. Hawley. On the FBI rap sheet, that is something that 
came up a little earlier. The answer is that is why we have the 
process that the person, if they do get a response back that 
says there is a problem, they just need to get back to us and 
say, ``But it has been resolved,'' and this has worked well in 
the HAZMAT endorsement issue. We expect it to work----
    Ms. Jackson Lee. I think we need to have something more 
secure than that.
    Admiral Salerno, do you have an answer to the question of 
the double standard and, also, your enforcement ability?
    Admiral Salerno. On the double standard issue, the Coast 
Guard enforces MTSA on the facilities and what we will enforce 
on facilities is the TWIC. That is our standard. That is what 
we will hold the facilities----
    Ms. Jackson Lee. So you have enough resources to have 
personnel on the ground in these ports across America.
    Admiral Salerno. Not on a continuous presence basis, but on 
a roaming basis. They will make frequent visits to these ports 
and spot check.
    Ms. Jackson Lee. I think that is a concern, Mr. Chairman, 
not because the admiral is not dedicated, but because I don't 
think there are enough resources, and I don't think that there 
has been planning for enough resources on this matter.
    Admiral Salerno. If I might add, ma'am, you asked a 
question, too, about arrests and so forth.
    Ms. Jackson Lee. Yes.
    Admiral Salerno. We are working with other law enforcement 
agencies to establish agreements, memorandums of understanding 
so that we can leverage this requirement out across the board, 
including with local law enforcement authorities, as well.
    So there may, in fact, be a law enforcement presence from 
other agencies there that can act if the Coast Guard is not 
present.
    Ms. Jackson Lee. We will get a briefing on that. Thank you 
very much, Mr. Chairman.
    Chairman Thompson. If you have more questions, Ms. Jackson 
Lee, if you submit them, we would be happy to get them 
answered.
    Ms. Jackson Lee. Thank you.
    Chairman Thompson. The gentlelady from New York, Ms. Lowey, 
for 5 minutes.
    Mrs. Lowey. Thank you, Mr. Chairman. And I will be brief, 
because I know we have the votes waiting.
    Before I get to my question, I just want to ask 
Administrator Hawley, I am puzzled. You keep saying as an 
excuse for the delays that there is twice as much technology in 
a TWIC card than the Apollo mission.
    The Apollo mission was 40 years ago. I would hope that 
there is a lot more technology today that you would have access 
to and that the technology would have improved. So I don't 
think that is a good excuse.
    But let me go to the question that I have. With regard to 
the ports of New York, New Jersey, Long Beach and Los Angeles, 
as part of the initial rollout of the TWIC program, if the 
overall purpose, Administrator Hawley, of the TWIC program is 
to secure our ports, why was the decision made to exclude the 
ports servicing New York and Los Angeles during the initial 
rollout? And could you detail the risk factors used to identify 
the ten priority ports?
    And, Ms. Berrick, do you believe the country would be 
substantially safer had the initial TWIC rollout included the 
largest and highest risk ports in the country?
    Since I have 3 minutes and 46 seconds, perhaps we will 
begin with Administrator Hawley and then if Ms Berrick has 
time, you can respond.
    Mr. Hawley. Sure. The answer is on the importance of New 
York, New Jersey and L.A.-Long Beach, we announced yesterday 
the 147 port schedule and, as you may have seen, New York-New 
Jersey is scheduled to begin this year.
    The risk factor is there are also program risks. We talked 
about some of the learnings we are having in the port of 
Wilmington and we don't want to start out in the toughest of 
the environments, the largest scale of the environments. We 
want to learn as we go and control the program so that when we 
get at the major largely scalable ports, we have worked out 
the----
    Mrs. Lowey. If I could just interrupt for 1 second, because 
I noticed your schedule. It is scheduled for a partial rollout 
at the end of the year. The full rollout will not be complete 
in the region until the start of spring 2008.
    I don't get it. Isn't there an inherent security risk by 
having part of the port system involved in the program while 
the other parts of the same port operations are not bound by 
similar procedures?
    Mr. Hawley. We talked earlier in the hearing on the issue 
of we have already run the terror watch list checks on all 
those ports and we have also--the existing security measures 
that are in place. So from the real world of security, the 
security measures are in place. Now we are locking it down with 
the biometric credential.
    Ms. Berrick. Thank you. I will just add that in our work of 
looking at the development of similar systems, we have always 
concluded that testing upfront, having a prototype phase is 
very important, where all the key elements are tested.
    And, typically, we find it is reasonable that that is done 
at easier locations. So the problems, if you will, can be 
worked out before it is implemented on a wide-scale basis.
    And I would also add that if initial testing were to be 
done at a large more complex port, where difficulties could 
surface maybe more easily, it could be difficult to address 
those in that kind of environment and, as a result, it could 
result in the program being further delayed.
    So we think that more diligent work up front is important 
so you can maybe avoid that down the line when you have bigger 
challenges with some of these larger ports.
    Mrs. Lowey. Let me just say this, because we are running 
out of time. So perhaps Administrator Hawley could provide me 
in writing the risk factors used to identify the ten priority 
ports.
    And I would also like to say that you and I have had many 
discussions about a card such as this at the airports and you 
feel it would impede commerce, et cetera.
    I wonder if you have done some analysis of the lost labor 
time and lost revenue as a result of the potential delays this 
system will cause. Right now, instead of being able to take a 
card and swipe it, they have to look at the card, and you know 
that is not accurate.
    This TWIC card is what is going to work. So I wonder if you 
can give me some information about all the delays and what it 
means in lost revenue, not necessarily at the airports, but for 
this program.
    And the time is up. Maybe you can let me know about it.
    Thank you very much.
    Chairman Thompson. And we will definitely pay you back for 
releasing your time early.
    We want to thank this panel of witnesses. The committee 
will recess for votes and we will return 5 minutes after the 
last vote for the second panel.
    Thank you very much.
    [Recess.]
    SANCHEZ [Presiding.]: The committee will come to order.
    As you can see, my colleagues are all currently involved in 
markups or, unfortunately, on the House floor, as we have some 
important bills there. And so we were not able to round up any 
other members, and I apologize to our witnesses.
    But in order for us to hear your testimony, we must have 
more than just me. I am not enough.
    So I want to thank the witnesses for their time. I know 
many of you traveled pretty far to come here.
    I will tell you that your written statements will be 
included in the record of this hearing, and the members of the 
committee will probably have additional questions for the 
witnesses, and we will send it to you in writing, and you will 
have 10 days to submit in writing your answers.
    Having no further members and hearing no further business, 
the committee stands adjourned. My apologies. Thank you.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]


                             For the Record

                              ----------                              


                 Prepared Statement of Maurice Emsellem

    Chairman Thompson and members of the Committee, thank you for this 
opportunity to testify on the subject of the new Transportation Worker 
Identification Credential (TWIC) required of the nation's port workers 
and the background checks which began earlier this month.
    My name is Maurice Emsellem, and I am the Policy Director for the 
National Employment Law Project (NELP), a non-profit research and 
advocacy organization that promotes a more fair and effective system of 
employment screening for criminal records. Over the past two years, 
NELP has been training truck drivers subject to the Transportation 
Security Administration's (TSA) hazmat background checks and helping 
them access the appeal and waiver process. In recent months, we have 
also been reaching out to port workers to apply the experience with the 
hazmat program to help port workers negotiate the TWIC process.
    At this critical stage in the TWIC program, when especially large 
numbers of port workers and truck drivers will begin enrollment all 
across the country, it is important to evaluate TSA's implementation of 
the key worker protections of the Maritime Transportation Security Act 
of 2002 (MTSA) (46 U.S.C. Section 70105). While we applaud TSA for 
taking seriously their responsibility to implement these worker 
protections, there are several key areas that fall short of the law's 
spirit and intent. Our testimony includes a description of the 
following key concerns and several recommendations for reform of the 
TWIC process.
        <bullet> By failing to adequately verify the accuracy of the 
        FBI's rap sheet before issuing an initial threat assessment, 
        TSA is disqualifying large numbers of workers based solely on 
        old arrests that have never led to a conviction (TSA's 
        determination relies primarily on the FBI rap sheets, which the 
        Attorney General has reported are 50% incomplete due to the 
        failure of the states to update their arrest records after the 
        disposition of the case).
        <bullet> Given the limited number of ``waivers'' filed under 
        the hazmat program, TSA and Lockheed Martin should do more to 
        promote the TWIC waiver process. The TWIC waiver is the core 
        feature of the MTSA that protects those workers who have turned 
        their lives around from being unfairly designated as a 
        terrorism security risk due to an isolated drug offense or 
        other disqualifying crime.
        <bullet> TSA and Lockheed Martin have not complied with federal 
        safeguards that provide meaningful access to the ethnically 
        diverse workforce whose limited-English proficiency requires 
        translation and interpretive services to negotiate the criminal 
        record and immigration background checks which are so critical 
        the TWIC process.

    I. The Basics of the TWIC Background Check Process
    Like the TSA criminal background check now required to qualify for 
a hazmat endorsement, the TWIC process described below incorporates 
several procedural protections required by the MTSA to ensure that 
workers are treated fairly as part of the background check.
    In addition, the federal law sets forth the specific TWIC 
disqualifying offenses, which include especially serious ``permanent'' 
disqualifying offenses (like espionage and treason) and more common 
``interim'' disqualifying crimes (like drug dealing and weapons 
possession). Both categories are limited to felony convictions, not 
misdemeanors, and the ``interim'' disqualifications apply to offenses 
that date back seven years from the date of the application, or five 
years from when the individual was released from incarceration 
(whichever is the more recent event).
    1. TWIC Pre-Enrollment: TSA has created an optional pre-enrollment 
process (available by phone or on-line) which allows the worker to 
enter his or her basic biographical information with TSA before 
officially enrolling in-person at the designated port facility. The 
pre-enrollment process is intended to help save time by providing the 
individual with an appointment for the in-person enrollment.
    2. Enrollment at Designated Locations: On October 16th, TSA and its 
contractor Lockheed Martin began enrolling individuals at the 
Wilmington port for the TWIC. Upon enrollment, all the necessary 
information is collected on the individual to qualify for the TWIC, 
including the fingerprints required to generate an FBI rap sheet. Under 
penalty of perjury, the applicants must sign a disclosure form 
(attached) indicating that they have accurately responded to a series 
of questions related to their criminal history, their immigration 
status and any adjudication or commitment due to mental capacity. 
Depending on the size of the port, TWIC enrollment will take several 
weeks or months to process all those determined to require unescorted 
access to secured areas of the ports. TSA will maintain an additional 
presence after the initial process to enroll new applicants.
    3. Threat Assessment Determination: Based on the background 
information provided by the applicants and the resulting search of the 
various criminal record, terrorist watch-list and immigration status 
databases, TSA will issue an initial threat assessment determination. 
According to TSA, a web-based system first ``scores'' the application. 
Then, the case is reviewed by at least four adjudicators (first two 
contractors, then two TSA staff) resulting in the threat assessment 
determination.
        a. TWIC Approved: If TSA fails to identify any disqualifying 
        information, the individual is notified that he or she 
        qualifies for a TWIC, usually within 5 to 10 days according to 
        TSA.
        b. Interim Denials Subject to ``Appeal:'' When TSA makes a 
        determination that the individual has committed a disqualifying 
        offense set forth in the SAFE Port Act, he or she receives an 
        ``Initial Determination of Threat Assessment'' (IDTA) listing 
        the disqualifying crime. If the information reported by TSA is 
        incorrect, the individual can ``appeal'' the case within 60 
        days by providing the official court documentation to correct 
        the information. If the FBI rap sheet is incomplete due to an 
        arrest where the disposition has not been reported, then the 
        individual must provide the missing information to TSA or their 
        application will be automatically denied after 60 days. The 
        individual is not provided a copy of their FBI rap sheet along 
        with the IDTA, although her or she may request a copy before 
        appealing.
        c. Interim Denials Subject to ``Waiver'': If the individual has 
        a disqualifying criminal record that is accurate and complete, 
        then he or she can seek a ``waiver'' of the initial threat 
        assessment determination based on evidence of rehabilitation, a 
        solid work history and other relevant factors. Selected 
        ``permanent'' disqualifying offenses are not subject to the 
        waiver process.\1\ If the waiver request is denied by TSA, the 
        worker has the right to review of the decision by an 
        administrative law judge.
---------------------------------------------------------------------------
    \1\ The offenses that are not subject to waiver include espionage, 
sedition, treason, terrorism, or conspiracy to commit these crimes. (49 
C.F.R. Sections 1515.7, 1515.103(a)(1)-(a)(4)).
---------------------------------------------------------------------------
    Currently, the optional TWIC pre-enrollment process is the only 
stage where information is to be made available in any language other 
than English (Spanish). There are apparently no plans to provide 
interpreter services at the time of actual enrollment at the ports, nor 
are any materials to be translated as part of the interim determination 
or the waiver or appeal process. TSA has authorized the family and 
friends of applicants to serve as translators during the enrollment 
process, requiring them to also be signatories under penalty of perjury 
to the TWIC application.\2\
---------------------------------------------------------------------------
    \2\ Specifically, the ``Helper/Translator'' must sign the following 
statement contained on the enrollment form: ``I certify that I assisted 
in the completion of this form at the request of the applicant named on 
this TWIC enrollment document, that the responses provided are based on 
all information which I have knowledge, or which were provided to me by 
the applicant, and that the completed enrollment form has been read to 
the applicant in the language the applicant speaks fluently for 
verification before he or she signed the application in my presence. I 
understand that a knowing and willful false statement or an omission of 
a material fact on this enrollment document can be punished by fine or 
imprisonment or both, and may be grounds for denial of a TWIC.''
---------------------------------------------------------------------------
    As distinct from the TWIC enrollment deadlines recently published 
by TSA,\3\ TSA has not indicated when the ports will have to actually 
start using the TWIC cards. Presumably, that will follow sequentially 
from when the TSA set up the enrollment process at each of the ports. 
The regulations require at least 90 days notice for the port to start 
implementing the TWIC.
---------------------------------------------------------------------------
    \3\ U.S. Department of Homeland Security, ``DHS Agencies Announce 
Progress on TWIC Program'' (October 3, 2007).

    II. The Serious Limitations of the FBI's Rap Sheets Undermine the 
Integrity of the TWIC Process
    The TWIC criminal background check is dependent on the rap sheet 
provided by the FBI, which is an accumulation of the criminal records 
generated by the states. However, there are serious flaws in the FBI's 
rap sheet that threaten to deny employment to large numbers of law-
abiding workers and undermine the integrity of the criminal background 
check process.
    Incomplete State Arrest Records: Of special concern to TWIC 
applicants, the FBI rap sheets are routinely out-of-date and 
incomplete. Indeed, according to the U.S. Attorney General, the FBI's 
rap sheets are ``still missing final disposition information for 
approximately 50% of its records.'' \4\ Mostly, that includes arrest 
information which is never updated electronically by the states to 
reflect whether the charges have dropped, dismissed, or successfully 
prosecuted.
---------------------------------------------------------------------------
    \4\ U.S. Attorney General, The Attorney General's Report on 
Criminal History Background Checks (June 2006), at page 3.
---------------------------------------------------------------------------
    Indeed, in 15 states (out of 39 that reported data in response to a 
national survey), more than one-third of the arrests in the past five 
years have no final dispositions reported in the state criminal record 
repository, which means that the FBI's records are similarly incomplete 
for those states.\5\ That includes large port states like Florida, 
where 40% of the arrests in the state's system do not include the final 
disposition. Only nine states have more than 90% of the arrests in 
their databases updated to reflect the final outcome of the case.
---------------------------------------------------------------------------
    \5\ Bureau of Justice Statistics, Survey of State Criminal History 
Information Systems, 2003 (2006), at Table 1.
---------------------------------------------------------------------------
    Non-Felony Offenses: In addition, the FBI's rap sheets often do not 
distinguish between felonies, misdemeanors and lesser categories of 
offenses, which is significant because the TWIC disqualifying offenses 
are expressly limited to felonies. Instead, the FBI rap sheet generally 
reports the specific offense as expressed in the state's penal code 
without characterizing the severity of the crime. For example, we 
handled the case of hazmat driver who was disqualified when his FBI rap 
sheet indicated he was convicted in California of ``Charge 245A1 PC-
FORCE ADW-NOT FIREARM,'' meaning assault with a deadly weapon not 
involving a firearm. Based on the FBI's rap sheet, TSA wrongly 
concluded that this was a felony offense when, in fact, it was a 
misdemeanor based on an assault involving a fingernail clipper.
    Early Incarceration Release Dates: Under the MTSA, workers may not 
be denied a TWIC based on an interim disqualifying offense that took 
place more than seven years before the application or more than five 
years since the individual was released from incarceration. However, 
many states do not report the date when the individual was actually 
released from incarceration, thus that information does not appear on 
the FBI's rap sheet. As a result, large numbers of workers who have 
been released for good behavior before their minimum sentence expired 
will incorrectly show up as having been incarcerated within the five-
year period based on the original sentence entered on the rap sheet. 
That is what happened to hazmat driver we represented, who received a 
10-year sentence although he was released more than five years before 
the date of his hazmat endorsement application.

    III. Priorities for Reform of TWIC Background Check Process
    Based on our experience representing workers negotiating the TSA 
hazmat endorsement program and our understanding of the new TWIC 
process, several key reforms would substantially improve the integrity 
of the TWIC and protect large numbers of hard-working employees against 
unfair denials and the loss of quality jobs in their community.
    1. TSA Should Verify Incomplete & Unreliable Records Before Denying 
the TWIC
    Under the current TWIC and hazmat criminal background check, the 
workers end up paying the price for the routine failure of the FBI's 
rap sheets to provide complete information on old arrests. That is 
because the policy of TSA (49 C.F.R. Section 1572.103(d)) is to 
automatically deny the TWIC to all those whose arrest information has 
not been updated unless official court documentation of the disposition 
is provided by the applicant in 60 days. Because literally 50% of the 
FBI's records are incomplete, we are concerned that very large numbers 
of workers fall in this situation of receiving an initial threat 
assessment based solely on the fact that they have an arrest, not a 
conviction as required by the MTSA.
    When the burden to fill the gaps in the FBI's rap sheet falls 
almost entirely on the TWIC applicant in such significant numbers, far 
too many innocent workers will fall through the cracks of the system, 
especially in states like Florida where the state records are most 
often incomplete. In order to provide the complete or up-to-date arrest 
information required by TSA, workers have to navigate the court system 
where the judgment was entered, typically requiring the individual to 
appear in person at a local court that could be located in another 
state or county. In contrast, a call to the local courts by TSA or an 
on-line inquiry will often be enough for TSA to verify that the charge 
has been dismissed, thus precluding the need to require actual court 
documents from the applicant.
    In addition, many hazmat endorsement applicants have been issued an 
initial threat assessment simply because TSA has not adequately 
verified that their offense rises to the level of a felony versus a 
non-disqualifying misdemeanor. It is not clear that TSA has devoted 
sufficient attention to identifying and correcting these cases before 
issuing an IDTA. Similarly, there is the problem of the FBI rap sheet's 
failure to indicate the date of release from incarceration, which often 
results in an initial threat assessment when the individual was 
released prior to the full sentence listed on the rap sheet. While the 
hazmat and TWIC enrollment forms include a space for the individual to 
indicate when he or she was released from prison, it is not clear that 
TSA adequately incorporates this information into the TWIC background 
check process.
    According to TSA, literally 99% of the appeals filed under the 
hazmat program have successfully documented that the initial threat 
assessment was based on incomplete or incorrect information. One-third 
of the over 10,000 successful appeals were related to incorrect 
criminal records and the other two-thirds were attributed to 
immigration status issues. The overwhelming rate of success on appeal 
is a sure sign that there is a serious problem with the FBI's rap 
sheets and TSA's current policy, which puts the burden on the worker to 
track down the missing information. However, because of the problems 
described above, these 3,000 to 4,000 successful criminal record cases 
are probably just the tip of the iceberg. To determine the true 
magnitude of the problem, it is necessary for TSA to provide more 
complete data documenting the total number of IDTAs issued due to the 
absence of complete arrest information and the other routine errors 
described above.
    Recommendations: TSA and Lockheed Martin can take several 
significant steps to produce a determination that is based on accurate 
information and protect the rights of TWIC applicants.
    a. Track Down Missing Arrest Dispositions: The first priority 
should be for TSA and Lockheed Martin to track down missing 
dispositions before issuing an initial determination of threat 
assessment. In the case of federal gun checks required by the Brady 
Act, the FBI tracks down 65% of the missing dispositions within three 
days rather than simply denying the license based on old arrest 
information.\6\ Similarly, in California, the law precludes the state 
criminal records repository from releasing state rap sheets for 
employment and licensing purposes unless it has been verified within 
the past 30 days that the case is still active in the courts or in the 
local District Attorney's office.
---------------------------------------------------------------------------
    \6\ The Attorney General's Report on Criminal History Background 
Checks, at page 108.
---------------------------------------------------------------------------
    Here too, when there is a potentially disqualifying offense that 
lacks a disposition, TSA and Lockheed Martin should make a serious 
effort to determine the outcome of the case before issuing an initial 
determination. For example, any case that has been pending in the court 
system for more than one or two years without a disposition is far more 
likely to have been dismissed, thus such cases should be prioritized 
for follow-up inquiries by TSA. These verification procedures should be 
incorporated into the current review process, which now includes four 
levels of review by TSA and contractor adjudicators.
    b. Identify Misdemeanors and Incarceration Release Dates: Prior to 
issuing an IDTA, TSA should prioritize those cases like drug offenses, 
weapons charges, and robberies, which will routinely result in non-
felony convictions that are often presumed to be felonies by TSA. TSA 
should develop specific contacts with each state criminal history 
repository to clarify questions regarding offense levels reported on 
the FBI rap sheets. Similarly, in all cases where an applicant has 
indicated on the enrollment form that he or she has been released from 
incarceration more than five years before the date of the TWIC 
application, TSA and Lockheed Martin should verify the release date 
with the state corrections authorities, not deny the application based 
on the original sentence imposed.
    c. Provide a Copy of the Rap Sheet with the IDTA: To help 
applicants evaluate the merits of their appeal and prevent unnecessary 
delays, all those who are issued an initial threat assessment based on 
a potential disqualifying criminal record should receive a copy of 
their FBI rap sheet when they receive the IDTA. This proposal 
corresponds to the protections of the Fair Credit Reporting Act which 
apply to private screening firms that conduct criminal background 
checks for employers (15 U.S.C. Section 1681b(b)(3)(A)).
    Although the FBI rap sheet has already been paid for as part of the 
TWIC application, it is still not available to the workers unless they 
request a copy after the IDTA is issued, which makes it more difficult 
to evaluate the merits of the appeal thus creating unnecessary and 
prejudicial appeal delays. Not unlike a credit check report, TWIC 
applicants should be automatically provided a copy of the rap sheet to 
immediately verify that the information is complete and accurate. 
Accordingly, TSA should continue to identify the disqualifying offense 
in the IDTA, while also providing the FBI rap sheet if authorized by 
the individual when he or she enrolls for the TWIC. The limited costs 
associated with this process, including copying and additional postage, 
should not be prohibitive.
    d. Evaluate the Immigration Status Appeals Generated by the 
``SAVE'' System: As part of the TWIC process, TSA must verify the 
immigration status of applicants to determine if they are lawfully 
present in the United States according to specific criteria (49 C.F.R. 
Section 1572.105).
    In addition to the immigration documentation provided when they 
enroll, we are told by TSA that the applicant's immigration status is 
checked against a federal database called the Systematic Alien 
Verification for Entitlements (SAVE) system, which is used by the 
Department of Human Services to verify eligibility for various benefit 
programs. However, the SAVE systems relies on automated data from 
immigration authorities which the U.S. Department of Justice has 
characterized as ``flawed in content and accuracy.'' \7\
---------------------------------------------------------------------------
    \7\ Office of Inspector General, U.S. Department of Justice, 
Immigration and Naturalization Service's Ability to Provide Timely and 
Accurate Alien Information to the Social Security Administration, 
Report No. 1-2003-001 (November 2002), at page 25.
---------------------------------------------------------------------------
    Given the serious concerns with the accuracy of the SAVE system and 
the fact that two-thirds of successful hazmat endorsement appeals were 
the product of errors related to immigration status, we urge TSA to 
evaluate the source of the errors identified on appeal and adopt 
alternative procedures, if necessary, to verify immigration status 
under the TWIC program.

    2. TSA Should More Actively Publicize the TWIC Waiver Process
    When Congress adopted the waiver process in the MTSA for workers 
who have been convicted of a disqualifying crime, it created a 
promising model for all federal and state employment screening laws to 
follow to promote and reward rehabilitation. Indeed, for thousands of 
current workers with a criminal record who pose no terrorism security 
threat, the MTSA waiver is the only protection that keeps them employed 
in a good job after turning their lives around. Absent an effective 
waiver process, they risk being kicked back out on the streets where it 
is becoming harder and harder to find quality work with a criminal 
record.
    To fully appreciate the significance of the TWIC waiver process, 
consider the impact of the record rates of incarceration of the past 
two decades on local communities, especially many urban communities 
where the ports employ large numbers of workers. For example, a record 
700,000 people were released from U.S. prisons last year, and three out 
of four them served time for non-violent offenses.\8\ Of special 
significance, drug sales, a TWIC disqualifying offense, represents over 
20% of all the felony convictions handed down by the state courts each 
year.\9\
---------------------------------------------------------------------------
    \8\ Bureau of Justice Statistics, Probation and Parole in the 
United States, 2005 (2007).
    \9\ Bureau of Justice Statistics, Felony Sentences in State Courts, 
2002 (December 2004), Table 1.
---------------------------------------------------------------------------
    Nearly half of all non-violent offenders are African American (48%) 
and another 25% are Latino.\10\ Indeed, one-third of African-American 
men (32%) are likely to serve a prison sentence according to the Bureau 
of Justice Statistics, which is six times the rate of white men.\11\ 
Large numbers of these men of color are struggling to turn their lives 
around and find work in the urban communities where major ports are 
located, including Los Angeles, Oakland, New York, Miami and elsewhere. 
For example, in Oakland, where our offices are located, African 
Americans account for 40% of the maritime workforce and another 22% are 
Latino.\12\
---------------------------------------------------------------------------
    \10\ Bureau of Justice Statistics, Prevalence of Imprisonment in 
the United States, 1974-2001 (August 2005), Table 1.
    \11\ Id.
    \12\ Carol Zabin, et al., Living Wages at the Port of Oakland 
(Center for Labor Research & Education, December 1999), at page 45, 
Table 3.3b.
---------------------------------------------------------------------------
    Finally, the significance of the TWIC waiver process is underscored 
by the latest research documenting that those with a criminal record 
who have found steady work are especially unlikely to commit another 
crime. For example, a recent study found that people with a prior 
record who have not been arrested over a period of five years are 
statistically no more likely than someone with no prior record to 
commit a crime.\13\ The likelihood of committing a terrorist act is 
even more remote, especially for port worker who are paid good union 
wages and have successfully turned their lives around despite the 
serious challenges in their communities.
---------------------------------------------------------------------------
    \13\ Kurlycheck, et al., ``Scarlet Letters & Recidivism: Does An 
Old Criminal Record Predict Future Criminal Behavior?'' (2006).
---------------------------------------------------------------------------
    To its credit, TSA has granted 92% of the waiver requests submitted 
under the hazmat program, thus recognizing the large numbers of workers 
with a disqualifying offense who have an isolated felony that often 
dates back several years and a solid work history. However, we are 
concerned that the absolute number of waivers granted (about 1,000) is 
quite low compared to the likely number of deserving workers (of the 
700,000 drivers screened by TSA) who have waivable disqualifying 
offenses. As applied to the TWIC program, with so many major ports 
located near urban areas where more workers may have drug convictions 
and other crimes common to the city streets, many more workers may have 
a disqualifying criminal record who would be serious candidates for a 
TWIC waiver.
    Recommendations: We urge TSA to adopt the following measures to 
promote and clarify the TWIC waiver process.
    Expand the Waiver Outreach & Education Process: To significantly 
expand the number of TWIC waiver requests, TSA and Lockheed Martin 
should do far more to publicize the process. For example, the various 
fact sheets designed to publicize the TWIC program at the ports (``TWIC 
is Coming,'' ``TWIC is Here,'' ``Enroll for TWIC Today'') only make a 
casual reference to the appeal and waiver process (one sentence), 
including the specific fact sheet listing all the disqualifying 
offenses. We urge TSA to distribute a ``know your rights'' fact sheet 
at the ports that specifically describes the waiver process and the key 
considerations that argue in favor of a waiver. TSA should also urge 
the ports to partner with local non-profit organizations that can help 
deserving workers prepare the TSA waiver application.
    In addition, more can be done to help workers prepare the waiver 
applications at the critical stage when they are notified of the 
interim threat assessment. To TSA's credit, the IDTA now comes with a 
four-page fact sheet (``How to Request Releasable Materials, Appeal a 
Security Threat Assessment, and File a Waiver'') which is especially 
helpful in describing the waiver process and the material necessary to 
support the waiver applications. In addition, we have urged TSA to 
adopt a checklist as part of the cover sheet that accompanies the 
waiver request, allowing the worker to readily identify the major 
arguments favoring a waiver in their case.
    3. TSA Should Provide Translation and Interpreter Services for the 
Diverse Population of Limited-English Speaking Port Workers
    Today's workforce employed in the nation's ports and with the 
trucking firms they do business with is more diverse than ever before, 
representing large numbers of workers born in Spanish-speaking 
countries (Mexico and Central America), South Asian-speaking countries 
(India, Bangladesh) and Southeast Asia (Vietnam, Cambodia, Laos) in 
particular. Accordingly, the TWIC process should embrace this diversity 
by taking reasonable measures to accommodate the language needs of port 
workers.
    To appreciate the special need for TWIC translation and interpreter 
services, consider the ethnic diversity of the West Coast port workers, 
especially those who drive trucks in and out of the ports. In the Port 
of Seattle, 54% of the drivers are foreign born, and 44% speak a 
language other than English at home (mostly a combination of Southeast 
Asian languages and Spanish predominantly).\14\ In the Los Angeles and 
Long Beach ports, more than 90% of the truck drivers were born outside 
the U.S., mostly from Spanish-speaking countries.\15\ In the Port of 
Oakland, 93% of the truck drivers were born outside the U.S., typically 
from Southeast Asian, South Asian and Latin American countries.\16\
---------------------------------------------------------------------------
    \14\ Port Jobs, ``Big Rig, Short Haul: A Study of Port Truckers in 
Seattle'' (2007), at page 19.
    \15\ Kristen Monaco, Lisa Grobar, ``A Study of Drayage at the Ports 
of Los Angeles and Long Beach'' (California State University Long 
Beach, December 2004), at page 17.
    \16\ East Bay Alliance for a Sustainable Economy, ``Taking the Low 
Road: How Independent Contracting at the Port of Oakland Endangers 
Public Health, Truck Driver, & Economic Growth'' (September 2007), at 
page 25.
---------------------------------------------------------------------------
    According to Executive Order 13166 and a U.S. Department of Justice 
(DOJ) guidance, all federal agencies, including TSA, are expected to 
``take reasonable steps to ensure meaningful access to the programs and 
activities by limited-English proficient (LEP) persons.'' \17\ Each 
program is called on to undertake a specific analysis of the following 
factors to determine the level of required services: (1) the number or 
proportion of LEP persons to be served or likely to be encountered; (2) 
the frequency with which LEP individuals come in contact with the 
program; (3) that nature and importance of the program, activity, or 
service provided by the program to people's lives; and (4) the 
resources available to the grantee/recipient and costs.\18\
---------------------------------------------------------------------------
    \17\ Executive Order 13166, ``Improving Access to Services for 
Persons with Limited English Proficiency'' (August 11, 2000), at page 1 
(requiring all federal agencies to develop a plan ``to improve access 
to its federally conducted programs and activities by eligible LEP 
persons.''); Department of Justice, ``Guidance to Federal Financial 
Assistance Recipients Regarding Title VI Prohibition Against National 
Origin Discrimination Affecting Limited English Proficient Persons'' 
(67 Fed. Reg. 41455, 41459, n.4, June 18, 2002) (The DOJ directive 
applies the Title VI standards to Federal agencies, as follows: 
``Pursuant to Executive Order 13166, the meaningful access requirement 
of the Title VI regulation and the four-factor analysis set for the in 
the DOJ LEP Guidance are to additionally apply to the program and 
activities of Federal agencies, including the Department of Justice.'')
    \18\ 67 Fed. Reg. at 41459.
---------------------------------------------------------------------------
    We not aware of a specific analysis by TSA or Lockheed Martin of 
the TWIC program based on the factors described in the DOJ guidance. 
However, it is clear that the TWIC program satisfies the first three 
factors given the importance of the TWIC to the future likelihood of 
the workers, the large numbers of LEP workers employed in major U.S. 
ports, and the resulting frequency that LEP persons must apply for the 
TWIC. As described in the recommendations below and the DOJ guidance, 
the costs of providing the necessary TWIC translation and interpreter 
services can be minimized with adequate planning and current 
technologies.
    Other federal agencies, including the Social Security 
Administration (SSA), routinely provide a broad range of translation 
and interpreter services to access their programs. For example, SSA's 
``Multilanguage Gateway'' (http://www.ssa.gov/multilanguage/) includes 
scores of forms and documents required to access SSI benefits, Social 
Security numbers, and other critical materials that are available on-
line in 15 languages (Spanish, Portuguese, Polish, Korean, Italian, 
Haitian-Creole, Greek, French, Farsi, Chinese, Armenian, Arabic, 
Vietnamese, Tagalog, Russian). SSA also provides free interpreter 
services where necessary to help workers access these programs, using a 
nationwide contract for telephone interpreter services in more than 150 
languages and dialects.\19\
---------------------------------------------------------------------------
    \19\ Social Security Administration, DI 230490.001 (January 31, 
2006), DI 33010,030 (June, 9, 2004), DHU & DSS Directives, 
``Interpreters for Individuals with Limited English Proficiency (LEP) 
or Individuals Requiring Language Assistance.'' In addition to 
providing access to SSI benefits and Social Security documents, SSA 
translates key documents that explain the forms required to access the 
Medicare Prescription Drug Program (www.ssa.gov/prescription help/). 
For more detail on other federal agency policies, see the Limited 
English Proficiency Federal Interagency Website which is specifically 
devoted to federal agency compliance with Executive Order 13166 
(www.lep.gov).
---------------------------------------------------------------------------
    Recommendations: Thus far, the only LEP services made available by 
TSA and Lockheed Martin include the optional pre-enrollment form 
(available on-line in Spanish) and outreach material translated only in 
Spanish to help publicize the TWIC program at the ports. We believe 
these policies are insufficient to meet TSA obligations to provide LEP 
services. Thus, we urge TSA to adopt several cost effective LEP 
services to help port workers navigate the TWIC enrollment, appeal and 
waiver process.
    a. Oral Interpretation at TWIC Enrollment: The ability to negotiate 
the TWIC enrollment process at the ports--requiring the applicant to 
provide criminal history record, immigration documentation and other 
technical information--will often determine the fate of the worker's 
future employment. Rather than provide professional interpreter 
services at this critical stage in the process, TSA has authorized 
workers to bring family or friends (called ``helpers'' on the TWIC 
disclosure form) to provide translation services.
    Studies have shown that the reliance on family members and other 
informal interpreters is detrimental to the LEP person's ability to 
obtain services.\20\ Indeed, the DOJ guidance contains an entire 
section on the use of family members and friends as interpreters, 
cautioning that they are often ``not competent to provide quality and 
accurate interpretations. Issues of confidentiality, privacy, or 
conflict of interest may arise. LEP individuals may be uncomfortable 
revealing or describing sensitive, confidential, or potentially 
embarrassing medical, law enforcement. . .family, or financial 
information to a family member, friend, or member of the local 
community. (Emphasis added).\21\
---------------------------------------------------------------------------
    \20\ For a helpful summary of the research, see National Health Law 
Program, ``Why Relying on Family Members, Friends and Children as 
Interpreters is Dangerous and Should be Discouraged'' (undated).
    \21\ 67 Fed. Reg. at 41462.
---------------------------------------------------------------------------
    These concerns are especially relevant to the TWIC enrollment 
process, where applicants are asked for specific information about 
their criminal history, immigration status, and mental health--all of 
which are sensitive, confidential and potentially embarrassing to 
reveal to family and friends. Family and friends are rarely qualified 
to translate this technical and sensitive information, including the 
following questions required by the TWIC disclosure form: ``I meet the 
immigration status requirements described in 49 CFR 1572.105,'' ``I 
have been adjudicated as lacking mental capacity, or committed to a 
mental health facility involuntarily,'' and I was convicted, or found 
not guilty by reason of insanity, of a disqualifying crime listed in 49 
CFR 1572.103(b).''
    Indeed, TSA's decision compromises the TWIC process further by 
requiring the applicant's family and friends to verify under penalty of 
perjury that they have provided all the information they know about the 
individual, not just the relevant information that they have been 
specifically asked to translate. Specifically, as set forth in the TWIC 
disclosure form signed by the translators, they must verify that ``the 
responses provided are based on all information of which I have 
knowledge, or which were provided to me by the applicant.''
    Recognizing the inherent limitations of family and friends serving 
as interpreters, DOJ recommends that competent interpreter services be 
provided free of charge to persons with limited-English proficiency. 
According to the DOJ guidance, ``when particular languages are 
encountered often, hiring bilingual staff offers one of the best, and 
often most economical options.'' \22\ Other federal agencies, including 
the Social Security Administration, also require professional 
translators while only authorizing family and friends to interpret when 
specifically requested as an alternative by the applicant.
---------------------------------------------------------------------------
    \22\ 67 Fed. Reg. at 41461.
---------------------------------------------------------------------------
    Thus, in the case of Spanish and the languages most commonly spoken 
by port workers, an adequate number of staff employed by the TSA/
Lockheed Martin enrollment centers should be bilingual in those 
languages. Of course, these enrollment staff will also be qualified to 
process English-speaking workers when necessary. In the case of 
languages spoken often by workers at certain ports and not others 
(including Southeast Asian and South Asian languages), Lockheed Martin 
could move specialized personnel to various ports as the enrollment 
process rolls out in different locations. Where necessary due to more 
limited demand and to save costs, the DOJ guidance also recommends 
contracting with professional interpreters and using telephone 
interpretation lines provided by AT&T and other major contractors.
    b. Translation of ``Vital'' TWIC Documents: The TWIC program should 
include written translation of critical documents, including the TWIC 
disclosure forms, the form consenting to the FBI criminal background 
check and the Initial Determination of Threat Assessment (IDTA), which 
includes the description of the TWIC appeal and waiver rights. To our 
knowledge, none of these documents have been translated by TSA.
    The DOJ guidance recommends that such ``vital'' written material be 
translated where each LEP language group constitutes 5% of the 
population served or 1,000 people, whichever is less.\23\ Given the 
large numbers of foreign-born workers employed in many of the nation's 
largest ports, the TWIC forms clearly rise to the level of DOJ's 
recommended thresholds for multiple languages, not just Spanish.
---------------------------------------------------------------------------
    \23\ 67 Fed. Reg. at 41464.
---------------------------------------------------------------------------
    Accordingly, TSA should take the following specific steps to 
translate vital TWIC documents:
        1. TSA should undertake an analysis of the languages spoken 
        most often by port workers and truck drivers servicing the 
        ports.
        2. TSA should translate the TWIC enrollment and consent forms 
        in multiple languages before enrolling individuals at the ports 
        where the largest population of LEP workers are employed.
        3. Without delay, TSA should prepare ``know your rights'' 
        flyers in multiple languages containing information on the 
        waiver and appeal process to distribute when applicants enroll 
        for the TWIC.
        4. TSA should translate the IDTAs and match them when issued 
        with the language spoken by the applicant as determined upon 
        enrollment.
        5. Once translated, the IDTAs should be made immediately 
        available on the Internet with other translated material as 
        part of a ``Multilanguage Gateway'' to the TWIC program.
        6. Finally, all IDTAs issued in the interim should include a 
        ``tag line'' in multiple languages directing the individual to 
        the translated material on the TSA website.
    These are mostly one-time investments that will go a long way to 
create a more fair and accurate TWIC process for the diverse population 
of U.S. port workers.

                                 * * *

    Thank you again for the opportunity to testify on this critical 
issue of concern to thousands of port workers and truck drivers and 
their communities. We looking forward to working with the Committee to 
help workers access the rights guaranteed by the MTSA and to ensure a 
more fair and effective TWIC process.

                  Prepared Statement of Lisa B. Himber

    Good Morning Mr. Chairman, Congressman King, and members of the 
Committee, and thank you for the opportunity to testify on the 
importance of the Transportation Worker Identification Credential (TIC) 
program. My name is Lisa Himber, and I am Vice President of the 
Maritime Exchange for the Delaware River and Bay, a non-profit trade 
association representing the Delaware Valley port community. I am also 
a member of the National Maritime Security Advisory Committee (NMSAC) 
and have chaired its TWIC working group since the committee's inception 
in March of 2005.
    Having been involved with the program since February of 2002, my 
organization and its members are all too keenly aware of the massive 
challenges facing our ports as we seek to implement the TWIC related 
provisions of the Maritime Transportation Security the Security and 
Accountability for Every Port Acts. We appreciate this Committee's 
understanding of this important program and its efforts toward keeping 
TWIC in the public spotlight.
    Congress and the Department of Homeland Security (DHS) have created 
any number of programs since the events of 9/11 forced us to re-examine 
our approach to border security. MTSA required security plans which 
have hardened our vessels and facilities, and the Trade Act and 
Bioterrorism Acts of 2002 spawned programs such as the 24-hour advance 
cargo manifest rule and advance electronic notice of food imports, 
which have provided greater visibility into the cargo supply chain. And 
while both the maritime industry and the government agencies which 
regulate it were forced to make radical changes in their business 
processes to successfully implement these far-reaching programs, none 
of these so dramatically changed the landscape as TWIC has the 
potential to do. With the implementation of the TWIC program, we will 
begin to focus on that last component of maritime security: the people 
who work on our vessels and piers.
    Our industry has long supported the TWIC concept, and we have 
continued to demonstrate that support over the last five years. 
Undoubtedly, it has been a long and hard road to get us to where we are 
today, and as we stand on the brink of bringing the program from the 
pilot stage to a full production environment, it is paramount that we 
learn from the mistakes of the past and take all conceivable steps to 
ensure the program is implemented in such a way as to meet all its 
stated goals.
    We fully understand the difficulties Transportation Security 
Administration is facing as it seeks to deploy a program of this 
complexity and magnitude. And it is our sincere hope that the agency 
will not only listen to the concerns of its stakeholders--those very 
people who have the most to gain from a more secure maritime 
environment--but that they will act on the recommendations of the many 
maritime professionals who have dedicated their time, resources, and 
expertise to making this program a success.
    So while we look forward to working with TSA and its contractors to 
resolve the unexpected bumps in the road we are certain to encounter, 
we believe it is appropriate to highlight those concerns that, if not 
addressed, may unnecessarily impede our progress.
    I will focus my comments today in two key areas. The Phase I/Card 
Issuance and Phase II/Reader Deployment.

PHASE I/CARD ISSUANCE
    Let me begin by saying that since the October startup in 
Wilmington, Delaware, the initial TWIC deployment appears to be going 
fairly well. Though there have been a few minor complications, these 
were not unexpected, and we remain confident that TSA and its 
contractors will quickly resolve issues as they arise. One issue which 
has surfaced as having the potential to cause significant problems 
relates to the capture and verification of the biometric, which I will 
discuss shortly.
    That being said, there are several specific areas which we believe 
need further attention.
    Communication--Throughout the pilot program, both Congress maritime 
stakeholders expressed their belief that TSA had done a poor job of 
communicating information and project status. We were pleased when TSA 
and Lockheed Martin announced the formation of a TWIC Stakeholder 
Communication Committee which would serve as a forum for TWIC managers 
to provide information and obtain industry feedback. The Committee has 
met many times since its formation last spring, yet unfortunately it 
has not served its purpose. For example, when TSA announced it would 
not start program rollout in March as planned, stakeholders were not 
provided with information as to the cause of the delay or provided with 
updates over the intervening months.
    We do not understand why information such as the deployment 
schedule, enrollment center locations, and other important information 
concerning the TWIC rollout must remain a secret from those who will be 
affected by decisions TSA makes. As the agency should have learned, 
failure to provide timely and relevant information only leads to 
speculation, poor planning, and an overall inability for stakeholders 
to help TSA achieve success.
    In addition, many port operators and others remain concerned that 
many truck drivers and other workers are largely unaware of the 
requirement. We acknowledge that TSA and its contractors have worked to 
broaden outreach and awareness efforts, but it appears more needs to be 
done in this area.
    The Enrollment Process--For reasons which were never made entirely 
clear, the third phase of the TWIC pilot program, which was designed to 
test the business processes of applying for, obtaining, and using the 
TWIC, was severely abbreviated. In addition to issuing only a limited 
number of cards, only about 2,000 cards were produced in the East Coast 
Pilot program, very few of the actual processes to be followed to 
obtain a TWIC were tested in the field. Most of these related to the 
use of the card readers, however neither were several of the enrollment 
and card issuance processes fully examined.
    Having been through the process, I can attest to the fact that, 
while it could be streamlined somewhat, overall the experience was not 
overly burdensome. I applied for my card on Monday, October 15, and 
received notification that my card was available for pick up within 
five days. The pre-enrollment, enrollment and card activation processes 
were fairly simple and took only about 45 minutes in total.

    Impact on the Workforce--Foremost among the open questions relates 
to the lack of a background check for the volunteer pilot program 
participants. We were told that TSA did not have the regulatory 
authority to conduct a background check during the pilot program; as a 
result no empirical data are available to determine what, if any, 
impact this program will have on the workforce. What we do know is that 
there are maritime workers who have disqualifying criminal offenses in 
their backgrounds, yet we do not know their numbers or whether those 
workers will be able to obtain the necessary waivers.
    We are heartened by the statistics provided by TSA regarding the 
number of individuals who have successfully applied for waivers in the 
Hazardous Materials endorsement program. Yet we are concerned that TSA 
has indicated that the majority of people who were initially 
disqualified from receiving a Hazmat endorsement did not apply for 
waivers. Whether this is because they were unaware of the opportunity, 
intimidated by or unable to understand the process, or felt they would 
not be eligible is unknown. It is clear, however, that TSA must do all 
it can to help these individuals through the process. No one wants to 
see a qualified maritime worker deprived of his or her livelihood.

    The Casual Worker--Over the last five years, there has been a great 
deal of concern and discussion surrounding how ports and vessels will 
accommodate the need to hire casual workers to process cargoes during 
peak operating times. While the regulation allows for workers without 
TWICs to enter under escort, a practical method to implement an escort 
program has yet to be developed.
    First, there are safety concerns that must be addressed to 
effectively implement an escort program. Certainly, a worker cannot 
effectively monitor both his own work and the activities of others. In 
addition, the physical layout of the facility or type of cargo being 
moved (such as automobiles, which are driven onto the port) may prevent 
the implementation of an escort policy. It is certainly easy enough to 
stipulate as policy that all workers must have TWICs--until there is a 
shortage of eligible workers and cargo does not move.
    Some believe ports should be allowed to create a program to 
grandfather casual workers if they so choose. For example, eligibility 
could be restricted to individuals who have a history of working at a 
given port, and a ceiling set on number of hours worked prior to 
requiring a TWIC. Facilities could be given the option to create a 
``temporary'' credential or visitor's pass in lieu of requiring 
escorts. If appropriate, when the individual's identification 
documentation is validated, his photograph could be taken and other 
information entered into the facility access control system. If 
necessary, this information could be submitted to DHS for recordkeeping 
purposes.
    While some believe this would circumvent the TWIC process, and 
certainly such concerns are legitimate, allowing a program of this 
nature in the short term would ensure a more smooth transition to the 
new requirements. The ultimate outcome of TWIC, for better or worse, 
will be a change in maritime industry hiring practices. We must take 
advantage of the opportunity TWIC will afford to ``professionalize'' 
the workforce, as we anticipate that various trade and other unions 
will develop a cadre of members ``certified'' to work on regulated 
areas. At the same time, however, it is necessary that we take measures 
to ensure commerce can continue to flow smoothly in the interim.
    Use of Biometrics--The prototype did not test use of biometrics 
with workers at port facilities. This is a significant concern as there 
is no evidence that the fingerprint will suffice as a biometric in a 
maritime environment. Although the potential adverse impact is less 
severe than it will be after use of card readers is phased in, there 
are still unanswered policy questions. For example, how will TSA issue 
a credential to an individual whose biometric cannot be captured? What 
will be used for verification of such individual during a random spot 
check by the Coast Guard?
    Of the 16 people who applied for their TWICs at Wilmington on 
Monday October 15, at least three of those encountered problems in 
activating the cards because the biometric verification failed. This is 
an alarmingly high percentage and could point to a significant flaw in 
the system that must be contained before the program is expanded. It is 
important to note that this was in an office environment where 
conditions are fairly clean and could be more problematic in a weather-
exposed port or vessel environment.
    This is particularly puzzling since each enrollee was able to 
successfully scan their two index fingers immediately after enrollment 
of their ten fingerprints. As a result of the initial problems observed 
during card activation, I'm concerned that there could be a technical 
issue with the method used by the contractor for generating the 
fingerprint data stored on the TWIC card and how that data is being 
verified at activation. We hope that TSA will investigate this matter 
and take corrective action before they issue a significant volume of 
TWIC cards that might result in excessive biometric verification 
failures for legitimate card holders.
    Phase-In Schedule--When the final TWIC rulemaking was promulgated 
in January of this year, TSA anticipated a late March startup and 
mandated that initial rollout must be completed by September of 2008, 
an 18-month schedule we believed was ambitious at the outset. Yet 
enrollment did not begin until October, leaving only an 11-month window 
to complete the initial enrollment process. While we applaud TSA's 
desire to complete the process quickly based on the original schedule, 
we do not believe this timetable is realistic and suggest consideration 
be given to planning for an extension. Without proper planning, making 
the decision at a later date could create real problems for both the 
contractors and for maritime workers.
    In addition, we recommend that TSA and Coast Guard begin compliance 
at all ports simultaneously. First, staggering TWIC compliance dates 
can cause competitive disadvantages for those areas which have earlier 
dates--as can any program which makes it more difficult, costly or 
cumbersome to move cargo through one port over another. In addition, 
because the maritime worker population is largely mobile, it will be 
difficult for the ports where TWIC has been declared mandatory to 
escort mariners, or truck drivers arriving from areas where TWIC is not 
yet available or mandatory.
    In any event, it is crucial that there is concurrence between the 
Captains of the Port and and key port stakeholders when the decision is 
made to begin to enforce compliance in any given region.

    Enrollment Center Locations--A sufficient number and convenient 
locations of TWIC enrollment centers will be critical to successful 
program deployment. While TSA has guaranteed there will be enrollment 
sites in at least 140 port cities, we have yet to learn the number of 
locations within those ports, nor how long they those sites will be 
operational. Further, we have not been provided with any information on 
the locations of centers beyond September of 2008.
    Decisions on locations of enrollment centers beyond the initial 
rollout should not be left to the contractor's discretion but must be a 
cooperative agreement between TSA and the maritime community to 
facilitate the TWIC enrollment and card replacement processes.
    Further, the enrollment process is not geared toward mobile 
populations, particularly truck drivers. The program is designed in 
such a way that individuals must retrieve their TWICs after production 
at the same location as they applied. Many drivers arrive at Delaware 
River ports from other parts of the country. Until the program is fully 
implemented, these drivers will not have their TWIC cards. With the 
sheer volume of trucks moving through facility gates every day, it is 
not feasible that facilities, importers, or others could provide 
resources to escort these individuals.
    Trusted Agents--Because of the sensitive nature of the data these 
individuals have access to, we have suggested that TWIC trusted agents 
be subject to higher scrutiny than TWIC applicants. In addition to 
undergoing the same threat assessment procedure as a potential TWIC 
holder, we have recommended that trusted agents also be subject to 
financial history and other relevant background checks. To date, we 
have not received any assurances in this regard.
    Based on our experience during the pilot program, we also 
recommended that trusted agents receive relevant customer service and 
``business'' training, such as how to appropriately swipe a credit 
card, as well as comport themselves in a professional manner. The 
Trusted Agents I have encountered in Wilmington have certainly been 
friendly and polite. However, when I arrived at the enrollment center 
after completing the pre-enrollment process, the Trusted Agent could 
not access my information. As it turned out, there was not a system 
problem, but rather it was a training issue with that particular Agent. 
Further, when I went to retrieve my card, there was a lengthy process 
while information was uploaded from the system to the card. The Agent 
was unable to answer my questions regarding what information was being 
encoded into the card.
    Needless to say, it is critical that Trusted Agents receive 
thorough training on the TWIC program itself. While we recognize that 
it is still early in the process, given that the Trusted Agents have 
been onsite and undergoing training in Wilmington for several months, 
we are extremely concerned to hear that there are training problems 
right out of the gate. If indeed the population estimate of 750,000 
workers is as understated as many port officials believe, and Lockheed 
Martin is compelled to quickly fill Trusted Agent positions to 
accommodate a greater than anticipated demand, how will these issues be 
handled?
    Applying for an obtaining TWICs will take time and will cost, in 
some cases, a great deal of money. It is incumbent upon TSA to ensure 
these issues are anticipated and addressed.
    Use of Readers During Phase I--The TWIC regulations require that 
individuals seeking unescorted access to a restricted area present 
their cards for visual inspection. Many facilities have invested in 
electronic card readers which allow access through automated gates. In 
addition to the increased throughput time and personnel costs 
associated with visually inspecting each card, many believe that 
eliminating the electronic read in favor of the human review is in fact 
taking a step backwards in terms of security.
    The TWIC cards being issued today are machine readable. We have 
suggested to TSA and Coast Guard that the visual inspection should be 
considered a minimum standard; vessels and facilities should have the 
option to exceed that standard by using TWIC readers for access during 
Phase I, even though readers are not yet required.

    Lost or Stolen Credentials--We appreciate that TSA has provided a 
mechanism to accommodate access for workers whose cards may have been 
lost or stolen. Yet this mechanism is only available to direct 
employees of a facility or vessel, and it should be made available to 
all credentialed workers. Further, the process to verify/enforce this 
provision is unclear. While the request for a replacement card can be 
made on-line, ostensibly eliminating the need to make two trips to the 
enrollment center, the guidance provided stipulates that proof during 
the 7-day grace period must be provided in the form of a receipt, which 
can only be obtained by visiting the enrollment center. Further, since 
TSA cannot guarantee that a replacement card will be issued in the 7-
day time frame, we suggest the guidance be modified to allow for a 30-
day grace period.
    These are just a few of the outstanding concerns related to the 
TWIC issuance process. Others include questions about liability--to the 
vessel or facility operator, to a TWIC holding escort, to companies 
whose employees may be injured while en route to or from an enrollment 
center--to a lack of ``batch enrollment'' capability--to concerns about 
protecting the data collected and stored during enrollment--to the lack 
of integration between TWIC and merchant mariner and other existing 
credentials--or questions surrounding access for law enforcement or 
emergency personnel.
    There are a similar number of open issues and questions surrounding 
the use of card readers when Phase II of the program begins.

PHASE II/READER DEPLOYMENT
    Most maritime professionals applauded the TSA and Coast Guard 
decision to segregate the rulemaking processes related to card issuance 
and reader usage. Taken separately, each of these components of the 
TWIC program is extremely intricate and creates multiple possibilities 
to unduly hamper maritime operations if not implemented in a thoughtful 
and deliberate manner. We appreciate that DHS is allowing sufficient 
time to address the challenges of card issuance prior to introducing 
the reader component. This is particularly relevant given that many of 
the critical technologies, such as communication with the central 
database, use of biometric readers, or using the ``hotlist'' were not 
tested, or were tested insufficiently, during the original TWIC pilot 
program.
    We are pleased that DHS, as required by the SafePort Act, will 
conduct a separate TWIC pilot program to test reader technology and 
processes. It is our understanding that Coast Guard will publish a 
proposed rule prior to commencement of the pilot program, and we 
appreciate the opportunity to provide early comment. And while we 
recognize that TSA and Coast Guard must complete their planning well in 
advance of pilot startup, policy decisions must be made prior to 
choosing technology solutions to be tested. Further it is absolutely 
crucial that policy decisions are made in concert with maritime 
stakeholders and that the maritime industry has a voice in the design 
and development of the pilot program--particularly those ports and 
vessels who will be participating.
    At this point there are two primary concerns technology to be used. 
The first involves the encryption of the biometric as it is validated 
during an access request.

    Contactless Biometric Read--The Notice of Proposed Rulemaking 
published in May of 2006 regarding reader usage dictated that contact 
cards would be used in the TWIC program. Requiring that a card be 
swiped at a TWIC reader would not only significantly delay maritime 
operations, but contact readers are more susceptible to failure and 
present an easy and attractive target to vandals. In response to 
stakeholder comments, DHS agreed to utilize a contactless card and 
asked the National Maritime Security Advisory Committee to develop 
recommendations for a contactless reader specification which could be 
used at ports and on vessels.
    The NMSAC completed its work in February of 2007, and in September 
DHS published the technical specification for the reader it selected. 
Despite the fact that the recommendation of its advisory committee, 
which was supported by a large majority of the comments to the public 
docket, that the fingerprint template not be encrypted, DHS elected to 
require such encryption. This is one of the single most important 
issues DHS will have to address as it enters the second phase of the 
TWIC rulemaking process.

    A. Privacy and Security Considerations--We support the inclusion of 
measures to protect individual privacy and acknowledge that this 
prerequisite is as critical to the success of TWIC as are the need to 
enhance commerce and improve transportation security. It is our 
understanding that all personally identifiable information about an 
individual gathered during enrollment will be retained by TSA in its 
central data bank. The card itself is expected to show and/or contain a 
photo, a unique cardholder identification number, and the individual's 
biometric fingerprint template only.
    In its design, TSA wisely elected to utilize the fingerprint 
template rather than a full fingerprint image specifically to address 
both privacy and operational efficiency concerns. Since only a 
fingerprint template will be passed between the card and the TWIC 
reader, the information cannot be reverse-engineered to a full 
fingerprint image.
    Even if the template were ``stolen'' during contactless 
transmission to a TWIC reader, and even if somehow it could be used to 
replicate the original fingerprint, for which we understand no 
technology currently exists, the ``thief'' would not be able to use 
this illegal TWIC as the fingerprint image would not match his own when 
presented to a biometric reader in conjunction with a TWIC. In 
addition, an individual interested in ``stealing'' a fingerprint would 
meet much less technical resistance and obtain a more accurate 
representation by lifting it from an object in a public place such as a 
car door, window or drinking glass.

B. Operational Considerations--There are several concerns with 
encrypting the fingerprint template. First, every transaction will 
require encryption and decryption, each of which takes time and affords 
an opportunity for problems to arise. In addition, prior to encryption 
and decryption, some form of authentication or ``handshake'' between 
the card and reader is necessary to validate that the transaction about 
to take place is legitimate. In order for such authentication to take 
place, some form of key management must be in place. Thus, if a key is 
compromised at one instance, it affects every reader in that ``key 
community.''

In summary,
        <bullet> Adding encryption generally makes the TWIC system more 
        complex and therefore more difficult to develop, use, manage, 
        and maintain.
        <bullet> Adding encryption will slow processing time to read 
        cards at vessels/facilities.
        <bullet> The use of keys places an administrative burden and 
        certain liabilities (e.g., responsibility to ensure the key is 
        not compromised) on those charged with key management. Vessel 
        and facility operators are neither prepared nor able to accept 
        these responsibilities.
        <bullet> Adding encryption will increase TWIC costs.
    The NMSAC TWIC Working Group closely studied the issue and as a 
group concluded that the operational complexities increase by a level 
of magnitude and to the point where they are not proportionate with any 
perceived benefit of encrypting the biometric template. In short, there 
is no empirical evidence that encrypting the fingerprint template 
affords any additional protection of personal privacy. Despite this, 
TSA plans to require that the template be encrypted.
    This is an area where industry and government are clearly not in 
agreement. Prior to finalizing this policy decision, TSA and Coast 
Guard should revisit this issue with industry stakeholders to determine 
a mutually acceptable solution.
    Use of the ``Hot List''--To date, TSA has not provided any 
information on the hotlist to port and vessel operators. Several 
questions, such as what data will be provided, file transfer protocols, 
frequency of updates, and method of system query should be discussed 
well in advance of the pilot program start up.
    Reader Manufacturing--One of my members is a manufacturer of card 
readers and shared the following concerns. ``Meeting policy 
requirements and TWIC technical reader requirements as published means 
manufacturers and integrators must create a custom product; there is no 
off the shelf product that meets the control requirements, 
environmental requirements and system requirements specified. As a 
result:
        a. Manufacturers and integrators have to evaluate the Return on 
        Investment that can be predicted for expending engineering and 
        manufacturing resources to rework existing products to meet the 
        requirements as stated. The fact is that most manufacturing 
        plants require sales in the amounts of 50,000 or more to cost 
        justify the re-engineering and re-tooling effort. There are no 
        guarantees that purchases made by maritime operators and the 
        Coast Guard will reach these volumes, thus cost justifying the 
        customization of product to meet the specified TWIC 
        requirements.
        b. The Personal Identity Verification requirements and the TWIC 
        policies continue to be modified, posing additional challenges 
        to engineering efforts both on the software side and the 
        firmware side to meet the TWIC control requirements.''
    The concern for the maritime industry is of course that readers 
will be difficult to obtain, and those which may be available will be 
priced unnecessarily high such that manufacturers can recoup their 
engineering costs.
    There are several other outstanding questions and concerns 
surrounding the selection and use of card reader technology. These 
include where readers will be required (e.g., on all vessels or just 
those meeting certain criteria), the use of a PIN during the TWIC 
verification procedures, integration with legacy access control 
systems, whether positive access control will be required, and future 
expansion of the card.
    These are all important issues and it is unclear how DHS plans to 
work with stakeholders to address them in advance of and during the 
pilot program.

CONCLUSION
    Several years from now, obtaining a TWIC will be standard operating 
procedure, and its issuance and use will be a matter of routine. But it 
is clear the next few years will be challenging ones. Now that the 
process is underway, successful implementation will be dependent on a 
great deal of communication, understanding, and patience. There is a 
lot yet to be done, and we must work together to address the many 
outstanding issues.
    Over the years, the maritime sector has implemented new programs 
and practices in an effort to enhance the security of our homeland. We 
look forward to continuing to work with TSA and Coast Guard on the TWIC 
program to ensure there are no unintended consequences and that the 
TWIC will be deployed in the most secure and efficient manner possible.
    Thank you for the opportunity to speak today. I will be happy to 
answer any questions you may have.

                   Prepared Statement of Judith Marks

    Chairman Thompson, Ranking Member King and Members of the 
Committee:
    Thank you for the opportunity to discuss the Transportation Worker 
Identification Credential, or TWIC, program. I look forward to sharing 
the progress we have achieved on this important program. This testimony 
will provide a background on the TWIC program, the Lockheed Martin 
contract and the steps we have taken to begin enrollment of the 
maritime community.
    The Transportation Worker Identification Credential (TWIC) is a 
Transportation Security Administration and U.S. Coast Guard initiative. 
The TWIC program provides a tamper-resistant biometric credential to 
maritime workers requiring unescorted access to secure areas of port 
facilities, outer continental shelf facilities, and vessels regulated 
under the Maritime Transportation Security Act, or MTSA, and to all 
U.S. Coast Guard credentialed merchant mariners. An estimated 750,000 
individuals will require TWICs. Enrollment and issuance will take place 
over a 13-month period beginning in October 2007. To obtain a TWIC, an 
individual must provide biographic and biometric information (such as 
fingerprints), sit for a digital photograph, and successfully pass a 
security threat assessment conducted by TSA.
    The TWIC final rule, published in the Federal Register January 25, 
2007, reflects input obtained through four public meetings and over 
1,900 comments from the maritime industry. While TWIC may be 
implemented across other transportation modes in the future, the TWIC 
Final Rule sets forth regulatory requirements to implement this program 
in the maritime mode first. This rule does not require maritime owners 
and operators to purchase or install card readers compatible with TWIC 
at this time. A second rulemaking is anticipated in calendar year 2007 
and will propose additional access control requirements and the use of 
electronic readers. The public will have opportunities to comment on 
the proposed standards.
    The program's goals are:
        <bullet> Positively identify authorized individuals who require 
        unescorted access to secure areas of the nation's maritime 
        transportation system;
        <bullet> Determine the eligibility of an individual to be 
        granted unescorted access to secure areas of the maritime 
        transportation system;
        <bullet> Enhance security by ensuring that unauthorized 
        individuals are denied unescorted access to secure areas of the 
        nation's maritime transportation system; and,
        <bullet> Identify individuals who fail to maintain their 
        eligibility qualifications after being permitted unescorted 
        access to secure areas of the nation's maritime transportation 
        system and revoke these individuals' permissions.

TIMELINE
    The TWIC program began in the Spring of 2002 with Phase I, which 
was a planning phase conducted by TSA personnel. This phase concluded 
in Spring of 2003. Phase II was the technology evaluation phase, 
performed by Maximus, Inc. under contract to TSA. Phase II ran from 
Fall 2003 to Fall 2004. Phase III of the TWIC program was the prototype 
phase, performed by BearingPoint under contract to TSA. Phase III began 
in the Fall of 2004 and concluded with the prototype report which was 
issued in the Fall of 2005.
    The current phase of the TWIC program, the production phase, was 
competitively awarded to Lockheed Martin in January of 2007 and is 
currently underway.
    Relevant legislation includes the Maritime Transportation Security 
Act (MTSA) of 2002 and the Security and Accountability for Every (SAFE) 
Port Act of 2006.

         LOCKHEED MARTIN'S PHASE IV CONTRACT AND TSA OVERSIGHT

    Lockheed Martin was awarded the TWIC Phase IV contract on January, 
29, 2007. The initial task order, Task Order 1, provides for initial 
enrollment of the maritime population, as well as support of the 
Information Technology (IT) system that collects applicant information 
and manages the lifecycle of the TWIC Credentials. The term of the 
initial contract award is through October of 2008. Four additional 
options, if exercised, would extend the contract to a total of five 
years to January 2012.
    The TWIC Phase IV contract is performance-based, with financial 
incentives and disincentives tied to measurable performance goals. 
Lockheed Martin developed a Quality Assurance Surveillance Plan (QASP) 
which contains specific metrics negotiated with TSA. As part of our 
contract, these metrics will be used to determine whether we are 
meeting the performance goals and whether we receive award fees or if 
we must remit penalties. TSA has identified a specific quality 
assurance monitor to track the following key performance parameters:
        <bullet> On-time Port Mobilization
        <bullet> On-Time Completion of Maritime Population Enrollment
        <bullet> Customer Satisfaction
        <bullet> Enrollment Wait Time
        <bullet> Enrollment Processing Time
        <bullet> Fingerprint Reject Rates
        <bullet> Helpdesk Response Time
        <bullet> Helpdesk Resolution Time
        <bullet> Enrollment Failure Rate (Enrollments that Fail to 
        Process)
    The TWIC fee, as of October 1st, 2007, is $132.50 for a new 
credential, for an applicant who does not possess a current qualifying 
background investigation. This fee breaks down as follows:
        <bullet> $43.25 for Information Collection / Credential 
        Issuance (Lockheed Martin)
        <bullet> $72 for Complete Security Threat Assessment (STA) and 
        Card Production (TSA)
        <bullet> $17.25 FBI Criminal History Records Check
    The $43.25 collected by Lockheed Martin covers the cost of 
enrollment facilities, personnel, travel, and fixed and mobile 
enrollment equipment. This fee also covers the cost of the card stock, 
which is delivered by Lockheed Martin to TSA's card printing facility 
in Corbin, KY. This card production operation is run by the US Customs 
and Immigration Service (USCIS) and is outside the scope of Lockheed 
Martin's contract. In addition, the background vetting of TWIC 
applicants, selection and schedule of port enrollments, the 
Consolidated Screening Gateway (CSG), adjudication of eligibility, 
appeals, and the card readers are also outside the scope of Lockheed 
Martin's contract; the responsibility for these activities rests with 
TSA.
    Lockheed Martin brings a number of relevant strengths to the Phase 
IV contract. The two most significant challenges that we face are as 
follows:
        (1) Rapid deployment of personnel and equipment to facilities 
        that we must locate and secure on a very tight timeline, and,
        (2) Support, maintenance, and evolution of a complex 
        information technology system involving advanced biometric 
        identification systems and protection of sensitive personal 
        information.
    Lockheed Martin is fortunate to have had significant experience in 
dealing with large rapid-deployment projects. One of the most relevant 
is our leadership of the Strategic Airport Security Rollout (SASR) 
program undertaken for TSA in 2002. The SASR program involved 
deployment of 2,900 personnel, to 429 US airports, in just three 
months. These personnel facilitated the transition to the federal 
passenger screening workforce, and also undertook the responsibility to 
survey and redesign over 1500 passenger security screening lanes.
    We have also spent many years evolving our biometric and 
credentialing expertise. Dating back to the 1980's when Lockheed Martin 
began development of the FBI's Integrated Automated Fingerprint 
Identification System (IAFIS), we have had decades of experience in the 
biometric field. Over the past five years we have supported the federal 
government in advancing their HSPD-12 employee credentialing 
activities, including collaborative work with DHS, HHS, and GSA to name 
a few. As the lead systems integrator, we also provide core technology 
to the Registered Traveler initiative.

    LEADERSHIP AND OUTREACH
    Our leadership team has been carefully selected to include 
individuals with extensive experience and understanding of TSA, the 
Coast Guard, the port environment, and biometric credentialing 
technology. Key program personnel are as follows:

Jon Rambeau--TWIC Program Executive, Lockheed Martin
    As Program Executive, Jon has the primary responsibility for 
management of Lockheed Martin's relationship with TSA and the Coast 
Guard, and for ensuring that the mission objectives of the program are 
satisfied. Jon has managed Lockheed Martin's credentialing business 
since 2005, and has been involved in the TWIC program since that time. 
Jon was a program manager for a portion of the field operations on 
TSA's SASR program in 2002 and 2003, and has also managed Lockheed 
Martin's Physical Access Control business, lending direct experience to 
TSA's next focus area of integrating TWIC with port access control 
systems.

Richard Hatton--TWIC Deputy Program Manager for Field Operations, 
Lockheed Martin
    As Deputy Program Manager, Richard is responsible for managing our 
field staff of more than 400 trusted agents and supervisory personnel, 
as well as our field office facilities, equipment, and logistics 
network. A retired US Coast Guard Captain, Richard brings a wealth of 
experience spanning policy development, operations management, and 
emergency preparedness.

Cliff Link--Manager for Stakeholder Outreach and Communications, 
Deloitte Consulting
    As lead for Stakeholder Outreach, Cliff provides the critical 
interface point for a diverse community of national, regional and local 
port stakeholders all of whom are eager for information on this 
important program. Cliff's selection for this position was based 
largely on his extensive maritime experience, which includes over 26 
years as a Special Agent and Executive with the Naval Criminal 
Investigative Service, during which Cliff executed missions and 
assignments at ports throughout the nation and the world.
    While TWIC is a complex logistical undertaking and an advanced 
technology activity, we recognize that it is more than just another 
large, complex project management task. This is a program that will 
touch hundreds of thousands of Americans' lives, and we have taken 
steps to ensure that the experience is as positive as possible for 
those affected. We have included, as part of our rollout strategy a 
Communications and Stakeholder Outreach Team led by Deloitte 
Consulting, LLP. There are two key elements to this team's strategy as 
follows:
    (1) National-Level Stakeholder Leadership Communications and 
Feedback--As part of the Lockheed Martin proposal to TSA, we recognized 
that effective stakeholder outreach and communications would be 
critical for success. This activity is facilitated primarily through 
the formation of the TWIC Stakeholder Communications Committee (TSCC). 
The TSCC is facilitated by Lockheed Martin and Deloitte Consulting. TSA 
and the Coast Guard take a leadership role in our monthly TSCC 
meetings, which are attended by representatives from 49 organizations 
including labor unions, industry associations, and other related 
groups. The TSCC provides a forum for communication about the program 
status and key features, and allows an opportunity for stakeholders to 
provide feedback and voice concerns. Each TSCC meeting features at 
least one special topic, such as an overview of the TWIC technology, or 
a briefing from an Administrative Law Judge (ALJ) on the Appeals & 
Waivers Process. Each meeting covers rollout status, review of action 
items, and an open forum for members to ask questions on topic of 
interest. The TSCC is an important channel for dissemination of 
information to the maritime population.
        (2) Local Port Outreach--At the local level, the Outreach Team 
        has been working since the Phase IV contract was awarded to 
        meet directly with local stakeholders either by telephone or in 
        person. The purpose of these meetings is to educate the local 
        population on the key elements of the TWIC program, and to 
        obtain their support in communicating with the local 
        population. Where possible, these outreach sessions are a 
        collaborative effort between the Lockheed Martin Team, TSA, and 
        the Coast Guard. We begin the outreach process by working 
        through the Coast Guard Captains of the Port, and attempt to 
        reach all key stakeholders. We provide leave-behind materials 
        in the form of flyers and posters, so that local stakeholders 
        can continue to act as a--communications force multiplier'' 
        with the local population.

ENROLLMENT POPULATION
    One of our key focus areas as we begin deployment operations is to 
understand the size and geographic distribution of the maritime 
population. Initial projections developed under contract to TSA were 
provided to Lockheed Martin as part of the TWIC IV solicitation 
process. These projections indicate an estimated 750,000 applicants 
will be enrolled during the initial 16-month term of the Lockheed 
Martin contract. Since contract award, the Coast Guard, TSA, and 
Lockheed Martin have received reports from a number of ports indicating 
that the actual population may be significantly larger in some areas 
than was initially anticipated. We are responding to these concerns in 
two ways:
        (1) Under the leadership of the Coast Guard, TSA and Lockheed 
        Martin have participated in a series of conference calls with 
        each Coast Guard District to discuss specific population 
        discrepancies and to request data that would support increased 
        estimates at specific ports. As of October 10th, all of these 
        conference calls have taken place. Once we have obtained any 
        revised population figures, facilities, equipment, and 
        personnel will be adjusted as appropriate in our deployment 
        plans. It should be noted however, that the results of this 
        recent round of calls have not yielded any significant data in 
        terms of specific population count, but we do continue to hear 
        concerns that the current population projections are low in 
        some areas. Lockheed Martin will continue to follow up with 
        each port's stakeholder community as launch dates approach and 
        ensure that we have surge capacity on hand to respond to 
        greater than expected turnout.
        (2) Because we will always have some level of uncertainty in 
        the anticipated enrollment population, we have taken a very 
        flexible approach to planning our operations. We will focus 
        first and foremost on use of mobile enrollment workstations 
        that can be taken directly to stakeholder facilities. This 
        provides an additional level of convenience for the individual 
        workers, and also allows for more effective management of 
        applicant throughput, by minimizing lines at fixed facilities 
        and easing the burden on major employers. In addition to use of 
        mobile units, we have developed a national surge plan that will 
        allow for rapid expansion of capacity at any of the 147 port 
        locations. The first step would be to extend the hours or add 
        additional work shifts with our existing enrollment staff. 
        Second, we would add additional staff and increase hours and 
        shifts. The third step would be to increase the number of 
        enrollment stations by bringing in mobile enrollment stations. 
        Lastly, Lockheed Martin would secure additional fixed facility 
        space. We have already taken steps to prepare for these 
        potential events.

                       PRIVACY AND DATA SECURITY

    We recognize that the information provided by TWIC applicants is 
personal in nature and subject to privacy restrictions. TWIC program 
processes of both physical and IT handling of personal data are 
designed around privacy. We have engaged Deloitte Consulting's Privacy 
Practice to review the data handling of the TWIC program and design and 
document a comprehensive privacy system for TWIC. Deloitte is 
recognized as a leading global provider of privacy and data protection 
services, having privacy practitioners around the globe. Deloitte 
employs over 185 privacy professionals in the US and Canada, over 30% 
of whom are Certified Information Protection Professionals (CIPPs).

    The TWIC Privacy System addresses the following:
        <bullet> Transparency in privacy practices to the applicants 
        for the TWIC program in the handling of applicant's Personally 
        Identifiable information (PII);
        <bullet> Outlines the individual rights and privileges of 
        applicants and card holders;
        <bullet> Supports applicant's consent for collection, use, and 
        disclosure of PII;
        <bullet> Outlines acceptable use and handling of applicant and 
        card holder's PII by the TWIC Program;
        <bullet> Identifies the key security safeguards to support the 
        privacy and confidentiality of PII; and,
        <bullet> Enables change management for the privacy system to 
        reflect changes in laws, regulations or TWIC program 
        requirements.
    The TWIC program has applied the preceding features across four key 
elements of the overall program:
        <bullet> IT Security--All TWIC applicant data is protected 
        electronically from the moment it is obtained. All of our data 
        communications are processed over secure network connections 
        and all data is encrypted, both in transit and at rest. 
        Applicant data is only stored on a local enrollment station 
        until it is transmitted to the central database. Provided a 
        secure connection exists at the time of enrollment, the 
        applicant's data is erased from the local machine immediately 
        upon completion of the transaction. For added security and 
        accountability, all persons processing a system transaction 
        must digitally sign that transaction using a digital 
        certificate from their own TWIC credential.
        <bullet> Physical Security--The central TWIC system is housed 
        in a secure government facility, and can only be accessed by 
        individuals possessing a TSA security clearance and a 
        demonstrated need for system access. Our enrollment facilities 
        are secured after hours, and any TWIC credentials located on 
        premise are stored in a GSA-rated safe when the center is not 
        open for business. When enrolling a TWIC applicant, we ensure 
        that a physical barrier exists between enrollment stations and 
        the waiting area, so that applicant data is kept confidential 
        to the applicant and the trusted agent performing the 
        enrollment.
        <bullet> Privacy Officer--We have identified an individual who 
        is the privacy advocate for the Lockheed Martin elements of the 
        TWIC program. This person will act as an advisor for 
        disposition of issues raised by any TWIC applicant who has 
        concerns about Lockheed Martin's handling of their personal 
        information. This person has extensive privacy experience, 
        having dispositioned legal matters related to legislation such 
        as the Driver's Privacy Protection Act (DPPA) and the Health 
        Insurance Portability and Accountability Act (HIPPA), as well 
        as providing counsel on privacy matters to a number of DHS 
        programs.
        <bullet> Helpdesk Security--When an applicant calls our 
        helpdesk, it is important that they quickly obtain useful 
        information about the status of their account. Equally 
        important, however, is verifying the caller's identity, before 
        any personal data is divulged. For this reason, our privacy 
        program includes helpdesk authentication procedures for 
        validation of identity during helpdesk calls.

                                STAFFING

    We anticipate employing over 400 field personnel at the peak of the 
maritime population enrollment period. The selection and training of 
these personnel is of paramount importance to our success. We are 
selecting personnel local to each port enrollment location to maximize 
local familiarity and to provide for a long-term base of trained 
personnel after the initial enrollment period. Our personnel are 
selected based on behavioral interviewing techniques focused on the 
capability to perform a customer service-oriented function. Once hired, 
our personnel must complete the TWIC credentialing process, including 
the same Security Threat Assessment (STA) that a transportation worker 
must undergo. No access to the TWIC system is granted without the STA 
being successfully completed. All of our personnel must successfully 
complete 40 hours of classroom training. This includes technical 
training and customer service training. We deliver both lecture course 
materials and scenario-based role-playing techniques. Of the 40 hours 
of classroom training, 21 hours are dedicated to customer service-
related topics.

                        MINIMIZING INCONVENIENCE

    As we recognize that the TWIC credentialing process will be an 
added burden on a population that is already working hard to support a 
constantly-growing maritime transportation system, we have taken steps 
to make this process as convenient as possible. Features of the TWIC 
deployment approach include:
        (1) Mobile Enrollment and Card Issuance--As mentioned earlier 
        in this document, we will work with major stakeholders at all 
        ports to enroll as much of the population as possible at 
        stakeholder facilities. These may be employer facilities, union 
        halls, or industry association offices. We will also coordinate 
        the issuance of cards at these locations wherever possible, 
        again to provide convenience.
        (2) Pre-Enrollment Options--To minimize the time a worker must 
        be onsite at an enrollment location, we offer multiple pre-
        enrollment options. Pre-enrollment involves advance provision 
        of biographical information so that this information does not 
        need to be collected at the time of enrollment. Pre-enrollment 
        may be accomplished online, via the TWIC Helpdesk phone number, 
        or, at larger ports, via laptop-based self-service kiosks. Pre-
        enrollment also provides an opportunity to schedule an 
        appointment at the TWIC enrollment facility, further reducing 
        an applicant's wait time.
        (3) Multilingual Support--We recognize that certain parts of 
        the country have significant populations of non-native English 
        speakers. In these locations we will have trusted agents who 
        speak other languages. Our pre-enrollment website and helpdesk 
        are both bilingual (English/Spanish), as is our enrollment 
        center workstation software.
        (4) Fingerprint Rejects--As with any FBI background fingerprint 
        check, a percentage of the population will have their 
        fingerprints rejected by the FBI as unreadable. This represents 
        an inconvenience for the applicant because, in this scenario, 
        another set of prints must be collected. While we cannot 
        eliminate this situation, we can minimize and educate in the 
        process. To minimize the number of rejects, we are applying 
        quality algorithms to each set of fingerprints captured in our 
        enrollment centers. This provides trusted agents with an 
        immediate indicator if prints are of low quality, and provides 
        an opportunity to recapture them on the spot. If repeated 
        attempts to capture high-quality prints are unsuccessful, the 
        applicant can be educated at the time of enrollment on the 
        possibility of an FBI rejection, and can plan in advance for a 
        possible resubmission. The use of the advance quality check on 
        other programs, specifically the TSA HAZMAT driver endorsement 
        program, has kept FBI rejects to 1.5-2% of the applicant 
        population, less than half of the 4% average seen by the FBI.

                      PORT OF WILMINGTON, DELAWARE

    As you know, our first enrollment activity began at the Port of 
Wilmington in Delaware two weeks ago. We expect that we will enroll 
5000--6000 individuals at this location. Prior to this official 
enrollment date, the maritime community was able to pre-enroll on the 
TWIC website, www.tsa.gov/twic. In the first two days of online pre-
enrollment, we had over 550 individuals begin the enrollment process 
on-line. To date, more than 3000 people have utilized the pre-
enrollment option. In Wilmington, we have a fixed enrollment location, 
near the entry to the port, with four enrollment stations. In addition, 
in an effort to make enrollment as convenient as possible, we will be 
taking mobile enrollment stations to the offices of thirteen 
stakeholders, including Valero Oil and ILA Locals 1694-1 and 1883, to 
enroll their employees and members on site. We are also in discussions 
with Chiquita about a similar approach for their employees. With these 
mobile enrollment activities, we hope to cover roughly 3,700 people.

                     PORT OF CORPUS CHRISTI, TEXAS

    Tomorrow, we will begin enrollment activity in Corpus Christi, 
Texas. At this port, TSA's estimates indicate we will enroll roughly 
6000--7000 individuals. In Corpus Christi, we have both fixed and 
mobile enrollment capability. As we ramp up local operations, we will 
be working with local stakeholders to schedule onsite enrollments 
similar to those planned in Wilmington. We look forward to the next 10 
locations going ``live'' in November and working towards beginning 
enrollment at all 147 locations identified by TSA.

CONCLUSION
    Mr. Chairman, as you know, Lockheed Martin is involved with a 
number of homeland security programs. With each of these, the goal of a 
less vulnerable, more secure nation gives us true purpose; it drives 
our every action. With TWIC, we are particularly proud to have the 
opportunity to work on a program that will protect the engine of 
America's economy: her ports. In so doing, and in strong partnership 
with TSA, we bring to bear our technical skill and resources to 
implement this initiative in a manner that is both secure and 
convenient. We will continue to serve our customer with pride and 
dedication, doing all that we can to minimize inconvenience to port 
workers while striving for the best in maritime security.
    Thank you for the opportunity to submit this testimony for the 
record.

                   Prepared Statement of George Quick

    Mr. Chairman and Members of the Committee:
    My name is George Quick. I am Vice President of the Pilot 
Membership Group of the International Organization of Masters, Mates & 
Pilots (MM&P) and a member of the MM&P's General Executive Board. The 
MM&P represents Ships' Masters, Licensed Deck Officers and unlicensed 
mariners working aboard United States-flag commercial vessels operating 
in the foreign and domestic trades and on the inland waterways. We also 
represent mariners working aboard civilian crewed ships in the 
government's Ready Reserve and Military Sealift Command fleets, as well 
as harbor pilots in ports throughout the United States. The seafaring 
and pilot members of the MM&P are among those who are required to 
obtain a Transportation Worker Identification Credential (TWIC). As 
such, we have a direct interest in the implementation of this program 
and the effect it will have on the ability of our members and all 
maritime labor to continue to do their jobs.
    There should be no question that the MM&P and all the American 
seafaring and longshore unions have a vital interest in, and an 
unwavering commitment to, the enhancement of America's maritime 
security. America's maritime workforce is on the front lines in the war 
against maritime-related terrorism. It is American maritime workers who 
will almost certainly be among the first American citizens directly 
affected, injured and killed in the event of such an incident or breach 
of maritime security. It is America's maritime workforce which should 
therefore be regarded by our government as an ally here at home, in the 
same way that we sail and work in support of our armed forces overseas 
in the war against terror.
    We also have another obligation to our nation: to safely and 
economically move America's foreign and domestic commerce. We strongly 
believe strengthening maritime security and facilitating the movement 
of cargo to protect our economic security are not mutually exclusive 
goals and objectives. Rather, we believe the United States can achieve 
both goals provided the Transportation Security Administration (TSA) 
understands that a poorly designed and implemented program will 
unnecessarily burden our industry and seriously diminish our ability to 
do our jobs without providing any real maritime security benefits to 
our nation.

Interoperability with International Standards
    We have consistently argued that there is a simpler, quicker and 
more efficient way to implement a TWIC program than the way currently 
proposed. After the terrorist attacks against our country on September 
11, 2001, government, industry and labor turned their attention to ways 
to prevent maritime-related terrorist incidents. The United States, 
recognizing the international nature of maritime commerce, looked to 
the International Maritime Organization (IMO), the United Nations body 
that regulates international shipping, for support. In 2002, the IMO, 
relying most heavily on principles put forward by the United States, 
developed an international maritime security regime that applies to 
ships and ports.
    This IMO security regime has been incorporated into a mandatory 
international convention, the International Ship and Port facility 
Security Code (ISPS Code). The Coast Guard's maritime security 
regulations contained in 33 CFR 104 and 105 are based upon the ISPS 
Code to ensure that our country meets its international obligations 
under the Code.
    The IMO member states collectively realized that identity documents 
and access control are essential elements of an effective maritime 
security system. They requested that the International Labor 
Organization (ILO), another United Nation's body, develop a uniform 
international standard for a seafarer's identity document to be used 
for access control in conjunction with the ISPS Code. With the 
participation of the United States, the ILO adopted the Seafarers' 
Identity Document (SID) Convention (C-185) in June 2003.
    C-185 establishes international standards for an identity document 
based on the biometric identifier standards of the International Civil 
Aviation Organization (ICAO), the United Nations entity responsible for 
the regulation of international air transport. In fact, the ICAO 
biometric identifier standards are already being utilized by the United 
States in the Machine Readable Travel Documents (MRTD) systems used to 
read the new electronic passports held by foreign visitors entering our 
country through airports.
    Unfortunately, rather than use the internationally accepted ICAO 
standards as the basis for the TWIC, the TSA made the decision to use 
the U.S.-specific Federal Information Processing Standard (FIPS), which 
was developed for Federal ID cards used by Federal workers and which 
has never been used in the commercial sector. We believe that many of 
the problems that have plagued the TWIC program and delayed its 
implementation can be attributed to TSA's decision to adopt the 
inappropriate FIPS standard as the basis for the TWIC card.
    We wish to point out that Congress has strongly suggested the use 
of an international standard for transportation worker identity cards. 
For example, the MTSA encouraged the U.S. Coast Guard to:
        ``. . .negotiate an international agreement, or an amendment to 
        an international agreement, that provides for a uniform, 
        comprehensive, international system of identification for 
        seafarers that will enable the United States and another 
        country to establish authoritatively the identity of any 
        seafarer aboard a vessel within the jurisdiction, including the 
        territorial waters, of the United States or such other 
        country.''
    In addition, section 303(b) (1) of the Enhanced Border Security and 
Visa Entry Reform Act of 2002 (Border Security Act) very clearly 
establishes Congress's intent that the U.S. system of machine readable, 
tamper-resistant travel documents conform to international standards. 
The section reads, in part:
        ``The Attorney General and the Secretary of State shall jointly 
        establish document authentication standards and biometric 
        identifier standards to be employed on such visas and other 
        travel and entry documents from among those biometric 
        identifiers recognized by domestic and international standards 
        organizations.''
    Given what we believe to be the unambiguous intent of Congress as 
expressed in the MTSA and the Border Security Act that the TWIC and 
U.S. travel documents conform to international standards, it is clear 
that Congress recognized the value of globally interoperable systems 
and directed the relevant Federal agencies to pursue interoperability. 
What is not clear is why TSA and the Coast Guard have ignored this 
aspect of the Congressional mandate and have chosen instead an internal 
federal government standard for the TWIC that will never be 
interoperable with international standards and is untested and unproven 
on the massive scale required for the TWIC program.
    The ICAO standards are a proven and internationally accepted 
technology for identity documents. The readers and other supporting 
hardware have also been proven at airports around the world. We believe 
TWIC should start with this established system and build upon it as 
technology advances and new capabilities emerge. By starting from a 
straightforward and uncomplicated foundation--by adopting the same 
proven technology that is widely used for access control of foreign 
visitors to the United States as well as at international airports and 
in foreign ports--we can dramatically reduce the problems with the 
present TWIC program and increase the ease and speed of implementation 
of the TWIC.

Federal Preemption
    There is another aspect of the current TWIC program that we believe 
must be addressed if the TWIC program is to achieve its maritime 
security objectives without unnecessarily disrupting and impeding the 
flow of commerce. Specifically, we believe that the Federally-issued 
TWIC must take precedence over all other state, local and private 
identification card requirements for maritime workers. It is, in our 
opinion, critical that state and local and private entities no longer 
be able to subject our nation's U.S. citizen maritime workforce to 
additional application requirements, background checks and fees or to 
demand that our nation's workforce obtain multiple and duplicative 
maritime port and vessel access control credentials.
    We believe it is possible under a properly structured and 
implemented TWIC program to enhance security within America's ports and 
aboard vessels in such a way that there is a minimal disruption to the 
movement of goods in domestic and foreign commerce and the rights of 
transportation workers are protected. Unfortunately, unless the 
Congress acts to ensure that the Federally-mandated TWIC program 
preempts all other state and local and private entity access control 
procedures and requirements, our maritime workforce and transportation 
system and our national economy will be adversely affected without any 
corresponding increase in national security benefits. Equally 
important, unless Congress acts our nation's security may be weakened 
as Americans are discouraged by excessive regulatory burdens from 
entering and remaining in the maritime industry, reducing the civilian 
maritime manpower base relied upon by the Department of Defense.
    Maritime workers are a mobile workforce, moving between different 
states, ports and facilities. The imposition of multiple additional 
requirements beyond those mandated by the Federal TWIC program will 
force maritime transportation workers to file numerous applications, 
undergo repetitive, time-consuming background checks and pay all the 
fees associated with possibly dozens of identification credentials. If 
Congress does not act, and the TWIC regulations continue to allow each 
state and local government and port and maritime facility to develop 
and implement its own access control system above and beyond what the 
Federal government has deemed necessary to protect the national 
interest, then the access control identification credential system as a 
whole will become an unjustifiably burdensome and costly administrative 
impediment to the efficient flow of commerce.
    America's maritime workforce must have an access control 
identification credential that they can present at every state, port or 
facility their employment takes them. If they do not, and if our 
government allows numerous additional requirements to be imposed, 
America's maritime workforce will be unduly and unfairly burdened, 
America's efficient and reliable waterborne transportation systems will 
be undermined, and America's commercial seapower capability will be 
weakened. In addition, in the absence of a national TWIC program that 
supersedes all others, mariners who do not also possess an identity 
card issued by a particular state, port or facility may find themselves 
forbidden to take shore leave or prohibited from transiting between 
vessels without first paying ``escort'' fees. The result will be 
American citizen mariners imprisoned aboard their vessels in American 
ports.
    Consequently, Mr. Chairman, maritime labor is united in our 
position that Congress must act to ensure that the Federal laws and 
regulations governing the TWIC program preempt all other state and 
local access control requirements for maritime transportation workers. 
We do not believe that this request is inconsistent with the goals and 
objectives of the TWIC program or with our nation's efforts to prevent 
a maritime-related terrorist incident. Rather, we believe that the war 
against terror is and should be treated as a national effort, and the 
national standards and system put in place through the TWIC program to 
combat terrorism should take precedence over all others and not be 
secondary to the systems of each individual facility, port, city or 
state. America's maritime workforce must have an access control card 
that they can present at whatever state, port or facility their 
employment may take them. If they do not, and our government allows 
numerous additional local requirements to be imposed upon them, we will 
be unfairly and unjustifiably burdening this American workforce while 
undermining our country's efficient and reliable interstate and foreign 
commerce maritime transportation system.

Disqualifying Crimes
    Concerning the crimes that would disqualify an American worker from 
obtaining a TWIC, we feel that Congress had it right in the Maritime 
Transportation Security Act of 2002 (MTSA). MTSA sets the standard for 
denying a person a TWIC based upon that person's potential as a 
terrorism risk. Yet, TSA has chosen through regulation to disqualify an 
individual who has committed crimes that do not predispose an 
individual to be a terrorism risk. We are troubled by the prospect that 
a large number of workers might be disqualified from obtaining a TWIC 
or become entangled in the process for past offenses that are not 
terrorism or national security related. It is essential that there be a 
fair and robust appeals process, monitored closely, to ensure that 
workers who pose no threat are not unjustly denied a TWIC and therefore 
denied the opportunity to pursue their livelihoods. We ask this 
Committee and the Congress to ensure that there are sufficient 
resources available to administer the waiver and appeals process fairly 
and in a timely fashion.
    Our concerns about the background check process are fueled by 
problems encountered by workers who requested a HAZMAT endorsement. In 
her October 4 Senate Commerce Committee testimony, TWIC Program 
Director Maurine Fanguy stated, ``On the HAZMAT program, we have 
processed over 10,000 appeals, and [in] 99 percent of them. . .we've 
discovered that we had incorrect information and we gave the person 
their endorsement.'' While we commend TSA's HAZMAT appeal process, 
which obviously looked at workers' appeals without prejudice, we would 
note that over 10,000 people were initially denied an endorsement 
because of errors or omissions in the initial determination of security 
threat assessment (IDTA). Obviously, this aspect of the TWIC program 
warrants careful oversight.

Competitiveness Issues
    It is also important to note that approximately 95 percent of all 
the cargo entering and leaving the United States is carried aboard 
foreign flag vessels operated by foreign crews. What is even more 
important is that none of these vessels and none of these foreign crews 
are subject to the same requirements as those imposed by our government 
on U.S.-flag vessels and their American crews. Foreign crews are not 
covered by the TWIC program. Foreign crews operating vessels in and out 
of American ports are not subject to U.S. government imposed background 
checks. Consequently, the overwhelming majority of maritime personnel 
responsible for the carriage of hazardous and other cargoes in and out 
of our country will not have to obtain a TWIC or obtain an access 
control credential issued by American states, ports and facilities--
only American mariners will be subjected to these numerous and onerous 
requirements.

Combining the Merchant Mariner Credential and TWIC
    All mariners employed aboard U.S.-flag merchant vessels greater 
than 100 gross register tons (except for those operating exclusively on 
the rivers) are required to have a U.S. government issued Merchant 
Mariner's Document (MMD). An MMD is a card that serves as both an 
identity credential and as a qualification credential. They are issued 
to shipboard officers and to unlicensed personnel who work in support 
of the operation of the vessel. In conjunction with this requirement, 
and long before the events of 9/11 and the enactment of legislation 
authorizing the establishment of the TWIC program, individuals seeking 
employment as a licensed or unlicensed merchant mariner were subject to 
extensive background checks. In addition, the Maritime Transportation 
Security Act of 2002 (MTSA) requires transportation workers, including 
individuals who hold a merchant mariners document, to undergo a 
criminal background check.
    Currently, when an individual submits an application to the Coast 
Guard for evaluation for an MMD, he must include a copy of proof of 
citizenship and establish proof that he has a Social Security Number. 
The individual must further undergo a drug test, and is also 
fingerprinted so that the Federal Bureau of Investigation can perform 
the necessary criminal background checks. Finally, the individual must 
agree to a check of the National Driver Register so the Coast Guard can 
determine if there are any offenses relating to the operation of a 
motor vehicle which may render the individual unsuited for the duties 
and responsibilities associated with shipboard employment.
    We believe that the merchant mariner document (MMD) that is 
currently issued to seafaring personnel should be updated in order to 
comply with the requirements of the MTSA in order to allow the MMD to 
serve as a TWIC for all merchant mariners, licensed and unlicensed. We 
believe that the MMD can and should be upgraded to include the 
biometric identifier standards of the TWIC and that a combined MMD/TWIC 
should be issued after the requirements of both statutes are met. Doing 
so, and giving the Coast Guard exclusive jurisdiction to provide the 
requisite background checks, will eliminate the need for two or more 
Federal agencies to perform separate background checks; will eliminate 
redundancies in the vetting process; will streamline the credentialing 
process for mariners; and will eliminate the need for mariners to carry 
more than one Federal identification credential for maritime 
employment.
    We understand the Coast Guard is concerned that combining the MMD/
TWIC and a license on one card would exceed the space available for 
printing on the TWIC card and that the amount of information may exceed 
the storage capacity of the chip under current technology. We agree and 
believe very strongly that this problem can be overcome by continuing 
to issue a merchant mariner's license as a separate document in its 
current format. It is easy to print all the information pertaining to a 
licensed officer's qualifications on a license in its current form 
which would be available for inspection by port control officers.
    Under this system, an unlicensed mariner would be required to hold 
only one document: a combined MMD/TWIC that would serve as a 
certificate of qualification, an identity document and as a biometric 
transportation security card. Licensed officers would hold the same 
combined MMD/TWIC and also be issued a separate license which would 
serve as the individual's certificate of qualification with all 
endorsements clearly indicated.

Conclusion
    We thank you again, Mr. Chairman, for the opportunity to present 
our comments on the TWIC program. We stand ready to work with you and 
your colleagues and with other concerned and affected parties to 
achieve a safer and more secure maritime transportation network.

                  Prepared Statement of Bethann Rooney

    Chairman Thompson, Congressman King, members of the Committee, 
thank you for the opportunity to testify on the importance of maritime 
and port security and the challenges that industry is facing in 
implementing the TWIC (Transportation Workers Identification 
Credential) program. My name is Bethann Rooney and I am the Manager of 
Port Security for The Port Authority of New York & New Jersey.
    Since the attacks of September 11th our collective attention has 
been focused on the need to protect our borders at major international 
gateways like the Port of New York and New Jersey and small ports 
alike. The Maritime Transportation Security Act (MTSA) of 2002 and the 
Security and Accountability for Every Port (SAFE Port) Act are two 
pieces of landmark legislation that have had a positive impact on our 
homeland security. We commend the House of Representatives and this 
Committee in particular, for its work on ensuring the security of our 
ports and the people that work in them.
    Section 102 of the MTSA requires background checks and the issuance 
of biometric transportation security cards (TWIC) to all personnel who 
require unescorted access to secure areas of regulated vessels and port 
facilities. The SAFE Port Act subsequently required a TWIC technology 
pilot program and other program milestones. Fundamental to our nation's 
security is the ability to ensure that individuals who pose a security 
threat do not gain access to our nation's ports. TWIC helps provide 
that insurance. Therefore, we fully support TWIC, the need for positive 
access control at port facilities and the creation of a national 
identification program.
    We also recognize that the TWIC program is one of the world's most 
ambitious interoperable biometric credentialing programs and that 
rolling it out in the most complex transportation industry is a 
monumental undertaking. Therefore, we also commend both the 
Transportation Security Administration (TSA) and the United States 
Coast Guard (USCG) for their commitment and dedication to this program 
and particularly for their willingness to engage industry stakeholders.
    Nonetheless, I would like to briefly discuss four broad elements of 
the TWIC program and a number of outstanding issues and concerns that 
may unduly impact the objectives of the TWIC program, maritime 
operations and port security if not implemented in a decisive and 
thoughtful manner. These include: (1) enrollment; (2) card reader 
technology; (3) the pilot program; and (4) enforcement.

OUR NATION'S PORT ARE VITAL TO THE ECONOMY
    Ninety-five percent of the international goods that come into the 
country come in through our nation's 361 ports; approximately 13% of 
that volume is handled in the Port of New York and New Jersey alone, 
the third largest port in the country. The Port generates over 230,000 
jobs and $12.6 billion in wages throughout the region. Additionally, 
the Port contributes $2.1 billion in state and local tax revenues and 
more than $3.8 billion in federal tax revenues. Cargo that is handled 
in the Port is valued at over $150 billion and serves 80 million 
people, or thirty five percent of the entire US population. In 2005, 
the port handled over 5,500 ship calls, 86 million tons of general 
cargo, 852,297 autos, and 2.9 million containers, approximately 8,200 
containers each day. Today, international trade accounts for 
approximately thirty percent of the US economy. Considering all this, 
it is easy to understand how a terrorist incident in one of our ports 
would have a devastating effect on our nation and its economy.

TWIC ENROLLMENT
Enrollment Schedule
    The Port of New York and New Jersey lies within what is considered 
the two most dangerous miles in the country and, as such, the 
implementation of the TWIC in this region is of up-most importance. 
Therefore we were very disappointed when the Port of New York and New 
Jersey was not selected as one of the first ports in which enrollment 
would begin. In fact just a portion of the highest risk Tier I ports in 
the country are included in the initial enrollment period, while five 
Tier II and Tier III ports are already scheduled to begin enrollment. 
It is even more baffling that none of the pilot project locations, all 
of which require a critical mass of transportation workers to be 
enrolled before the pilot projects can begin are scheduled for 
enrollment yet. Not including our facilities as part of the first roll 
out of the TWIC enrollment does not make sense from a risk based 
security or program management standpoint.

Need for Accurate Enrollment Estimates
    The initial enrollment phase of the TWIC program is referred to as 
Phase I. TSA estimates that 750,000 workers will need to obtain a TWIC 
card in Phase I. Unfortunately, the industry feels that number will be 
significantly higher and it is concerned about the TWIC contractor's 
ability to provide the requisite level of enrollment service without 
increasing the cost of the TWIC card to the end user or creating 
unnecessary delays in enrollment of processing. In the Port of New York 
and New Jersey alone, the TSA estimated that there would be 60,256 
individuals who would need a TWIC. With just a seventy percent return 
on a survey of all stakeholders in our port, our population counts are 
closer to 125,000 people, more than double the TSA's estimates. The 
disparity in estimates is even more acute in the Port of Houston where 
the TSA's estimates were off by a factor of twelve (35,000 vs. 
435,000)! In Savannah, the TSA's estimates were for 15,000 people and 
port officials there believe that it is closer to 30,000. Admittedly, 
Lockheed Martin has been responsive to estimates by the individual 
ports and has committed to providing the resources that are necessary 
to appropriately support TWIC enrollment. However, it is unclear 
whether the necessary level of service is sustainable within the 
framework of a fixed-price contract.

Enrollment Locations
    An equally significant problem has to do with the ability to locate 
suitable facilities for fixed enrollment sites in close proximity to 
the port infrastructure. There are several requirements for these 
facilities that have proven to be problematic including ensuring 
sufficient truck parking, an inability or unwillingness to enter into a 
contract for more than a year and provisions to satisfy the Americans 
with Disabilities Act (ADA) requirements which are very difficult to 
find in the aged port infrastructure around the United States. For 
example, in the Port of New York and New Jersey, Lockheed Martin has 
yet to find a suitable location that meets the above requirements on 
the New Jersey side of the Port, where the vast majority of all port 
activity occurs. While this is being accommodated for the initial 
enrollment period with mobile enrollment capabilities that will be 
available to employers with more than fifty employees requiring a TWIC, 
it does not provide a viable long-term solution Convenient permanent 
sites for TWIC enrollment and renewals must be identified and 
established. The sites should be strategically located in each port 
region. The Department of Homeland Security must take whatever steps 
necessary, to the ensure that the 146 TWIC enrollment sites around the 
country continue to be the minimum that are supported after the initial 
enrollment period is deemed to be completed. If suitable facilities 
can't be identified, then consideration must be given to make TWIC 
enrollment available at State Department of Motor Vehicles offices, 
truck rest stops or US Post Offices.

Liability
    While Lockheed will be accommodating initial TWIC enrollment with 
mobile capabilities, under current plans, the port worker would still 
need to go to a fixed location in order to pick up and activate his/her 
TWIC card. While the process of obtaining the TWIC and activating it 
may only take a few minutes, the reality is that the worker could be 
unproductive for two to three hours or more as he or she travels to and 
from the fixed enrollment site. This potential need for extensive 
travel to complete the TWIC enrollment process has created liability 
concerns on the port of employers who may face potential tort liability 
if an employee gets injured in the process of obtaining a TWIC. The 
government should indemnify employers for any damages that the may 
incur arising out of an employee's TWIC enrollment process.

Truck Driver Screening & Enrollment
    The most difficult population of port workers to enroll in TWIC is 
going to be the truck drivers. In the Port of New York and New Jersey 
we have an existing truck driver identification system, called SEA 
LINK_ in which over 25,000 individuals are actively registered to pick 
up and deliver cargo at our seven container terminals. Due to the 
general nature of this business, we issue over 400 new SEA LINK_ cards 
a month to drivers that have never hauled cargo to or from our maritime 
facilities. There are an equally large number of individuals that work 
in multiple ports around the country. Therefore, enrollment and 
enforcement on a port-to-port basis will have severe impacts on port 
productivity.
    Additionally, if a trucker enrolls for a TWIC during his first 
visit to the Port of New York and New Jersey, the current process 
requires that he return to the same enrollment site to retrieve and 
activate his TWIC after the security threat assessment has been 
completed. It could be weeks or months before the driver is able to 
return to New York and New Jersey and in the meantime he is unable to 
access other ports without an escort, which doesn't need to be 
provided.
    We have made a number of suggestions to address this issue 
including: allowing TWIC applicants to designate that cards be returned 
to a different enrollment center than that where they originally 
applied; or a mechanism wherein the TWIC is mailed to an applicant's 
office or home. Once the applicant has the TWIC card, the individual 
could return to an enrollment center of his choice anywhere in the 
country to activate the TWIC.
    Under the SAFE Port Act, DHS was required to implement a threat 
assessment screening for all port truck drivers with access to secure 
areas of a port and who possess a commercial driver's license but not a 
hazardous materials endorsement. This program would be very similar to 
the interim-screening program in which all facility owners and 
operators were required to participate in early 2006. Although this 
program hasn't been rolled out yet, we feel strongly that DHS comply 
with this requirement so that industry has a better understanding of 
what the impact of TWIC might be on the truck driver community. Current 
estimates indicate that anywhere from 10-40% of truck drivers may not 
be eligible for a TWIC, which could seriously impact port productivity 
and ultimately security.

CARD READER TECHNOLOGY
    Earlier this year, the TSA and USCG decided to break the 
implementation of the TWIC program into two phases; the enrollment 
phase, Phase I, which I have discussed and which is beginning in the 
Port of Wilmington this week and Phase II which requires the 
installation and use of biometric card reader technology at both the 
truck and pedestrian gates of regulated facilities and at ingress to 
regulated vessels. Throughout the course of the past ten months, we and 
several of our industry partners, through participation in the National 
Maritime Security Advisory Committee (NMSAC) TWIC Working Group, have 
been working with the federal government and biometric technology 
industry to develop the functional requirements for these biometric 
card readers. This has culminated with the publication of the TWIC 
Biometric Reader Specification last month. While this is a ``working 
draft'' that may be updated once the pilot projects have been 
completed, it begins to answer a number of the questions that facility 
and vessel owners and operators have.
    However, as with the implementation of any technology, it is 
important to understand how the technology will be deployed and what 
the government's concept of operations is before the technology 
solution is identified. Regrettably, the Coast Guard still hasn't 
answered a number of critical policy questions, the answers to which 
could have a significant impact on port operations, our cost to 
implement the TWIC program and the card reader manufacturers' 
willingness to participate in the program.
    The two most significant questions that haven't been answered yet 
are ``how often will the biometric need to be verified?'' and ``is 
positive access control required?'' These policy decisions must be made 
before the pilot projects begin so that they can be adequately tested 
and evaluated during the pilot projects.

Biometric Verification
    In June 2007, the Coast Guard asked the NMSAC TWIC Working Group to 
assist with the development of the draft Notice of Proposed Rulemaking 
for the TWIC Biometric Reader Requirements. To assist with this effort, 
they provided a set of specific questions that they wanted answered. 
After reviewing the totality of those questions, it has been suggested 
that the Coast Guard may not require that the biometric data stored 
within the TWIC be verified for every access control transaction 
regardless of the MARSEC level. While this may be the minority opinion, 
the Port Authority views the failure to verify the biometric 100% of 
the time as a point which would defeat the purpose of a biometric-based 
credential and would do little to ensure that we can positively 
identify an individual seeking to gain access to a secure area of our 
port facilities and vessels.
    100% biometric verification is the only way to ensure identity of 
the individual. If the ultimate decision is to require biometric 
verification at elevated MARSEC levels only, then the rate of 
verification should be consistent with the additional screening and 
inspection rates that are already required, a random 25%-50% at MARSEC 
II. That way, facility operators would not be required to purchase and 
maintain biometric readers at access points that are rarely used. 
Rather, during heightened security levels, security guards could verify 
biometrics using handheld readers at those access control points. This 
would reduce the need for significant capital expenses for component 
equipment that would rarely, if ever be used. In the Port of New York 
and New Jersey for example, we have been at an elevated MARSEC level 
for just twelve hours in the six years since 9/11. It would make little 
sense to invest in approximately $10 million in infrastructure that 
might not ever get used, as opposed to $50,000 in handheld card 
readers.

Positive Access Control
    An equally important policy decision that must be made is whether 
or not ``positive access control'' is required. Positive access control 
means that you know who is on your facility or vessel at all times. 
This would require the owner/operator to have two readers at each 
access control point, one each on both the secure and non-secure side.
    Operationally this is also very difficult to achieve in several 
port activities in which personnel regularly move between a secure and 
non-secure area numerous times during a typical work period. An example 
of this can be seen at a cruise terminal. The porter may come in and 
out of the baggage claim area (secure) to help passengers move luggage 
to a waiting vehicle (non-secure). The same is true for Roll On/Roll 
Off operations, where longshoremen exit the secure area with a vehicle 
that they have driven off of the ship and return to the secure area in 
a passenger van with a dozen of their colleagues. Requiring these 
workers to scan in and out of the secure area, thus establishing 
positive access control would be a significant barrier in terms of 
efficiency with little buy down in risk. In fact in the aviation 
environment, which is arguably higher risk than the maritime industry, 
positive access control is not currently a regulatory requirement.

``Hotlist'' Verification
    Regulated entities must be provided with an electronic access 
(direct download, searchable database or telephonic system) to the 
national database in order to readily verify the validity of a TWIC 
that is presented at our facilities. The ``hotlist'' also needs to be 
able to indicate whether the TWIC has been revoked, lost or stolen so 
that the owner/operator can make a decision whether or not to allow a 
person access. Additionally, when an individual reports his/her card as 
being lost or stolen, they must be issued a receipt that can be 
presented at the access control point in order to continue to gain 
unescorted access.
    In addition to the ``hotlist'' provisions, we also need a provision 
that prohibits an individual that has been determined to pose a 
security threat from gaining access to a restricted area, even with an 
escort. To do otherwise would undermine the purpose and intent of the 
TWIC program. Provisions must be made to prohibit any and all 
individuals that pose a security threat from gaining access to a 
restricted area regardless of whether or not there is an escort. This 
means that the names and biographical information of anybody that has 
applied for a TWIC and been denied, must be available to all owners/
operators on a real time basis so that we don't permit access to these 
individuals with an escort.

ENFORCEMENT
TWIC Applicability
    Current regulations fail to appropriately and clearly enumerate the 
specific types of individuals that are required to obtain a TWIC. Thus, 
significant populations of individuals needing TWICs will not have 
appropriate notice of their need to obtain one. The Coast Guard 
attempted to address this in their Navigation and Vessel Inspection 
Circular (NVIC 03-07) wherein they provided an illustrative list of ten 
communities of people that would likely need a TWIC. The problem is 
that the NVIC is a Coast Guard guidance document only and it is not 
enforceable by law. Similarly, it is likely that some individuals, 
perhaps those who aren't able to get a TWIC because of a disqualifying 
event in their background, may expect to be provided an escort. This 
will place the owners and operators in a difficult position and could 
lead to disputes. Congress should amend the SAFE Port Act to clearly 
enumerate the class of workers that must obtain and use a TWIC.

Non-MTSA Facilities
    The Port Authority operates numerous transportation facilities in 
the New York and New Jersey region including all of the tunnels and 
bridges that connect the two states, an interstate passenger rail 
system and five airports. The Port Authority Police Department has 
1,600 sworn officers who have jurisdiction in both states and provide 
24/7 law enforcement for some of the nation's most critical and iconic 
transportation systems. The actions that a law enforcement officer can 
take at an MTSA facility if a fraudulent, tampered with or revoked TWIC 
is presented are clear. What is not clear, however, is what if any 
action a police office can take if a fraudulent or revoked TWIC is 
presented at a non-MTSA regulated facility. For example, if a Port 
Authority Police Officer stops an intermodal container truck at one of 
our bridges, can the office ask if the driver has a TWIC and if so 
verify the identity and validity? Similarly, if someone is questioned 
at one of the airports and voluntarily presents a TWIC as a form of ID, 
can the officer verify the identity and validity of the TWIC? In both 
cases, if a discrepancy is found (on the ``hotlist'', no biometric 
match, obvious tampering with the TWIC) what action if any can the 
officer take? The federal government needs to provide state and local 
law enforcement officials with additional information and clear 
guidance on what action they are permitted to take at both MTSA and 
non-MTSA facilities.

Escort Requirements
    In addition to an owner/operator's liability if an employee is 
involved in an accident while going to and from the TWIC enrollment 
site, there are additional concerns about an escort's liability and 
responsibility that must be addressed before the enforcement period 
begins. If an individual under escort causes a Transportation Security 
Incident or violates other regulations and laws, what are the 
consequences for the escort? The answer could impact the willingness of 
certain individuals to act as an escort.

Emergency Access
    The Coast Guards Navigation and Vessel Inspection Circular 
adequately addresses the TWIC requirements for uniformed law 
enforcement and emergency response personnel. However, the entire TWIC 
program missed an opportunity to provide a visual identifier on the 
TWIC card for essential non-uniformed port personnel that might require 
access on local roadways and to the port for critical response and 
recovery operations. For example, in the Port of New York and New 
Jersey, we have established a Recovery Advisory Unit (RAU) that is made 
up of senior level industry stakeholders that would advise the Captain 
of the Port on critical issues in the aftermath of a transportation 
security incident. Nonetheless, if these individuals weren't able to 
travel on a portion of the New Jersey Turnpike because it is shut down 
for anything other than emergency vehicles, as it was for several weeks 
after 9/11, these individuals would be unable to fulfill their 
essential recovery duties. The TSA should revisit the physical design 
of the TWIC card to include an indicator that would designate certain 
individuals as essential personnel that would require access.

PILOT PROJECT
    The SAFE Port Act requires DHS to establish a pilot program to test 
TWIC card readers at five geographic locations in order to evaluate 
business processes, technology and operational impacts. As we 
understand it, the pilot project will be conducted in three to four 
phases and include both laboratory bench tests and field-based tests.

Veil of Secrecy
    The Port Authority as well as other port authorities and vessel 
operators have agreed to participate in these pilot programs. 
Unfortunately, there has been what I call a ``veil of secrecy'' over 
the details of the pilot program that make it very difficult for the 
Port Authority to make risk based decisions on which of our facilities 
will be used for the pilot and the finances, personnel and 
infrastructure that we need to support the pilot project. Our offer to 
have staff involved in discussions with TSA and USCG to sign a Non-
Disclosure Agreement (NDA) have been turned down, citing an inability 
to discuss details with even the pilot project participants while the 
rulemaking process is underway. It is critical that the Testing and 
Evaluation Master Plan and pilot project schedule be shared with the 
pilot project participants as early as possible so that we have 
sufficient time to plan.

Cost Share
    While the SAFE Port Act mandated these pilot projects, the 
Department has not funded them. We and other port authorities and 
vessel operators are committed to assisting the Department in achieving 
its goals relative to the implementation and deployment of TWIC in the 
maritime industry. Accordingly, we have agreed to work with TSA to use 
our facilities and vessels, as well as use a portion of our federal 
grant monies (FY 2006 and FY 2007), to test the equipment that will be 
used to read the TWIC cards. The federal grant monies, however, require 
a 25% cash match.
    In order to devise a meaningful pilot project, considerable initial 
disruption will occur at each participating facility and vessel and 
both capital and operating funds will be expended that will not be 
recoverable at the end of the pilot, whether or not it is successful. 
We would suggest that the cost to the participants to plan, manage and 
implement this program already represents a significant contribution, 
even without an obligation for a cash match. Therefore, mandating a 25% 
cash match for purchase of infrastructure and equipment required for 
participation in the pilot project will place an undue burden on us, 
and will only serve to reduce the amount of resources we will have at 
our disposal to ensure that a complete implementation of TWIC is a 
success. We have therefore requested that Secretary Chertoff recognize 
the in-kind contribution that our organizations will be making and 
waive the cash match requirement pursuant to his authority under 46 USC 
70107, section (c), (2), (b). We would appreciate the Committee's 
support of this request as well. All previous TWIC pilot projects were 
fully funded by the TSA, and the pilot project required under the SAFE 
Port Act should receive the same level of support.

Biometric Technology Performance Requirements
    Finally, it is absolutely essential that the card reader and 
biometric authentication capabilities be tested and proven to meet or 
exceed the TWIC Reader Hardware and Card Application Specifications 
during the TWIC pilot projects before deployment can begin in the 
maritime environment. In the Port Authority of New York and New Jersey 
we just completed a one-year Limited Early Deployment (LED) of 
fingerprint biometric technology. In the outdoor environment we 
experienced a false rejection rate of 9.5% as opposed to 1% that is 
called for in the TWIC Specifications. We also experienced an average 
transaction time of 6 seconds, which is twice as long as the maximum 
transaction time that is required in the maritime industry. 
Additionally, despite manufacturers published environmental 
requirements, biometric reader performance suffered greatly in both the 
rain and severe cold and 71% of the readers needed to be replaced 
within a year due to hardware and display failures. Our experience with 
this project clearly indicates that fingerprint biometric technology 
simply does not perform as well as advertised in an outdoor 
environment. The fingerprint reader manufacturers must improve the 
design to include protection against harsh weather environments and 
further field verification must be conducted.

CONCLUSION
    Addressing the issue of port and maritime security is an enormous 
challenge given the complexity of the international transportation 
network. The implementation of a robust credentialing program at 
maritime facilities remains critical to the security of our nation's 
ports. We are encouraged by the start of TWIC enrollment earlier this 
week and the publishing of the card reader specification but much more 
remains to be done.
    I hope my comments today have provided some helpful insight into 
this complex matter. The Port Authority of New York & New Jersey is 
prepared to offer any additional assistance that you may require. Thank 
you.


             Appendix:  Additional Questions and Responses

                              ----------                              


Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

                   Responses from Cathleen A. Berrick

    Questions 1.: GAO has completed several reports on TWIC, please 
provide us with information on some of the challenges faced by the 
Administration in implementing this program.
    Response: We have reported that TSA and maritime industry 
stakeholders will face several challenges in their efforts to 
successfully implement the TWIC program. First, TSA and the enrollment 
contractor will need to transition from limited testing of the TWIC 
program to successful implementation of the program on a much larger 
scale covering an estimated 770,000 workers at about 3,200 maritime 
facilities and 5,300 vessels. We previously reported that TSA enrolled 
and issued TWIC cards to only about 1,700 workers at 19 maritime 
facilities during program testing. TSA and industry stakeholders must 
also ensure that TWIC access control technologies, such as biometric 
TWIC card readers, will work effectively in the maritime environment, 
be compatible with TWIC cards that are currently being issued, ensure 
that facilities and vessels can effectively and economically obtain 
information on workers who may pose a threat to security, and balance 
security requirements with facilitating maritime commerce. We 
previously reported that TSA conducted limited testing of biometric 
TWIC card readers and obtained limited information on their 
effectiveness, particularly when these readers are used in the harsh 
maritime environment. In addition, TSA did not test the use of 
biometric card readers on vessels. TSA is currently planning a pilot 
program to test TWIC access control technologies, such as biometric 
card readers, at 5 maritime locations to address requirements of the 
SAFE Port Act. It will be critical that TSA ensure that this pilot 
program tests all aspects of the TWIC program in the maritime 
environment and that the results be used to help ensure a successful 
implementation of these technologies in the future. It will also be 
important that the pilot measure the impact that the TWIC program may 
have on the flow of maritime commerce and use this information in 
developing future program requirements.

    Question 2.: Has TSA fully addressed the recommendations in your 
September 2006 report on the TWIC program?
    Response: TSA recognized many of the problems we highlighted in our 
September 2006 report and reported that they have initiated actions to 
address our recommendations. For example, we previously reported that 
TSA enrolled and issued TWIC cards to only about 1,700 workers at 19 
facilities during testing--well short of its goal of 75,000--due to 
technical problems in enrolling workers. We recommended that TSA 
conduct additional testing to ensure that the TWIC program will be able 
to efficiently enroll and issue TWIC cards to large numbers of workers. 
TSA has since reported that it and its contractor conducted performance 
testing of the systems and software that will be used to enroll workers 
in the TWIC program and issue TWIC cards to these workers. According to 
TSA officials, such testing helped to ensure that these systems will 
work effectively when implemented and will be able to handle the 
capacity of enrolling as many as 5,000 workers per day, conducting 
background checks on these workers in a timely manner, and efficiently 
producing TWIC cards for each worker. We have not independently 
verified or assessed TSA and its contractor's testing efforts.
    TSA has also taken actions to address our recommendation regarding 
contract oversight and stakeholder communication and coordination. 
Specifically, TSA added additional staff with program and contract 
management expertise to help oversee the TWIC enrollment contract, and 
developed additional controls to help ensure that contract requirements 
are met, such as a TWIC quality assurance surveillance plan, which 
includes contractor performance metrics. In addition, TSA has taken 
actions to address our recommendation that it more closely coordinate 
with the maritime industry and establish communication and coordination 
plans. Specifically, TSA has established a TWIC stakeholder 
communication committee and has also required the TWIC contractor to 
develop a plan for communicating and coordinating with maritime 
stakeholders and educating workers regarding TWIC requirements. In 
addition, some maritime industry stakeholders with whom we spoke 
identified that communication and coordination with TSA regarding the 
program has improved. While these actions are steps in the right 
direction, TSA and the TWIC contractor must transition from limited 
testing to successful implementation of the program on a much larger 
scale, covering 770,000 workers at about 3,200 maritime facilities and 
5,300 vessels.

    Question 3.: How confident are you that, six years after the TWIC 
program was initiated and repeated delays, the program is now on its 
way toward successful implementation?
    Response: We are cautiously optimistic. Over the last year, we have 
seen a gradual shifting in TSA's approach regarding the management of 
this program in an effort to correct past problems. For example, 
although TSA missed the July 1, 2007 SAFE Port Act deadline to begin 
implementing the program at the 10 highest risk ports because of the 
need to conduct additional testing, it is important that the TSA test 
the TWIC technologies to ensure that they work effectively before they 
are implemented across the maritime sector.
    Although we have not yet evaluated TSA and its contractors' testing 
of the enrollment and card issuance systems, such testing may help to 
ensure a smoother implementation and could help to avoid problems that 
occurred in the past. TSA has also taken action to implement our 
recommendations regarding contract oversight and stakeholders 
coordination. Nevertheless, enrolling workers and issuing TWIC cards is 
only the first component of the TWIC program. TSA, Coast Guard, and the 
maritime industry face another major challenge in ensuring that TWIC 
access control technologies that will be installed throughout the 
maritime sector, such as biometric card readers, will work effectively 
in the marine environment and will be compatible with TWIC cards that 
are currently being issued. TSA must also ensure that facilities and 
vessels can effectively and economically obtain information on workers 
that may pose a threat, and balance security requirements while 
facilitating maritime commerce. As a result, it is critical that TSA's 
TWIC access control pilot program, which TSA has begun planning, test 
all key aspects of TWIC access controls to ensure that they work 
effectively before the program is implemented.

    Question 4.: What assurances are there that TSA will more 
effectively monitor the performance of the TWIC implementation 
contractor than was done during TWIC prototype testing?
    Response: Although we have not independently assessed the 
effectiveness of TSA's efforts to strengthen contractor oversight since 
prototype testing, TSA has taken actions that should help to address 
the contract oversight problems that we previously identified. For 
example, TSA added staff to the TWIC program office with expertise in 
technology, acquisitions, and contract and program management, and 
plans to conduct monthly performance reviews and periodic site visits 
to TWIC enrollment centers to verify performance data reported by the 
contractor. In addition, TSA developed a TWIC quality assurance 
surveillance plan that allows TSA to track contractor performance in 
comparison to acceptable quality levels. Further, TSA plans to provide 
financial incentives to the TWIC contractor for exceeding acceptable 
quality levels and disincentives for not meeting these levels, and is 
requiring the contractor to survey customer satisfaction as part of 
contract performance. While the steps that TSA has taken should help to 
address the contract planning and oversight problems that we have 
previously identified, since we have not independently evaluated these 
actions, we cannot comment regarding assurances that these steps will 
result in more effective monitoring of the TWIC contractor as the 
program moves forward.

    Question 5.: GAO previously reported that TSA did not effectively 
communicate and coordinate with stakeholders during TWIC program 
testing. What steps, if any, has TSA taken to fix these problems?
    Response: During our prior work, stakeholders we spoke with at all 
15 maritime locations that tested the TWIC program told us that TSA did 
not effectively communicate and coordinate with them during prototype 
testing of the program. TSA acknowledged that the agency could have 
better communicated with stakeholders and has since reported taking 
actions to strengthen communication and coordination. For example, TSA 
officials reported that the agency developed a TWIC communication 
strategy and plan that describes how the agency will communicate with 
maritime industry stakeholders, and required the TWIC contractor to 
establish a plan for communicating with stakeholders. In addition, TSA, 
Coast Guard, and contractor officials are taking other steps to 
strengthen communication and coordination with stakeholders, including 
participating in maritime stakeholder conferences and briefings and 
creating a TWIC stakeholder communication committee comprised of 
members from 15 maritime industry groups that will meet twice per 
month. While we have not assessed TSA's efforts to coordinate with the 
maritime industry since our review of TWIC prototype testing, 
stakeholders from three port facilities with whom we recently spoke 
told us that TSA and contractor officials have placed a greater 
emphasis on communicating and coordinating with stakeholders. It will 
be important that TSA and contractor officials continue to make 
communication and coordination a priority to ensure that all 
individuals and organizations affected by the TWIC program are aware of 
program requirements and their responsibilities.

    Question 6.: GAO reported in September 2006 and again in April 2007 
that TSA and maritime industry stakeholders faced significant 
challenges in ensuring that TWIC access control technologies work 
effectively in the maritime sector. What steps is TSA taking to address 
these challenges?
    Response: TSA is currently planning a pilot program to test TWIC 
access control technologies, such as biometric card readers, at 5 
maritime locations to address our prior recommendation and requirements 
in the SAFE Port Act. It will be critical that TSA ensure that this 
pilot program tests all key aspects of the TWIC program in the maritime 
environment, including how facilities and vessels will obtain 
information on workers that may pose a threat to security, and ensure 
that the results of the pilot are used to help ensure the successful 
implementation of these technologies in the future. It will also be 
important that the pilot measure the impact that the TWIC program may 
have on the flow of maritime commerce and consider this information in 
developing future program requirements.

    Question 7.: Since September 2006, has GAO identified additional 
challenges to implementing the TWIC program?
    Response: Although we have not conducted a follow-on review of 
challenges currently facing the TWIC program, during recent discussions 
with stakeholders from 3 port facilities, stakeholders raised some 
additional challenges they foresaw in implementing the TWIC program. 
For example, these stakeholders told us that TSA and contractor 
officials must ensure that they appropriately identify the entire 
population of workers that are required to obtain a TWIC card, educate 
these workers about how to enroll and receive a TWIC card, and ensure 
that the workers enroll and receive a TWIC card by the deadlines to be 
established by TSA and the Coast Guard. In addition, as we have 
previously reported, these stakeholders remain concerned that some of 
their workers may be disqualified from receiving a TWIC card by the 
background check, and that TSA and Coast Guard may not be able to 
ensure that appeals and waivers for the potentially large population of 
workers that do not pass the check are processed in a timely manner. 
TSA officials told us that they believe that their efforts to educate 
and inform workers of their responsibilities related to obtaining a 
TWIC card will be successful in reaching the worker population, and 
that they have the capacity to handle all enrollments, appeals, and 
waivers. While the effect of these challenges remains to be seen, it 
will be important for TSA and its contractor to ensure that they have 
developed strategies for addressing these issues as the program moves 
forward.

 Question from the Honorable Paul Broun, a Representative in Congress 
                       From the State of Georgia

                   Responses from Cathleen A. Berrick

    Question 8: Does GAO have any upcoming reports or studies planned 
on TWIC implementation? Will there be a status report on the enrollment 
process midway?
    Response: GAO has not yet been requested or mandated to conduct a 
follow-on review of the TWIC program.

Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

     Responses from the Honorable Edmond ``Kip'' Hawley, Assistant 
           Secretary, Transportation Security Administration

    Question 1.: According to Ms. Himber's written testimony, the TWIC 
Stakeholder Communication Committee is not doing its job--it is not 
promoting the sharing of information. Why has the communication between 
TSA and the maritime community been so limited?
    Response: The Transportation Worker Identification Credential 
(TWIC) Stakeholder Communications Committee is comprised of 
approximately 35 industry and labor representatives and has held 6 
meetings to date. These meetings are well attended, useful information 
is presented and distributed to the membership and valuable feedback is 
received from the membership. To illustrate the effectiveness of this 
committee, membership requests continue to be received from 
stakeholders interested in participating. We are very pleased with the 
workings of this committee, the two way flow of information it fosters, 
and participation from industry.
    Additionally, as cited in recent Government Accountability Office 
(GAO) testimony (October 31, 2007 to the Committee on Homeland 
Security, House of Representatives), the Transportation Security 
Administration (TSA) has taken steps to address previous GAO 
recommendations regarding improving communications and coordination 
with maritime stakeholders, including posting frequently asked 
questions, participating in numerous conferences and briefings, 
conducting outreach with maritime facility operators and port 
authorities, and disseminating informational bulletins and fliers. The 
testimony states that stakeholders from the Ports of Wilmington, 
Delaware, Los Angeles, California and the Maritime Exchange of the 
Delaware River and Bay Authority, with whom GAO spoke in October 2007, 
stated that TSA and its enrollment contractor have placed a greater 
emphasis on communicating and coordinating with stakeholders and on 
correcting past problems. An official from the Port of Wilmington 
stated that, thus far, communication, coordination, and outreach by TSA 
and its enrollment contractor have been excellent and far better than 
during TWIC testing.

    Question 2.: I have heard repeatedly that many truck drivers and 
other workers are still largely unaware of the TWIC requirement. Why 
are they still unaware of a program that you rolled out two weeks ago?
    Response: The Transportation Security Administration has made a 
concerted effort to educate maritime stakeholders and industry through 
the creation of the Transportation Worker Identification Credential 
Stakeholder Communication Committee which includes representatives from 
the American Trucking Association, Owner-Operator Independent Drivers 
Association, American Federation of Labor and Congress of Industrial 
Organizations, International Brotherhood of Teamsters, facility 
operators, and other interested stakeholders. TSA has also posted 
frequently asked questions, participated in numerous conferences and 
briefings, conducted outreach with maritime facility operators and port 
authorities, and disseminated informational bulletins and fliers, all 
in an effort to increase awareness of the program and participation.

    Question 3.: Why is the TWIC card so expensive? Why does it cost 
more than $100 dollars to attain this card?
    Response: The Transportation Worker Identification Credential 
program is a fully fee funded program that provides an interoperable 
smart card valid for a period of five years that can be used by the 
holder at 3,200 Maritime Transportation Security Act (MTSA)-regulated 
facilities and on board over 10,000 MTSA-regulated vessels. The fee 
provides for pre-enrollment and enrollment capability, a security 
threat assessment and redress process, card production and 
personalization, card activation and issuance, help desk services, and 
program expenses. The cost of the credential compares favorably to 
other credentials such merchant mariner documents. We have made every 
effort to balance the costs of the card with our security objectives 
and programmatic costs.

    Question 4.: We have heard from numerous stakeholders that as many 
as 35-40% of truck drivers nationwide might not qualify for a TWIC card 
because of either their criminal background or immigration status. For 
this reason, we required that the TSA conduct a threat assessment 
screening for all port truck drivers that have a Commercial Drivers 
License within 90 days of the SAFE Port being enacted so that we might 
all understand the potential impact this might have on the maritime 
transportation system. What is the status of that pre screening program 
and when do you expect that it will be competed?
    Response: The Transportation Security Administration (TSA) 
anticipates completion of the threat assessments for port truck drivers 
by summer 2008. Collection of driver information from all state motor 
vehicle licensing agencies is underway at this time. There is 
substantial variation in the technological capabilities of the states, 
leading some to respond to TSA's request earlier than others. Also, as 
the Transportation Worker Identification Credential is deployed across 
the country we will enroll these drivers and they will go through a 
much more thorough check than the name-based check, and it will be done 
perpetually.

    Question 5.: According to Ms. Rooney's written testimony, Lockheed 
Martin has not found a suitable enrollment location on the New Jersey 
side of the Port. How do you expect to roll-out the Port of New York 
and New Jersey if you haven't found a suitable location?
    Response: All locations in New York have been identified. A 
facility in South Hackensack, New Jersey has been identified and other 
locations are being worked as well.

    Question 6.: I am very concerned about the limited number of 
enrollment sites. TSA only plans on rolling out the TWIC at 146 
locations around the country. I have heard repeatedly from constituents 
that this number will not be sufficient. Do to the limited number of 
sites, many port workers will have to drive hours each way to apply for 
a TWIC card. This is unacceptable. What steps are you going to take to 
minimize the impact on our nation's port workers?
    Response: The Transportation Security Administration (TSA) 
originally released a list of 134 enrollment sites that was expanded to 
147 enrollment sites based on stakeholder input. When TSA and the 
United States Coast Guard established its overall deployment plan we 
took into account a number of factors, including security risk, 
population estimates, and geographic distribution of this population, 
logistics, program risk, and operational efficiencies. These are all 
important factors TSA must consider in order to minimize program costs 
and inconvenience to applicants.
    Although we originally only planned for `fixed' enrollment 
capability, as an added feature to the contract, Lockheed Martin 
offered `mobile' enrollment capability. While the detailed process for 
this capability is being finalized, it is designed to be adjustable 
based on enrollment surges and owner/operator demands.

    Question 7.: In addition to the limited number of enrollment sites, 
I am also concerned about the limited number of employees that Lockheed 
Martin hired. Lockheed has hired only 400 employees. Four hundred 
employees for 146 locations averages out to little more than two 
employees per site. Do you find this an acceptable average?
    Response: The projected staff is over 400 and is more than adequate 
for the current phases as well as future phases of the rollout. The 
rollout utilizes a phased approach across the Nation. Lockheed Martin's 
staffing plan to support the Transportation Worker Identification 
Credential rollout is designed to have a Full-Time Equivalent employee 
available to operate each enrollment workstation located at the 
enrollment centers during all hours of operations. Lockheed Martin has 
developed an escalation plan to address greater than anticipated demand 
at any given location that allows for an immediate surge capacity to 60 
hours of enrollments per workstation per week. Further, Lockheed Martin 
has identified prospective reserve labor pools that can be utilized to 
staff each site and to further expand the operating hours of an 
enrollment center to meet the demand of the local population.

    Question 8.: Please provide us with information on the rollout--
specifically, we are interested in learning more about the roll-out 
centers. I've been told that many people will have to drive several 
hours in order to reach these centers. What methodology did TSA use 
when determining the location of these roll-out centers?
    Response: All ports are important to us from both a commercial and 
security standpoint. Ports were chosen based on the need to balance our 
security goals with our need to minimize the impact of the program on 
workers and commerce. When the Transportation Security Administration 
(TSA) and the United States Coast Guard established its overall 
deployment plan we took into account a number of factors, including 
security risk, population estimates, and geographic distribution of 
this population, logistics, program risk, and operational efficiencies. 
These are all important factors TSA must consider in order to minimize 
program costs and inconvenience to applicants.

    Question 9.: Why do transportation workers have to pick up the TWIC 
at the same place that they applied for it? Our nation's transportation 
workers, including those in the trucking and barge industries move 
around frequently. It could be many weeks or months before they are 
able to return to that one location. Why can't they pick up their TWICs 
at different location?
    Response: In order to minimize the cost to the individual, the 
Transportation Worker Identification Credential (TWIC) is produced and 
shipped in a batch process that requires the shipment of the credential 
to the original site of enrollment. Although the Transportation 
Security Administration (TSA) is considering the shipment of the 
credential to locations other than that of the original enrollment, 
this process would increase costs due to required software and system 
changes, as well as an increase in processing and shipping costs. 
Shipping a credential to an enrollment center other than the one at 
which enrollment took place was considered during the planning stages 
of the program. Mailing cards directly to the applicant was also 
considered. Mailing cards directly to the individual raised security 
concerns as the TSA would not be able to ensure the individual 
receiving the card was in fact the individual that applied for the 
card. Although these methods were excluded as part of our original 
business plan, TSA may reconsider these options as experience is gained 
with the current system and processes in order to reduce the burden on 
the affected population.

    Question 10.: TWIC applicants are still not receiving adequate 
information. At a recent rollout meeting, Lockheed Martin 
representatives recommended that TWIC applicants pre-enroll. However, 
the Lockheed Martin was unsure whether or not a pre-enrollee could 
choose their own appointment time. What is the answer to this basic 
question?
    Response: Pre-enrollment is a very important part of the 
Transportation Worker Identification Credential program that reduces 
the time required to enroll, thereby reducing the burden on the 
applicant. An applicant can pre-enroll at anytime. Applicants can 
schedule an in-person enrollment time at a particular port (on the pre-
enrollment website) after the Transportation Security Administration 
announces the start of enrollment at that port via a Federal Register 
Notice.

    Question 11.: Many maritime facilities run on a shift basis. Will 
enrollment centers be open to accommodate those individuals who do not 
work from 9am-5pm?
    Response: The Transportation Security Administration continues to 
monitor enrollment services provided to applicants and will adjust 
these services as appropriate.

    Question 12.: It is my understanding that TSA has woefully 
underestimated the number of TWIC applicants. In Houston alone, the 
estimation was off by more than 320,000. Who came up with the 750,000 
and how much were they paid to come up with this blatantly incorrect 
number?
    Response: The Transportation Security Administration (TSA) Office 
of Finance and Administration led the effort to develop the original 
population estimates, with contractor support from International 
Business Machines Corporation (IBM). The estimated cost for this 
support is $48,000. In developing this estimate, TSA consulted with the 
following government and industry authorities: United States (US) 
Department of Transportation / US Maritime Administration, Army Corps 
of Engineers (Waterborne Commerce), Journal of Commerce, American 
Association of Port Authorities, Bureau of Transportation Statistics, 
A. Strauss-Wieder Inc., Martin Associates, Economic Research 
Associates, International Longshoremen's Association, International 
Longshore and Warehouse Union, United States Maritime Alliance, Pacific 
Maritime Association, American Waterways Operators, Maersk, Wallenius-
Wilhemsen, American Trucking Association, Owner-Operator Independent 
Drivers Association, International Brotherhood of Teamsters (Port 
Division), US Census (Vehicle Information), University of Michigan, 
University of Minnesota, California State University at Long Beach, 
University of Central Florida, American Shipbuilding Association, 
Shipbuilders Council of America, Cruise Industry News, International 
Council of Cruise Lines, Minerals Management Service, National Ocean 
Industries Association, Independent Petroleum Association of America, 
American Petroleum Institute, and the National Petrochemical and 
Refiners Association.
    TSA is continually working with the United States Coast Guard and 
industry stakeholders to gather additional data on the maritime 
population. However, there is sufficient flexibility and capacity in 
the system to accommodate unforeseen fluctuations in the population.

    Question 13.: Do you know how many current port workers will be 
disqualified from getting a TWIC because they are illegal?
    Response: The Transportation Security Administration does not have 
data on the number of individuals that may be disqualified from holding 
a Transportation Worker Identification Credential because of their 
citizenship or immigrant status.

    Question 14.: Ms. Fanguy told us that the Department was not going 
to pre-empt State access cards such as those issued in Florida. Why 
not? Why are you going to force truckers and others to pay more money 
and undergo the same background checks?
    Response: Under this rulemaking, States will not be preempted from 
instituting their own background checks or badging systems in addition 
to the TWIC. We note that a State may be the proprietor of ports or 
port facilities, and as the proprietor is free to set standards for who 
may enter onto their facilities, as does any other proprietor. In 
addition, States may have set standards for reasons other than guarding 
against the threat of terrorism, such as to combat drug smuggling or 
organized crime. As such they are not regulating in the areas that DHS 
is regulating.

    Question 15.: On October 15th, TSA began notifying Hazardous 
Materials Endorsement (HME) applicants (via letter) that two enrollment 
work station laptop computers used process applications of drivers 
applying for the TSA security threat assessment were stolen in separate 
incidents from a TSA contractor. 3,930 applicants were notified. What 
assurances can you give the Committee that this will not happen with 
the TWIC computers?
    Response: Transportation Security Administration (TSA) takes data 
security very seriously. TSA and its contractors are committed to 
maintaining the privacy of personal information and take many 
precautions to protect it. The Transportation Worker Identification 
Credential (TWIC) system incorporates a 256-bit Advanced Encryption 
Standard for whole disk encryption on all enrollment workstations, 
encryption of the enrollment package during transmission through a 
virtual private network, and encryption of the data in the TWIC system, 
which is located at a secure government facility. This standard is a 
National Institute of Standards and Technology standard that is 
approved by the National Security Agency for the transmission of Top 
Secret information and reflects Federal Information Processing Standard 
197. TSA recognizes that data security is an ongoing process, and will 
continue to monitor our systems and practices to enhance the security 
of personal information.

    Question 16.: We learned at an earlier hearing exactly how easy it 
will be to attain a fake TWIC--a card that could be used fraudulently 
until the readers are put in place. When are you going to implement the 
TWIC reader pilot? How long will the pilot run? What is your tentative 
schedule for deployment of readers?
    Response: Vendors are currently developing contactless readers to 
operate with the Transportation Worker Identification Credential. After 
independently testing the readers for compliance with the 
specification, we plan to deploy readers at test sites early in 
calendar year 2008 and begin gathering test data. Delivery of the final 
pilot test report is scheduled for the end of 2008. The test will 
extend through 2008 to achieve all test objectives. However, the test 
is structured to provide data early in the pilot and throughout the 
test.
    As required under the SAFE Ports Act, DHS will implement final 
reader requirements through a rulemaking action and will take into 
consideration the data obtained during the pilot tests in development 
of those requirements.

    Question 17.: According to Ms. Marks testimony, TSA is going to 
release the TWIC reader regulation this year. Is she correct? When is 
TSA going to roll-out the reader pilot?
    Response: Vendors are currently developing contactless readers to 
operate with the Transportation Worker Identification Credential. After 
independently testing the readers for compliance with the 
specification, we plan to deploy readers at test sites early in 
calendar year 2008 and begin gathering test data. Delivery of the final 
pilot test report is scheduled for December 2008. The test will extend 
through 2008 to achieve all test objectives. However, the test is 
structured to provide data early in the pilot and throughout the test. 
Once all pilot test data has been reviewed, we will finalize the 
rulemaking on reader requirements. We anticipate that the regulation to 
establish the requirements for TWIC reader will be promulgated to meet 
the Security and Accountability For Every Port Act deadline of April 
2009.

    Question 18.: According to Ms. Rooney's testimony, TSA has 
maintained a ``veil of secrecy'' around the pilot program. How can you 
expect the Port of New York and New Jersey to adequately participate in 
the pilot if TSA is talking to them?
    Response: The Transportation Security Administration strives to 
maintain good communications with the Port Authority of New York/New 
Jersey (PANYNJ). During our conversations with PANYNJ, we confirmed 
their willingness to participate in the pilot, identified Port Security 
Grant funds to support testing and focused on the first phase of the 
pilot program consisting of technical testing of readers. Through our 
Independent Test Agent, the Space and Naval Warfare Systems Center 
Charleston, we are reaching out to our pilot participants to develop 
site-specific test plans and gather site-specific baseline data.

    Question 19.: According to Ms. Rooney's testimony, the false 
rejection rate for the readers if 9.5 % and 71% of the readers need to 
be replaced within a year due to hardware and display features. It has 
been five years since TWIC was mandated, why does the program continue 
to suffer from such significant flaws?
    Response: The Transportation Worker Identification Credential 
(TWIC) Final Rule does not require owner/operators to purchase, 
install, or maintain card readers. Industry is currently developing 
readers for use in the TWIC pilots where these parameters will be 
tested in the maritime environment.

    Question 20.: The SAFE Port Act required a pilot program on the 
TWIC readers. The Department has decided to fund this program through 
the Port Security Grant program, although this was not required in the 
law. The pilot participants recently sent Mr. Chertoff a letter asking 
him to waive the 25% cost-share requirement for the pilots since all 
other TWIC pilots were fully funded by the government and he has the 
authority under MTSA to waive the cost-share. What is Mr. Chertoff's 
position on waiving the 25% cost-share on TWIC reader pilots?7
    Response: The Security and Accountability For Every Port Act of 
2006 (SAFE Port Act) instructed the Department of Homeland Security to 
conduct a pilot program to test the business processes, technology, and 
operational impacts required to deploy transportation security card 
readers at secure areas or the marine transportation system. The 
overall Transportation Worker Identification Credential (TWIC) program 
and this TWIC Pilot Program are managed by TSA. However, the Pilot 
Program is funded through the Port Security Grant Program (PSGP); 
therefore all of the requirements of PSGP must be met, including the 25 
percent match. Waiver requests for these projects have been submitted 
to the Secretary; however, no decision has been made to date.

    Question 21.: The Port Security Grant program is already providing 
funds for TWIC implementation. One key problem in determining costs is 
the fact that DHS has failed to make certain policy decisions (1) will 
all facilities be required to have use TWIC card reader; (2) At what 
MARSEC level and rates will facilities be required to have biometric 
checks, and (3) Will facilities be required to conduct PIN 
verifications and at what MARSEC levels? What is DHS' timeframe for 
making some of these policy decisions in light of the funding from the 
Port Security Grant program?
    Response: Currently, there are no regulatory requirements 
pertaining to the use of TWIC readers. However, initial testing and 
evaluation of TWIC readers is expected to begin in calendar year 2008 
as part of our pilot phase. Data from the pilot tests will be used to 
inform the second rulemaking which is intended to propose regulations 
related to the use of readers aboard MTSA-regulated vessels and 
facilities.
    DHS intends to complete the TWIC pilot tests and final rule by 
April 2009, which is consistent with the Safe Port Act deadline for 
implementation of a final rule no later than two years after 
commencement of the pilot program that initially was scheduled for 
April 2007.

    Question 22.: We have heard from the biometric card reader 
manufacturers that virtually none of them have commercial off the shelf 
readers that currently meet the TWIC Specifications that were published 
last month and that it could take an average of 3 months for them to 
re-engineer their products. We have also heard claims that the pilot 
projects would not be completed to mid-2009 which would leave us to 
believe that port workers would be using a very expensive ID card as 
nothing more than a flash pass for at least the next 3 years. What is 
the schedule for all phases of the pilot project and what is the latest 
that you expect biometric readers to be deployed in ports?
    Response: Currently reader vendors are developing contactless 
readers to operate with the Transportation Worker Identification 
Credential (TWIC). After independently testing the readers for 
compliance with the specification, we plan to deploy readers at test 
sites early in calendar year 2008 and begin gathering test data. 
Delivery of the final pilot test report is scheduled for December 2008. 
We anticipate that DHS will issue a rulemaking action to establish the 
requirements for TWIC reader; and that DHS anticipates promulgating a 
final rule implanting the reader requirements by April 2009 consistent 
with the Security and Accountability For Every Port Act of 2006 
requirements.

    Question 23.: TWIC was originally required by the Maritime 
Transportation Security Act of 2002. Why did it take 5 years and a 
Congressional mandate in the SAFE Port Act before TSA finally rolled-
out the TWIC program?
    Response: While we are anxious to deploy the Transportation Worker 
Identification Credential (TWIC) program quickly, we are doing so 
carefully in order to provide assurance that each element of the 
program meets our security goals while minimizing the impact on 
individuals and industry.
    TWIC is one component of the comprehensive port security 
enhancements put into place by the Department of Homeland Security. 
TWIC implementation has presented unique challenges, which have been 
compounded by a rapidly changing technology landscape and the added 
demands of operating in the maritime environment.
    During the past three years, the Transportation Security 
Administration (TSA) developed technology and tested the processes to 
collect and protect personal data, conduct security threat assessments, 
issue credentials, and provide for sustained screening operations. In 
May 2006, TSA and the United States Coast Guard began the rulemaking 
process by laying out the government's proposal for how the program 
would be administered. Over 1,900 comments were received and while the 
process traditionally takes more than a year, the final rule was issued 
in just eight months.
    It is important to note that the maritime environment is very 
different from other modes of transportation. There is no central 
owner, and there are diverse employee populations, multiple points of 
access, and extreme working environments.

    Question 24.: It is my understanding that at least four different 
individuals--Elaine Charney, Justin Oberman, Lolie Kull, and now 
Maurine Fanguy have been in charge of the program. This averages out to 
little over a year per person. Is the high rate of turnover the cause 
of the delay?
    Response: The Transportation Security Administration (TSA) has 
provided strong, consistent leadership during the development and 
implementation of the Transportation Worker Identification Credential 
(TWIC) program and continues to do so, in what is a challenging and 
complex program.
    While we are anxious to deploy the TWIC program quickly, we are 
doing so carefully in order to provide assurance that each element of 
the program meets our security goals while minimizing the impact on 
individuals and industry.
    TWIC is one component of the comprehensive port security 
enhancements put into place by the Department of Homeland Security. 
TWIC implementation has presented unique challenges, which have been 
compounded by a rapidly changing technology landscape and the added 
demands of operating in the maritime environment.
    During the past three years, TSA developed technology and tested 
the processes to collect and protect personal data, conduct security 
threat assessments, issue credentials and provide for sustained 
screening operations. In May 2006, TSA and the United States Coast 
Guard began the rulemaking process by laying out the government's 
proposal for how the program would be administered. Over 1,900 comments 
were received and while the process traditionally takes more than a 
year, the final rule was issued in just eight months.
    It is important to note that the maritime environment is very 
different from other modes of transportation. There is no central 
owner, and there are diverse employee populations, multiple points of 
access, and extreme working environments.

    Question 25.: In the SAFE Port Act, Congress mandated that TSA 
roll-out the TWIC program at the top ten ports. I have seen your list 
and I do not think that it meets the Congressional mandates? How did 
TSA select the first 10 ports for the rollout? What roll did contractor 
resources play in this decision?
    Response: All ports are important to us from both a commercial and 
security standpoint. Ports were chosen based on the need to balance our 
security goals with our need to minimize the impact of the program on 
workers and commerce. When the Transportation Security Administration 
(TSA) and the United States Coast Guard established its overall 
deployment plan we took into account a number of factors, including 
security risk, population estimates, and geographic distribution of 
this population, logistics, program risk, and operational efficiencies. 
These are all important factors TSA must consider in order to minimize 
program costs and inconvenience to applicants.

    Question 26.: Please provide us with information on how TSA 
selected Lockheed as the prime contractor.
    Response: The Transportation Security Administration selected the 
prime contractor through an open, competitive process that included a 
solicitation for qualified vendors, a down select of those qualified 
vendors, and a technical and cost evaluation of submitted proposals by 
teams that included personnel from various Federal agencies.

    Question 27.: Has TSA hired the administrative judges that will be 
needed to adjudicate waivers and appeals?
    Response: The United States Coast Guard's (USCG) Administrative Law 
Judges (ALJs) hear administrative matters for the Transportation 
Security Administration (TSA), and pursuant to a Memorandum of 
Understanding between TSA and the Coast Guard, will review denials of 
Transportation Worker Identification Credential (TWIC) appeals and 
waivers.
    The USCG ALJ Docketing Center assigns ALJs to cases based on 
geographic areas of responsibility and caseload. While the USCG 
recently hired two additional ALJs, all seven ALJs are available to 
preside. USCG ALJs have been hearing TSA civil penalty cases and airman 
certificate revocation cases for several years and have begun reviewing 
denials of Hazardous Material Endorsements for Commercial Drivers 
Licenses under the same rules that will be used for review of TWIC 
appeal and waiver denials.

    Question 28.: According to a recent report by the U.S. Attorney 
General, the FBI's rap sheets are ``still missing final disposition 
information for approximately 50% of its records.'' As a result, the 
rap sheets used by TSA to assess the criminal history record of TWIC 
applicants routinely fail to include critical information like the 
results of arrests and dismissals of charges. And, in contrast to other 
federal agencies, TSA does relatively little to track down the 
information. The incomplete nature of FBI rap sheets is an area of 
special concern, especially as it impacts large numbers of workers who 
receive an initial negative determination by TSA based on incomplete 
information.

    <bullet> Is it true that large numbers of workers are initially 
disqualified based on incomplete information on the FBI rap sheet, like 
the disposition of an arrest?
    Response: Only a small number of workers should be affected by this 
issue. It is TSA's experience working with HME drivers that less than 2 
percent of all cases received required further information from the 
applicant based on an open disposition for a potentially disqualifying 
offense(s).
    <bullet> Can TSA tell us how many initial determinations of 
security threat assessment (IDA) were based on old arrest information 
that had not resulted in a conviction? And how many of these cases were 
appealed and then reversed by TSA?
    Response: The Transportation Security Administration (TSA) does not 
specially track the number of initial determination of threat 
assessments (Iotas) that were issued based on old arrest information 
that had not resulted in a conviction; however it does track the total 
number of IDTAs issued. As of November 25, 2007, TSA has issued 21,197 
Hazardous Materials Endorsement IDTAs for a total population of over 
700,000 applicants. As a result of the IDTAs issued, TSA has received 
11,622 appeal requests, of which 11,513 were granted and 109 were 
denied, and 1,104 waiver requests, of which 902 were granted and 78 
were denied.

    <bullet> Is it true that the FBI rap sheets often do not say when 
someone was released from incarceration, which means they may have been 
disqualified even thought they were released more than five years from 
when they applied for the TWIC contrary to the federal law? Can you 
tell us how many initial determinations were reversed on appeal based 
on information indicating that the individual was released from 
incarceration outside the required 5-year time period?
    Response: The Transportation Security Administration does not 
specifically track the released from incarceration date. Appeals are 
granted when an applicant provides valid documentation showing that 
their potentially disqualifying offense was dismissed, reduced from a 
felony to a misdemeanor, did not result in a disqualifying offense, was 
expunged, and/or falls outside of the 5 year time period.

    <bullet> How often was an initial determination reversed on appeal 
based on information indicating that the individual was convicted of a 
misdemeanor, not a felony?
    Response: The Transportation Security Administration does not 
specifically track convictions that were initially adjudicated based on 
a felony conviction but later determined to be misdemeanor convictions.

    <bullet> Question: If nearly all the appeals being filed with TSA 
are resolved in favor of the workers because the information from the 
FBI raps sheets is inaccurate or incomplete, what can TSA do to change 
its process to reduce the burden on workers to file appeals and go to 
great lengths to provide copies of relevant court information? Has TSA 
looked at the process required by the Brady Act, where the FBI tracks 
down most missing dispositions before making a gun check determination? 
[Note: TSA/Lockheed Martin could call the local courts or the state 
criminal records agencies for the missing records, they could call 
state departments of correction to find out date of release from 
incarceration for people who indicate they were released more than 5 
years before the date of the application, calling state criminal record 
repository staff to ascertain the level of offenses listed on the FBI 
rap sheet.]
    Response: The Transportation Security Administration (TSA) 
participates in a working group created to identify national solutions 
to facilitate the more efficient and complete uploading of state 
criminal history records to the Federal Bureau of Investigation (FBI), 
thereby improving the quality and quantity of records that can be 
accessed through one consolidated national data set in order to reduce 
the burden on the applicant. This working group includes the Compact 
Council, FBI-CJIS (Criminal Justice Information Services), TSA and 
various state representatives.
    TSA makes every effort to contact applicants and collect 
information in a timely fashion being mindful of overall program costs 
on the entire applicant population and not just those utilizing the 
appeals and waiver process.

    Question 29.: Large numbers of workers employed at the ports may 
have a criminal record, like a drug offense, dating back to when they 
were young and were not employed. The federal law provides that they 
may qualify for a ``waiver'' of the disqualifying crime if they can 
show they have been rehabilitated, they have a strong work history and 
no record of other major crimes. In fact, most of the waivers submitted 
to TSA are granted, but the number of requests under the hazmat program 
has been very low compared to the legitimate need.
    <bullet> What has been TSA's experience with the hazmat program 
with workers who have applied for waivers after receiving an initial 
threat assessment based on a showing that they have been rehabilitated 
as authorized by the federal law?
    Response: When applying for a waiver, applicants are asked to 
provide documentation that demonstrates their rehabilitation including 
certificates from drug/alcohol treatment facilities, certificates from 
anger management courses, certificates from sex offender treatment 
programs, letters of recommendation from probation/parole officers, 
and/or lack of further criminal activity.
    The Transportation Security Administration (TSA) has received 1,104 
waiver requests from the applicants in the hazmat program of which, 902 
were granted and 78 were denied.

    <bullet> Is it true that most waivers are decided in favor of the 
workers based on their work history and an isolated or older criminal 
record?
    Response: When applying for a waiver, applicants are asked to 
provide documentation that demonstrates their rehabilitation, including 
certificates from drug/alcohol treatment facilities, certificates from 
anger management courses, certificates from sex offender treatment 
programs, letter of recommendation from probation/parole officers, and/
or lack of further criminal activity.
    The Transportation Security Administration (TSA) has received 1,104 
waiver requests from the applicants in the hazmat program of which, 902 
were granted and 78 were denied.

    <bullet> Do you think that the number of waiver requests coming in 
to TSA accurately reflects the potential number of candidates who 
likely qualify for a waiver? Is there more that could be done by TSA, 
Lockheed Martin or others to help promote the waiver process?
    Response: The Transportation Security Administration (TSA) does not 
have data on the number of potential candidates who likely qualify for 
a waiver versus the number that have actually applied. TSA has, and 
continues, to work with industry stakeholders to provide information 
and education on the appeals and waivers process. Information is 
provided on our website, during meetings and briefings, and the 
corresponding letters and informational materials provided with the 
letters are clear and concise.

    Question 30.: There are federal policies and procedures regarding 
the need to provide meaningful access to services for persons with 
limited English proficiency (LEP). These are governed by Executive 
Order 13166 and the Department of Justice (DOJ) guidance that carries 
out the Executive Order, DOJ Guidance to Federal Financial Assistance 
Recipients Regarding Title VI Prohibition Against National Origin 
Discrimination Affecting Limited English Proficient Persons, 67 Fed. 
Reg. 41455 (2002). As DOJ has explained, these polices apply to the 
Department of Homeland Security and TSA: ``Pursuant to Executive Order 
13166, the meaningful access requirement of the Title VI regulation and 
the . . . analysis set forth in the DOJ LEP Guidance are to 
additionally apply to the programs and activities of Federal agencies, 
including the Department of Justice.'' DOJ Guidance, 67 Fed. Reg. at 
41459 n.4. Appropriate language access is a serious concern for the 
TWIC application, waiver and appeal processes given that immigrants 
make up a large segment of the port and trucking workforce, especially 
in major port states like California, Texas, Florida, and New Jersey/
New York.
    Has TSA looked at Executive Order 13166 and the Department of 
Justice guidance that lays out the translation and interpreter services 
to be provided by federal agencies, like TSA, when they implement 
activities like the TWIC program?
    Response: Yes. Section 2 of the Executive Order, entitled 
``Federally Conducted Programs and Activities'' provides that each 
Federal agency must work to ensure that persons with limited English 
language proficiency (LEP) have meaningful access to the agency's 
programs and activities. The Department of Justice guidance on the 
Executive Order (Limited English Proficient (LEP Guidance)) discusses a 
variety of tools that agencies may use to meet the spirit of the Order, 
including translating important documents and permitting LEP persons to 
use their own interpreters. In the Transportation Worker Identification 
Credential (TWIC) program both of these suggested tools have been 
incorporated into the enrollment process. The TWIC program provides 
communications materials in Spanish and English. Our pre-enrollment 
website and our help desk services are offered in Spanish and English. 
The TWIC Disclosure Form accommodates the use of a translator in order 
to assist individuals who are not proficient in English. The LEP 
Guidance does not require the use of government interpreters, and 
because the TWIC program is entirely fee-based, we do not believe that 
hiring interpreters to work at enrollment sites is advisable at this 
time. Such services would be costly and would undoubtedly increase the 
cost of the credential for all TWIC applicants.


    Question: Has TSA surveyed the number of potential number of TWIC 
applicants employed in any of the ports who are likely limited English 
proficiency? If so, can you tell us the results of these efforts? 
[Note: The DOJ guidance contains a ``safe harbor'' provision which 
requires written translation of any ``vital'' documents for limited 
English proficiency language groups that constitute either 5% or 1,000, 
whichever is less, of the population affected.]
    <bullet> What translation or interpreter services, if any, are 
provided by TSA when workers appear in person to enroll for a TWIC or 
when they seek to negotiate the appeal or waiver process?
    Response: The Transportation Worker Identification Credential 
(TWIC) Program provides communications materials in Spanish and in 
English. Our pre-enrollment website and our help desk services are 
offered in Spanish and in English. The TWIC Disclosure Form 
accommodates the use of a translator in order to account for 
individuals who are not proficient in English.
    Additional translation and/or interpreter services would subject 
the program to additional costs, and would, since the TWIC Program is 
fee-based, increase the cost of the credential.
    <bullet> Is it TSA's position that family members and friends are 
qualified to translate for workers as part of the TWIC enrollment 
process? Has that been communicated to the ports or the workers? Is 
that position consistent with the Department of Justice guidance on 
federal activities regulating limited English speakers? [Note: DOJ 
Guidance recommends that professional interpreters be provided free of 
charge rather than having friends and family members interpret because 
friends and family are ``not competent to provide quality and accurate 
interpretations. Issues of confidentiality, privacy, or conflict of 
interest may arise. LEP individuals may be uncomfortable revealing or 
describing sensitive, confidential, or potentially embarrassing 
medical, law enforcement . . . family, or financial information to a 
family member, friend, or member of the local community.'']
    Response: We permit any Transportation Worker Identification 
Credential (TWIC) applicant to use an interpreter in the pre-enrollment 
and enrollment processes, and do not place restrictions on who the 
interpreter must be. In addition to the Limited English Proficiency 
(LEP) Guidance language you cite in your question, the LEP Guidance 
also states that where LEP persons desire, they should have the 
discretion to use friends or family members as interpreters because LEP 
persons may feel more comfortable when a trusted family member or 
friend acts as an interpreter.
    The TWIC Program provides communications materials in Spanish and 
in English. Our pre-enrollment website and our help desk services are 
offered in Spanish and in English. The TWIC Disclosure Form 
accommodates the use of a translator in order to account for 
individuals who are not proficient in English.
    Additional translation and/or interpreter services would subject 
the program to additional costs, and since the TWIC Program is fee-
based, would increase the cost of the credential.

    Question 32.: It is my understanding that the Homeland Security 
Department is considering how to fit TWIC standards into the 
requirements it is developing for the Western Hemisphere Travel 
Initiative's People Access Security Service card. Ralph Basham, 
Commissioner of DHS' Customs and Border Protection agency, recently 
said that his directorate sees significant benefit for TWIC card 
holders to be able to use the credentials to enter the United States. 
When is the Department going to implement this new plan?
    Response: The Western Hemisphere Travel Initiative (WHTI) is the 
plan to require all travelers, U.S. citizens and foreign nationals 
alike, to present a passport or other secure document or combination of 
documents that denote identity and citizenship when entering or 
reentering the United States.
    The Department has selected Vicinity RFID technology for its land 
border management system, believing that it affords the most benefits 
for travelers while balancing security. Vicinity RFID technology will 
be incorporated into new WHTI-compliant documents, such as the Passport 
Card issued by the Department of State and the Enhanced Driver's 
License issued by the States. The Border Crossing Card will also be 
upgraded to include vicinity RFID technology.
    DHS is looking and will continue to look at harmonizing programs 
and identification documents used by its agencies in their various 
missions. However, at present, the Department does not believe that the 
TWIC card would be suitable as an alternative to the passport because 
it does not denote citizenship and is not intended as a travel 
document. Accordingly, CBP has no current plans to accept the TSA-
issued TWIC cards as a secure WHTI-compliant document for entry through 
a port of entry.
    A media report of Commissioner Basham's remarks slightly 
misconstrued his response about looking at future harmonization of the 
Department's secure documents and trusted traveler programs as an 
eventual goal and instead portrayed it as a statement that TWIC cards 
would or could be used as WHTI compliant documents.

Question from the Honorable Paul C. Broun, a Representative in Congress 
                       From the State of Georgia

     Responses from the Honorable Edmind ``Kip'' Hawley, Assistant 
           Secretary, Transportation Security Administration

    Question 33.: One of the requirements of the SAFE Port Act was to 
conduct a threat assessment of all truck drivers entering a port. We 
understand that TSA plans on meeting this requirement by doing a check 
against the terrorist watchlist and the immigration status database of 
all CDL holders. What is the status of this requirement?
    Response: The Transportation Security Administration (TSA) 
anticipates completion of the threat assessments for port truck drivers 
by summer 2008. Collection of driver information from all state motor 
vehicle licensing agencies is underway at this time. There is 
substantial variation in the technological capabilities of the states, 
leading some to respond to TSA's request earlier than others. Also, as 
the Transportation Worker Identification Credential is deployed across 
the country we will enroll these drivers and they will go through a 
much more thorough check than the name-based check, and it will be done 
perpetually.

Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

                  Responses from Admiral Brian Salerno

    Question 1.: It is my understanding that the enforcement of TWIC is 
going to be delegated to each Captain of the Port--setting up a 
patchwork quilt of enforcement. Why did you make this decision?
    Response: Section 70103 of the Maritime Transportation Security Act 
of 2002 (MTSA) required the Secretary to prepare a National Maritime 
Transportation Security Plan (NMTSP). MTSA required the NMTSP to, among 
other things, designate ``a Coast Guard official who shall be the 
Federal Maritime Security Coordinator for each such area''. The NMTSP 
met this requirement by designating 45 Coast Guard Captains of the Port 
(COTP) as the Federal Maritime Security Coordinator (FMSC) for their 
areas of responsibility. The FMSC is required to enforce all MTSA 
regulations (Title 33, Code of Federal Regulations, Subchapter H.), 
which include vessel and facility security requirements. TWIC 
implementation will modify these requirements, and Coast Guard COTP/
FMSCs will continue to be responsible for their oversight and 
enforcement throughout their local areas of responsibility. When 
coupled with nationwide enforcement guidance and standards from Coast 
Guard headquarters, this system in fact creates not a patchwork quilt, 
but a robust web of enforcement.

    Question 2.: When is the Coast Guard going to begin enforcing the 
TWIC card?
    Response: The Coast Guard will begin enforcing the TWIC regulations 
for regulated facilities after the compliance date is announced for 
each Captain of the Port zone. Currently, enforcement is expected to 
begin for regulated vessels and all Coast Guard credentialed mariners 
nationwide on September 25, 2008.

    Question: Absent readers, does the Coast Guard currently have the 
technology to differentiate between real and fake TWICs?
    Response: Absent readers, the Coast Guard and other Federal 
agencies, security personnel, and owners/operators of regulated 
facilities and vessels will rely upon physical inspection of the TWIC's 
state-of-the-art, tamper-resistant, security features to determine a 
TWIC's authenticity.

    Question 4.: The Coast Guard issued an advisory notice to the 
maritime community last week notifying them that criminal elements were 
trying to attain information that could be used to create fake TWICs in 
the Ports of Long Beach and Los Angeles. What steps have you taken to 
minimize this possibility?
    Do you know if criminal elements are trying to obtain information 
at other ports around the nation? If so, which ones?
    Response: The Transportation Security Administration has designed, 
developed and produced TWICs to minimize the possibility of 
counterfeiting. In addition to incorporating physical security 
features, color shifting ink, holograms, micro-text, fluorescent 
markings, and other state-of-the-art, tamper-resistant features into 
the TWIC card and laminate, the TWIC system incorporates a chain-of-
trust that addresses multiple levels of security throughout the 
application, vetting, production, issuance, and data maintenance 
phases. These are all based on existing Federal credentialing 
standards. Beyond the instance cited in the advisory notice, the Coast 
Guard is unaware of any organized attempt to obtain information for 
counterfeiting the TWIC.

    Question: We understand that there are critical policy questions 
like how often the biometric must be verified and whether or not port 
workers will need to scan in and out of a secure area, that haven't yet 
been addressed yet, which arguably should have been done before the 
technical solution was identified. What is your timeframe and plan for 
addressing these critical issues with industry?
    Response: The Coast Guard is conducting a risk assessment to 
determine whether and how often ports workers would need to scan in or 
out of secure areas and will include that assessment in its future 
rulemaking action to implement the TWIC reader requirements. The Coast 
Guard will continue to engage industry and labor throughout this 
rulemaking process. DHS is also conducting SAFE Port Act-required pilot 
tests of electronic TWIC readers, which involves implementation of 
readers with industry to test business processes, technology, and 
operational impacts. As required under the SAFE Ports Act, the final 
TWIC reader regulations will consider the information obtained from 
these pilot tests.

    Question: I am concerned about the recommendations recently 
submitted to the Coast Guard by the Maritime Transportation Security 
Advisory Committee (NMSAC) that suggest that the biometric verification 
feature of the card should only be required at elevated maritime 
security (MARSEC) threat levels. If the TWIC is not used for biometric 
verification 100% of the time on a routine basis to verify identity, 
then the whole purpose of a biometric credential is undermined. Any one 
can pick up a card and flash it to gain access to secure areas. 
Biometric verification is the only way to ensure that the person 
presenting a credential is the person to whom it was issued. Congress 
did not authorize this program and the resource investment only to 
create an expensive flash card that does not enhance security. Do the 
Coast Guard and TSA TWIC Program Office agree that they will perform 
biometric verification on a day-to-day basis as part of normal 
operations--subject of course, to validation of the effectiveness of 
the technology during the pilot test?
    Response: The Coast Guard is considering a variety of options for 
use of TWIC readers and will propose specific requirements in a future 
rulemaking action. DHS intends to test a number of TWIC reader 
scenarios during the pilot, including biometric verification on a day-
to-day basis as part of normal operations. The results of these tests 
and associated lessons-learned will be used to inform rulemaking policy 
before any rule is finalized.

    Question 7.: You mention that facilities will be able to redefine 
their secure areas, limiting the number of employees that would be 
required to have a TWIC (as an employee is only required to have a TWIC 
to gain access to secure areas).
    Can you give some examples of where this is appropriate? Who makes 
the ultimate decision as to what the secure area is?
    Can a facility completely eliminate all secure areas (and thus the 
need for TWICs)? Doesn't this undermine the intent of the Maritime 
Transportation Security Act of 2002?
    Response: When the Maritime Transportation Security Act (MTSA) 
regulations were first implemented, many facility owners/operators 
defined the regulated area of their facilities based on pre-existing 
infrastructure. For instance, a large facility with an existing 
perimeter fence may have defined the entire area inside the fence as 
the MTSA regulated area, and wouldn't, in turn, have to buy additional 
fencing. They did so even though significant portions of the facility 
may not have had a marine transportation nexus. Now that TWIC is being 
implemented, some facility owners, (i.e. facilities with significant 
non-transportation related manufacturing or processing operations), 
have the opportunity to refine their original definitions of the MTSA-
regulated areas and establish secure areas where the TWIC will be 
required for employees with maritime transportation job functions. 
Redefining secure areas for the purposes of the TWIC will bring many 
facilities closer to the original intent of the MTSA regulations by 
identifying those areas specific to maritime transportation. The 
existing regulated areas defined in the Facility Security Plans will 
continue to be governed by the requirements of 33 CFR 105, but TWIC 
access will be required only for the transportation-related operations 
areas as are being defined by the facilities.
    As such, in accordance with regulation and policy, owners or 
operators with significant non-maritime related portions of their 
facility have the option of requesting a redefinition of their secure 
areas (where the TWIC will be required) to include only the maritime 
transportation-related portions of the facility. The local Coast Guard 
Captain of the Port reviews (and approves or disapproves) requests to 
redefine secure areas in their zone. Since facilities cannot eliminate 
all secure areas under this provision, the act of redefining secure 
areas does not undermine the intent of MTSA.

 Questions from the Honorable Paul Broun, a Representative in Congress 
                       from the State of Georgia

                  Responses from Admiral Brian Salerno

    Question 8.: What role does the Coast Guard have in the Card Reader 
pilot?
    Response: The Coast Guard is assisting TSA with the planning, 
scenario development and execution of pilot tests. The Coast Guard will 
use the pilot results to inform the second rulemaking which is planned 
to propose the use of readers for owners and operators of regulated 
vessels and facilities. The Coast Guard and TSA formally joined efforts 
to carry out the TWIC program in November 2004. In this partnership, 
TSA is responsible for TWIC enrollment, security threat assessment and 
adjudication, card production, TWIC issuance, conduct of the TWIC 
appeal and waiver process, and management of government support 
systems. The Coast Guard is responsible for establishing and enforcing 
TWIC access control requirements at regulated vessels and facilities. 
Both agencies partner daily to make sure that our collective efforts 
achieve the increased security objectives which MTSA intended.

                                 <all>

</pre></body></html>
